<html>
<title> - ELEVEN YEARS AFTER 9/11 CAN TSA EVOLVE TO MEET THE NEXT TERRORIST THREAT?</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   ELEVEN YEARS AFTER 9/11 CAN TSA EVOLVE TO MEET THE NEXT TERRORIST 
                                THREAT? 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 11, 2012

                               __________

                           Serial No. 112-114

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

80-854 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois, Vice Chair      Ron Barber, Arizona
Robert L. Turner, New York           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                 Vacant, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     2

                               WITNESSES
                                Panel I

Mr. Geoff Freeman, Chief Operating Officer, U.S. Travel 
  Association:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. James J. Carafano, Ph.D., Director, Douglas and Sarah Allison 
  Center for Foreign Policy Studies, Deputy Director, Kathryn and 
  Shelby Cullom Davis Institute for International Studies, The 
  Heritage Foundation:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Mr. Sam Gilliland, Chief Executive Officer, Sabre Holdings:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19

                                Panel II

Mr. John W. Halinski, Deputy Administrator, Transportation 
  Security Administration, Department of Homeland Security:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Mr. Stephen M. Lord, Director, Homeland Security and Justice 
  Issues, Government Accountability Office:
  Oral Statement.................................................    45
  Prepared Statement.............................................    46


   ELEVEN YEARS AFTER 9/11 CAN TSA EVOLVE TO MEET THE NEXT TERRORIST 
                                THREAT?

                              ----------                              


                      Tuesday, September 11, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Lungren, Turner, Jackson 
Lee, Richmond, and Barber.
    Mr. Rogers. The Committee on Homeland Security, 
Subcommittee on Transportation Security will come to order. The 
committee is meeting today to discuss what steps TSA can take 
in order to meet the evolving terrorist threat.
    I want to let you all know if you hear the buzzer, we are 
going to be called for votes in a few minutes. So what I want 
to do is go ahead and hopefully try to get all of our opening 
statements in before we have to recess for the votes then we 
will be over about 30 minutes then I will come back and we will 
kick right back up.
    I want to thank all the witnesses for being here, the time 
it took to prepare for this is very valuable to us but also I 
recognize that it takes a lot time and energy on your part, so 
thank you very much.
    Today marks the 11th anniversary of the September 11 
terrorist attacks that took nearly 3,000 innocent lives.
    Before I begin my opening remarks, I would like to ask 
everyone to join me in a moment of silence to honor the lives 
of those that were lost on that tragic day.
    Thank you. I know anybody that has watched TV this morning 
shares my sentiments. It is a tough day when you think about 
all those lives and those families who are remembering their 
loved ones today that they lost on that tragic day.
    Since TSA's creation after 9/11, the agency has gone down 
to a troubling path of overspending, limiting private sector 
engagement, and failing to sufficiently protect passenger 
privacy.
    Based on vigorous oversight by the Subcommittee on 
Transportation Security, the Majority staff issued a report 
this week that we believe shines a bright light on TSA and lays 
the groundwork for meaningful reform.
    Without objection I would like to insert a copy of that 
report into the hearing record at this time; hearing none, so 
ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files.
---------------------------------------------------------------------------
    Our report highlights key findings from the subcommittee's 
oversight and makes several recommendations to TSA.
    Based on our findings, I believe we can advance risk-based 
security by prioritizing the harmonization of aviation security 
standards worldwide, adopting a comprehensive plan to mitigate 
evolving threats, and expanding the use of canine explosive 
detection assets.
    I believe we can strengthen privacy protections by 
enlisting the private sector to modernize and automate the path 
of your screening process to reduce pat-downs, implementing 
privacy software on all AIT machines and sponsoring an 
independent analysis of the potential health impact of AIT 
machines.
    I believe we can limit spending by reducing the size of 
TSA's workforce, conducting cost-benefit analyses for all major 
programs and purchases and communicating with industry to avoid 
setting technology requirements that are just not attainable.
    I believe we can create jobs by contracting with the 
private sector to perform screening and establishing a 5-year 
procurement plan to guide future investments in aviation 
security technology, research, and development and I believe we 
can cut red tape by working with stakeholders to streamline 
existing security regulations, issuing final rules for long 
overdue security programs and reforming the prohibited items 
list to better reflect evolving threats.
    Here is the bottom line--it takes time to reform TSA. In 
fact, it has been a long time coming. I am eager to hear the 
inside perspective from our witnesses today as this 
subcommittee continues to examine ways in which TSA can become 
a leaner, smarter organization.
    With that, I now recognize the Ranking Member of the 
subcommittee, my friend, the gentle lady from Texas, for 5 
minutes for her opening statement.
    Welcome.
    Ms. Jackson Lee. For most of America, this is a very solemn 
day and certainly a day of remembrances. I think it is 
appropriate, as the Chairman has already done to acknowledge 
this--for this room for a moment of silence which has occurred. 
But I also think it is important to acknowledge the families 
that still mourn, communities that are still traumatized by the 
loss of so many of their neighbors.
    I believe that all of us can remember where we were and I 
know that for most of the committee Members, if they were not 
here in the United States Capitol, they were somewhere in 
America.
    So I believe it is important to hold a hearing that 
reflects upon the concerted and unified effort of Members of 
Congress to respond to the horrific attack on the United States 
of America.
    Over the course of the years, we have lost soldiers on 
battlefields in faraway places where there have been who have 
been willing to sacrifice for this country.
    I do want to acknowledge families--in particular, 
children--for many of us remember the term ``latchkey 
children'' when many in the New York and surrounding areas went 
home to empty places; for their family members, mothers and 
fathers, had been lost already earlier that day and the tragedy 
of 9/11.
    Remember the brave and heroic members who detoured a plane 
that landed in a field in Pennsylvania.
    For those of us who were here who were evacuated from the 
United States Capitol, remember running without information, 
remember looking to the sky and the building smoke of the 
Pentagon and wondering what was next--The White House, The 
State Department, or the United States Capitol?
    So this hearing is important for hopefully its unity as 
well, for we can say that with the creation of the U.S. 
Department of Homeland Security, although we did not have years 
and months and weeks to deliberate, we created a buffer, a 
barrier, of security for the United States.
    With that in mind, although there have been attempts, we 
have not had a tragic event on this soil.
    So although it is sadness, I have a sense of 
accomplishment--not for any personal accomplishment--but what 
we have been able to do together. In the midst of tragedy and 
trauma, America has come together. American public demonstrated 
a resilient character filled with valor and dedication to 
reveal our strength and ensure that aviation security will 
become a priority for the Federal Government.
    Let me thank the families who pushed for the establishment 
of the 9/11 Commission to conduct a thoughtful evaluation and 
identify vulnerabilities across our security policies.
    I don't know if they can hear my voice, but it was my honor 
to get to know so many of them as they walk the hallways in the 
midst of their tragedy. They were willing to put their burdens 
down and fight to make America better, and I think we have done 
so.
    This is the Transportation Security Committee and we have 
not had a tragic catastrophic incident through the Nation's 
airlines, though we know that it is still the most attractive 
target for a franchise terrorist or organized terrorism.
    So, we thank the American public for willingness to have 
its cargo and baggage screened, individual screening. We thank 
the former men and women of the United States military and law 
enforcement who have joined the transportation security 
administration, making up the TSA as TSO officers.
    I look forward to the oversight that is important to be 
able to address questions that have been raised. But again, 
with all the loss and all that has gone before us, we recognize 
that TSA has been in the front lines, not perfect, but ready 
for work because they show up every day.
    I look forward, Mr. Chairman, that we can again look to a 
markup of the TSA Authorization bill at the full committee 
level. This will continue to ensure that we integrate key 
findings and lessons learned from various audits.
    But 11 years later, the American public has not forgotten 
why we are here today and neither have I. I urge my colleagues 
on both sides of the aisles and on the other side of the aisles 
to recognize that the 9/11 hijackers of that day have not shown 
up at our doorsteps again. We must give tribute and recognition 
to those who died, those who mourn, those who yet live in pain; 
for those serve every single day trying to do better on behalf 
of the United States of America.
    I am grateful for that. For that I say God bless this 
Nation.
    I yield back.
    Mr. Rogers. I thank the gentlelady for that very thoughtful 
illustration of how important this day of remembrance is. I 
would also point out to the members of the audience that, when 
you look around the room at the photos we have, it is 
specifically to be a reminder to everybody in this chamber that 
this committee exists solely for the purpose of preventing that 
from ever happening again.
    We are pleased to have several distinguished witnesses 
before us today on this important topic. Let me remind the 
witnesses, their entire statements will appear in the record. 
Also, remind Members of the committee that if they have opening 
statements they can submit those for the record.
    Our first witness is Mr. Geoff Freeman--currently serves as 
chief operating officer of the U.S. Travel Association.
    Thank you for being here, Mr. Freeman. You are recognized 
for 5 minutes to summarize your statement.

   STATEMENT OF GEOFF FREEMAN, CHIEF OPERATING OFFICER, U.S. 
                       TRAVEL ASSOCIATION

    Mr. Freeman. Chairman Rogers, Ranking Member Lee, and 
Members of the subcommittee, I thank you for the invitation to 
testify today. I am pleased to offer my viewpoints on behalf of 
the U.S. Travel Association, which represents the entirety of 
the travel industry, with the goal of increasing travel to and 
within the United States.
    The most critical elements to increasing travel are safety 
and efficiency in the travel experience. Since the tragic 
events of 9/11, TSA has stood as the gateway to air travel. To 
TSA's immense credit, no further acts of terrorism have taken 
place.
    My testimony today challenges Congress and TSA to match its 
immense security successes with equal improvements in the 
facilitation of travel. Improvements in facilitation will lead 
to dramatic increases in travel. Dramatic increases in travel 
mean more jobs, stronger local communities, and a more vibrant 
American economy. Anyone who claims that world-class security 
prevents efficient and friendly processing of travelers is 
creating a Hobson's Choice that you must reject.
    TSA faces three significant challenges today. The first is 
embracing risk management. The threats we face are infinite. 
Demanding perfection, rather than encouraging risk management, 
will cause TSA to be inefficient, wasteful, and ultimately less 
effective.
    The second challenge TSA faces is growing inefficiency 
within security screening that is frustrating millions of 
travelers. A 2010 survey found that travelers would take two to 
three more flights per year if the hassles in security 
screening were reduced. These increased flights would lead to 
$85 billion in more spending and help to create nearly 1 
million American jobs.
    The third challenge that TSA faces is sharp budgetary 
growth. In fact, the cost of screening per passenger rose by 
over 400 percent since 2001. Over the past 7 years, TSA's 
budget increased by 68 percent while the number of travelers 
essentially stayed flat.
    In 2010, U.S. Travel commissioned a bipartisan panel of 
aviation security experts to propose innovative solutions to 
these challenges. I am pleased that Sam Gilliland of Sabre is 
here today to discuss these recommendations.
    One of the panel's most important recommendations was 
creating a Trusted Traveler program that enabled TSA to manage 
risk, rather than embrace the one-size-fits-all approach of the 
past.
    To its credit, TSA has taken several steps to become a more 
risk-based organization, most notably with the launch of 
PreCheck. Unfortunately, there are several fundamental flaws to 
PreCheck that will prevent the program from having a meaningful 
impact on sufficiency and security.
    The foundation of PreCheck is based on airline frequent-
flier data, or a Customs and Border Protection program, Global 
Entry, designed for frequent international travelers. Global 
Entry is an excellent program, and has many traits that should 
be included in PreCheck, but it is also known for a cumbersome 
process.
    After navigating a poor enrollment website, a person living 
in Montgomery, Alabama would have to travel more than 300 miles 
to Atlanta, Georgia in order to conduct their interview. If the 
traveler wishes to join through an airline, U.S. Travel 
estimates that it would cost roughly $10,000 in airfare paid to 
a single carrier in order to qualify for PreCheck. Even at 
that, they are only eligible for a single airline.
    The other shortcomings of PreCheck include low rates of 
utilization and high rates of unpredictability and randomized 
screening. For PreCheck to benefit travelers, there must be 
some element of predictability. Although I am a member of the 
Global Entry program, have passed the background check and paid 
$100, I have been rejected for PreCheck on five out of seven 
occasions.
    There are several solutions to these problems. The first is 
that TSA can leverage private-sector innovation and technology 
to expand PreCheck to the average traveler. For example, the 
company Clear currently has the technology and capability to 
provide passengers with secure biometric identification and 
robust background checks. Clear is already at four airports 
across the country.
    Second, any PreCheck passengers should be able to use the 
program, no matter which airline they are flying or how they 
enrolled. The system should be based on risk and efficiency, 
not customer loyalty.
    Last, TSA can increase predictability by using in-depth 
background checks and secure identification, which will allow 
TSA to lower its rates of randomized screening.
    Congress must also embrace that it has an important role 
here in helping TSA solve its long-term problems. There are at 
least three things that you can do to help TSA speed up their 
efforts.
    The first is to continue to take an aggressive line on 
hearings and oversight, and the reports like that which you 
issued this week. TSA often changes its behavior or makes 
better decisions based on the questions and guidance that you 
provide.
    Second, we need to see a TSA reauthorization bill. Finally, 
in everything that you do, remember that security and 
efficiency are equal and obtainable goals. Continue to 
challenge TSA to achieve both.
    Thank you.
    [The prepared statement of Mr. Freeman follows:]
                  Prepared Statement of Geoff Freeman
                           September 11, 2012
    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
subcommittee: I am pleased to offer testimony on behalf of the U.S. 
Travel Association (U.S. Travel), the National, non-profit organization 
representing all sectors of America's travel industry. U.S. Travel's 
mission is to increase travel to and within the United States.
    The travel industry provides good, domestic jobs that cannot be 
outsourced. In 2011, travel spending in the United States totaled $813 
billion, which generated a total of $1.9 trillion in total economic 
output. The travel industry also supported 14.4 million jobs and was 
among the top 10 employers in 48 U.S. States and the District of 
Columbia. For example, travel directly employs more than 10,000 
Alabamans in the 3rd Congressional District and contributes over $1 
billion annually to the local economy. Similarly, travel directly 
employs more than 16,000 Texans in the 18th Congressional District and 
contributes more than $1.4 billion to the local economy.
    Travel is not only a vital economic engine--it is a hallmark of our 
free, open, and democratic society, and its various components are 
essential to our daily lives. Unfortunately, these same attributes make 
travel an attractive target for acts of terrorism. From the tragic 
attacks of September 11, to the hotel bombings in Jakarta, to train 
bombings in London and Madrid, the global travel industry has suffered 
heavily from these senseless acts of violence.
    After each tragedy, our industry has emerged stronger and more 
secure. Hotels around the globe have increased on-site security and 
strengthened cooperation with emergency responders and law enforcement. 
Canine and explosive detection teams are now common sights on metro 
cars and trains. After September 11, Congress created the Department of 
Homeland Security (DHS) and the Transportation Security Administration 
(TSA) to protect America's aviation system and all other modes of 
transportation.
    Thanks to the hardworking and dedicated men and women of TSA, and 
so many others from our defense and homeland security agencies, there 
is no doubt that the United States--and travel itself--is safer today 
than it was before 9/11. Although there has not been a successful 
terrorist attack on American soil since 9/11, terrorism remains a 
serious and ever-changing threat.
    I applaud the subcommittee for holding this important hearing on 
how the TSA can evolve to meet the next terrorist threat. My testimony 
today will focus in three areas. First, I will provide an overview of 
what I believe to be the long-term challenges facing TSA and their 
implications for the travel industry. Second, I will discuss TSA's 
successes and shortcomings in addressing these challenges. Last, I will 
provide U.S. Travel's recommendations for how TSA, Congress, and the 
private sector can expand and improve upon TSA's current efforts.
               long-term challenges in aviation security
    Commercial aviation is the gateway to travel and tourism. Since 9/
11, TSA has stood as the gateway to commercial aviation. The safety of 
travelers, the strength of our homeland security, and the economic 
success of the travel industry are all dependent on TSA's ability to 
complete its mission. But if TSA is to be successful, it must resolve 
three major challenges.
    The first challenge--and a top priority for the travel industry--is 
achieving the highest level of security in the face of numerous and 
shifting threats. I am confident that Administrator Pistole, Members of 
this committee, and almost all Americans are in agreement on this 
point. However, the paramount importance of security must be coupled 
with a realization that TSA will never achieve 100 percent security. 
Therefore, the real challenge for TSA lies in achieving the highest 
level of security by devoting scarce resource to the most pressing and 
dangerous threats.
    The second major challenge facing TSA is the growing inefficiency 
of the passenger screening process. Repeated studies show that TSA's 
security checkpoints are time-consuming, frustrating, and deterring 
millions of people from traveling each year. A 2010 survey conducted by 
Consensus Research found that travelers would take two to three more 
flights per year if the hassles in security screening were reduced. 
These additional flights would add nearly $85 billion in consumer 
spending back into local hotels, restaurants, convention centers and 
other travel business, and help support 900,000 jobs. A similar survey 
conducted in 2011 found that four of the top five passenger 
frustrations relate directly to the TSA checkpoint.
    The third challenge facing TSA is the rapid cost increase of 
screening per passenger. In its fiscal year 2012 budget request, DHS 
acknowledged that the cost of screening per passenger rose by over 400 
percent between 2001 and 2011. From 2004 to 2011, the TSA's budget 
increased by 68 percent, while the number of passengers screened 
remained almost flat.\1\ After just 11 years, TSA's budget is now 
roughly equal to the Federal Bureau of Investigation (FBI).
---------------------------------------------------------------------------
    \1\ U.S. Travel Association, ``A Better Way: Building a World-Class 
System for Aviation Security.'' http://www.ustravel.org/sites/default/
files/page/2011/03/A_Better_Way_032011.pdf
---------------------------------------------------------------------------
    Unfortunately, without major and forward-thinking changes, all 
three of the major challenges facing TSA are likely to get worse over 
time.
    The Federal Aviation Administration (FAA) forecasts that, over the 
next 20 years, passenger levels will almost double to 1.2 billion 
passengers per year. At the same time, Congress and Federal agencies 
are entering a new period of flat budgets and fiscal austerity, and the 
amount of airport space that can be devoted to passenger screening is 
already nearing capacity. Such rapid passenger growth will likely lead 
to longer lines and wait-times at security checkpoints, sharper 
increases in the cost of security screening per passenger, and dampened 
demand for travel in the United States.
    These problems, therefore, are not TSA's alone. In fact, the real 
threat of terrorism, the economic consequences of inefficient 
screening, and increase in screening costs, add up to create one of the 
biggest problems facing the travel industry today. Therefore, U.S. 
Travel and the entire travel industry is fully committed to assisting 
TSA in finding workable and lasting solutions to the problems in 
aviation security.
    That is why, in 2010, U.S. Travel commissioned a bipartisan panel 
of aviation security experts to propose innovative solutions could 
increase both security and efficiency. The panel, title the Blue-Ribbon 
Panel for Aviation Security (BRP), was chaired by former Secretary of 
Homeland Security Tom Ridge, former Ranking Member of the House 
Homeland Security Committee Jim Turner, and President and CEO of Sabre 
Holdings Sam Gilliland.
    I am pleased that Sam Gilliland is here today to discuss the 
recommendations of the BRP and provide an update on TSA's progress in 
implementing some of their proposals.
    However, I want to briefly highlight what I believe are the two 
most important findings of the BRP. First and foremost, the BRP 
challenged TSA, Congress and all aviation security stakeholders to set 
aside the notion that security and efficiency are mutually exclusive 
goals. Specifically, the final BRP report states:

``Some in Congress appear to have calculated that there are no 
political consequences to an inefficient and costly system, but great 
political consequences to a successful terrorist attack. This is a 
classic Hobson's Choice that the American traveling public repudiates. 
The debate Congress must engage in is not strong security versus weak 
security, but rather how to create a world-class aviation security 
system that effectively manages risk, increases efficiency, and 
embraces the freedom to travel.''

    This same notion is also strongly held by the American traveling 
public. A 2010 Consensus Research survey found that nearly 9 in 10 
travelers believe it is possible to achieve an air travel screening 
system that is both secure and efficient. The same number of travelers 
believe that if we can put a man on the moon, we can create a passenger 
security system that doesn't frighten or inconvenience travelers.\2\
---------------------------------------------------------------------------
    \2\ http://www.ustravel.org/news/press-releases/american-traveling-
public-says-there-has-be-better-way-conduct-air-travel-secu.[sic]
---------------------------------------------------------------------------
    The second major finding of the BRP was that TSA could build a more 
efficient and secure screening process, and address its three long-term 
challenges, by implementing a true, risk-based trusted traveler 
program. The BRP recommended that a true trusted traveler program 
should include four major elements:
    1. A voluntary and accessible enrollment process;
    2. Background checks and security threat assessments to determine 
        risk;
    3. Biometric credentialing to increase identity verification; and
    4. A separate and expedited screening process for passengers 
        enrolled in the program.
   successes and shortcoming in addressing tsa's long-term challenges
    To TSA's credit, it is taking several steps to reform the agency 
into a more risk-based and intelligence-driven organization.
    Last year, TSA restarted the Aviation Security Advisory Committee 
and increased its interaction with the private sector. I am honored 
that TSA and the ASAC selected me to co-chair the Passenger Advocacy 
Subcommittee--and I look forward to working with TSA on that important 
group.
    In 2011, TSA launched PreCheck, a trusted traveler pilot program 
that provides expedited screening for passengers willing to volunteer 
more personal information. PreCheck is an essential first step in 
creating a more efficient and secure screening process, and I applaud 
Administrator Pistole for his leadership in creating this program.
    Today, over 500,000 Americans are enrolled in PreCheck and the 
program has screened over 2.5 million passengers. PreCheck lanes are 
currently available at 23 airports and, by the end of 2012, TSA expects 
PreCheck to be operational at an additional 12 airports across the 
country.
    Although PreCheck is a positive first step, the current program has 
several shortcomings that will prevent TSA from ultimately addressing 
its long-term challenges. The shortcomings include limited and 
cumbersome enrollment opportunities, low utilization rates, and high 
levels of unpredictability for PreCheck passengers hoping to receive 
expedited screening.
    There are several barriers preventing a large number of ordinary 
travelers from joining and using PreCheck. One way to join the program 
is to be a member of U.S. Customs and Border Protection's (CBP's) 
Global Entry program. Unfortunately, Global Entry's on-line enrollment 
process is cumbersome and confusing, and is a prime example of the 
difficulty a Government agency can have in creating streamlined and 
customer-friendly services.
    Moreover, to be a part of Global Entry, CBP requires an in-person 
interview but only offers these interviews at 25 permanent locations. 
If a person living in Montgomery, Alabama, wishes to join Global Entry, 
the closest CBP interview location is in Atlanta, Georgia, and requires 
a 5-hour, 300-mile round-trip drive.
    There are also many difficulties associated with the airline 
PreCheck enrollment process. Perhaps the most significant shortfall is 
the cost of joining PreCheck through an airline frequent flier program. 
If the same person wishes to qualify for PreCheck through a sponsoring 
carrier, U.S. Travel estimates that it would cost roughly $10,000 in 
airfare paid to a single airline in order to accrue enough frequent 
flier miles to qualify for PreCheck.\3\
---------------------------------------------------------------------------
    \3\ TSA considers enrollment criteria for PreCheck to be Security 
Sensitive Information. The U.S. Travel Association calculated an 
estimate of the cost to join PreCheck by multiplying the average 2010 
passenger yield (the average fare paid by domestic passengers per mile 
flown) of 13.49 cents by 75,000 (the number of miles needed to become 
Platinum customer on Delta airlines).
---------------------------------------------------------------------------
    The exclusive and inaccessible PreCheck enrollment options 
contribute to the second shortcoming--low utilization rates. After 
almost 1 year of operation, TSA has screened 2.5 million passengers 
through PreCheck. But this number is miniscule when compared with the 
roughly 2 million people who fly each day in the United States and the 
roughly 700 million passengers who fly each year.
    Additionally, low PreCheck utilization rates also stem from the 
structure of the airline enrollment process. Once a traveler is 
enrolled in PreCheck through a frequent flier program, they can only 
use the expedited screening lanes when flying with that particular 
airline. For example, an American Airlines PreCheck customer who buys 
an American Airlines ticket for travel from JFK airport to Miami 
International would have access to the PreCheck lane. If that same 
customer decides to fly Delta Airlines on the return flight home, he or 
she would not have access to the PreCheck lane, simply because they are 
not flying with American Airlines. In our opinion, risk should not be 
determined by your loyalty to any one airline.
    The true value of PreCheck lies in the potential for TSA to devote 
less resources and time to screening passengers they already know more 
about. The more passengers TSA can screen through PreCheck, the shorter 
lines and wait times for regular passengers undergoing the normal TSA 
screening process. This will help TSA become more efficient and lower 
the cost of screening per passenger.
    The final shortcoming of PreCheck is that the overall level of 
randomized screening could be lowered if passengers could offer more 
personal information for a security threat assessment and used 
biometric credentialing to verify their identity. TSA acknowledges that 
there is a direct relationship between the amount of background data 
shared by a PreCheck passenger and the level of randomized screening 
that passenger is subjected to. In other words, the more background 
information available, the more predictable the expedited screening 
process will be.
    But the airline PreCheck enrollment process uses flying history as 
the only element of additional background data. This leads to higher 
randomization rates for the airline PreCheck passengers and contributes 
to the overall inefficiency of the current PreCheck system.
      recommendations to improve aviation security and efficiency
    Fortunately, there are many innovative ways to bolster the PreCheck 
program and address its initial shortcomings.
    First, TSA and DHS can increase participation in PreCheck by 
expanding CBP's trusted traveler programs and allowing travelers to 
qualify by aggregating their frequent flier miles across multiple 
airlines. Additionally, once a passenger is enrolled in the program--
through either CBP, an airline, or any future enrollment platform--
those passengers should be immediately granted access to any PreCheck 
lane.
    But TSA must also offer enrollment opportunities beyond CBP trusted 
travelers and elite frequent fliers if the program is going to succeed. 
One way TSA can expand PreCheck is by leveraging the technological 
capabilities and innovation of the private sector. For example, the 
company CLEAR heightens security through its verified identity 
platform, while also expediting travel document checker throughput 
using advanced automated biometric scanners. It's the equivalent of 
replacing the bank teller with an ATM. Each of the 200,000-plus CLEAR 
members has a secure biometric identification card and has opted in to 
sharing personal information for a security threat assessment. Through 
an innovative public/private partnership with TSA, companies such as 
CLEAR could quickly help the agency boast enrollment and utilization 
rates for PreCheck, increase security through the use of biometric 
identity verification and robust background checks, and reduce TSA's 
budget by shifting operational costs from TSA to the private sector. 
These types of partnerships also provide new, important revenue streams 
to local airport authorities, an added benefit in tight budgetary 
times.
    In short, CLEAR is just one example of how TSA can alleviate all 
three long-term challenges--security, efficiency, and cost-
effectiveness--by partnering with the private sector and addressing the 
shortcoming of the current PreCheck program. As TSA expands PreCheck 
enrollment opportunities, it must also make interoperability a central 
pillar of the program. PreCheck passenger should be able to use the 
program no matter which airline they're flying or how they enrolled. 
The system should be based on risk and efficiency--not customer 
loyalty.
    Last, TSA can increase predictability through better line 
management, the use of biometric credentialing, and more in-depth 
background checks. In-depth background checks and secure forms of 
identification enable TSA to know more about a passenger and lower 
rates of random screening. TSA can also increase efficiency by allowing 
PreCheck passengers selected for randomize screening to move 
immediately to the standard screening lane, rather than the back of the 
waiting line before the travel document checker.
                      other areas for improvement
    PreCheck is not the only and final solution to the challenges 
facing TSA. The New York Times recently reported that TSA screened an 
estimated 59 million more carry-on bags in 2010 than in 2009.\4\ TSA 
also estimates that carry-on bags processed at the checkpoints will 
have increased by about 87 million from fiscal year 2010 through fiscal 
year 2011 and continue to increase by about 29 million more in fiscal 
year 2012. This is an issue that should be examined and addressed.
---------------------------------------------------------------------------
    \4\ http://www.nytimes.com/2011/03/29/business/29bags.html.
---------------------------------------------------------------------------
    TSA must also improve its communication and interaction with the 
passenger. This includes tracking and distributing wait-time 
information and using customer feedback to inform its standard 
operating procedures.
                     the important role of congress
    Finally, Congress must take the lead in helping TSA solve its long-
term problems. I strongly urge this committee to relentlessly engage in 
three areas.
    First, Congress must continue to conduct aggressive hearings and 
oversight. TSA often changes its behavior or makes better decisions 
based on the questions and guidance they receive through committee 
hearings.
    Second, Congress must improve TSA through legislation. A TSA 
reauthorization bill has not been enacted in over a decade--while 
similar agencies, like the FAA, are reauthorized on a multi-year and 
reoccurring basis.
    Third--and perhaps most importantly--Congress must keep in mind 
that security and efficiency are equal and obtainable goals. TSA is 
vital to security but the agency also impacts travel businesses, jobs, 
and our quality-of-life.
    The country that put a man on the moon, and has led the world for 
centuries in innovation and technology, can have a world-class, 
efficient, and secure aviation system.
    Again, thank you Chairman Rogers, Ranking Member Jackson Lee, and 
all Members of the subcommittee for inviting me to testify today. I 
look forward to answering your questions.

    Mr. Rogers. Great. Thank you for that statement. Right on 
time, 5 minutes. Good job.
    We are going to recess now for approximately 30 minutes. We 
should be back at about 2:45 and reconvene the hearing.
    Dr. Carafano will be waiting with anxious anticipation for 
your comments.
    [Recess.]
    Mr. Rogers. All right. Thank you all very much for your 
patience and we look forward to getting back to it.
    Dr. Carafano, now that we have built up the anticipation, 
don't let us down. You are recognized for 5 minutes. Thanks for 
being here.

 STATEMENT OF JAMES J. CARAFANO, PH.D., DIRECTOR, DOUGLAS AND 
    SARAH ALLISON CENTER FOR FOREIGN POLICY STUDIES, DEPUTY 
    DIRECTOR, KATHRYN AND SHELBY CULLOM DAVIS INSTITUTE FOR 
         INTERNATIONAL STUDIES, THE HERITAGE FOUNDATION

    Mr. Carafano. Thank you, sir.
    I would like to thank the committee for this opportunity 
and begin by saying it is not difficult to exercise leadership 
in the wake of a crisis.
    Real leadership is demonstrating courage and caring on very 
unremarkable days and there has actually been nothing more 
unremarkable than the year of transportation security we have 
had last year.
    So I really do want to commend the committee for focusing 
on this issue when it is not a crisis. In that spirit, I 
particularly want to commend what I think is very thoughtful.
    An interesting report, done by the committee staff, which I 
think is exactly what we need not in the spirit of attacking 
the agency itself and being very respectful of the men and 
women in the agency and the work they are trying to do, but 
pointing out, I think, some legitimate areas of concern and 
creating some interesting questions about our local frameworks 
that I think are very worthwhile.
    So I do think it is an excellent report and a great 
starting point for going forward. I must say it is in that 
spirit that the Heritage Foundation, in our research, has 
looked at the issue of homeland security.
    Particularly, what we have really focused and emphasized is 
really lessons learned. We have over a decade of experience at 
dealing with the issue of transnational terrorism. We have 
learned a lot. By our count and our records, we have thwarted 
at least 51 Islamist-inspired terrorism plots aimed at the 
United States since 9/11.
    The vast majority of those thwarted attempts weren't 
stopped by accident. There is a lot that we can learn from that 
and surveying what we have done.
    I think that we are in the place in history where we can do 
an awful lot to distinguish between what really represents 
sensible security and what represents checkbook security or 
feel-good security and make that distinction between them.
    It is in that spirit that I offer my testimony today where 
I focused on what I think and believe are really the three 
critical areas where the difference can be made in really 
making TSA make the most valuable contributions not to just 
safety and security, but also ensuring the freedoms and 
prosperity of the American people.
    The first of those is remaining mission-focused. By that I 
mean remaining on the focus on thwarting attacks against 
critical transportation U.S. infrastructure or its 
exploitation.
    There, I think, the real key is those TSA programs that are 
the most valuable are the ones that really integrate and 
leverage off our most effective counterterrorism programs.
    Practically going out there and stopping the plots long 
before they get to the airport or long before they get on an 
airplane and so I would highlight, for example, Secure Flight, 
which I think is probably the best example of what TSA should 
be doing; integrating the knowledge and capability and 
information from the larger CT effort and using that in an 
operational role to try to keep bad people and bad things away 
from the transportation aviation system.
    So, in that context, if that is the strategy, then the 
second area, which becomes equally vital, is getting the most 
efficiency from the operations that we are conducting.
    When we think of efficiencies of operations, it is very, 
very important that we think in the context of not only, ``What 
are all the government programs that we are doing to protect 
critical transportation infrastructure?'' and how TSA fits in 
that, but also how TSA fits in the efforts of the industry and 
the airports and their efforts so we are getting the best 
balance or the best combination between efforts that ensure 
security, prosperity, and individual freedoms.
    I think efficiency is clearly an issue where we can have a 
lot of I think fruitful discussion. I will just offer, as an 
example of something I highlighted on my testimony, is the 
distinction between the Federal Flight Deck Officer program and 
the Surface Transportation Inspector program.
    On the one hand, with the Federal Flight Deck Officer 
program, you have a very low-cost capability to bring real 
operational capability to protect the airplane in a proven way, 
in a way that has been proven very, very cost-effective and 
provides a real operational capability. Yes, we saw the 
administration this year wanted to cut that modest program by 
50 percent.
    On the other hand, we see in the Surface Transportation 
Inspector program really kind of a reliance on the regulatory 
model, which is, again, the least effective way to be proactive 
and a very high cost, twice the cost of the FFDO program, and 
really delivering no operational capability.
    So when I see things like that in the same department, it 
really questions me whether we really are operating off a true 
risk-based framework in terms of implementing a strategy which 
focuses on getting the terrorists before they get to the plane.
    The third area I would definitely focus on is managing 
TSA's workforce. We often forget in Washington, you know, 
whether we all often give it platitudes, the most single 
valuable thing the U.S. Government has is its human capital--
not only its citizens and its people, but the people working 
for the U.S. Government and getting the most out of the talent 
and skills of those people, I think, is absolutely vital.
    I don't think it is a debatable question that the Screening 
Partnership program is a valuable component and that balancing 
what we do with privatization and what we do with the TSA 
workforce is going to be greatly beneficial.
    I mean if we look at the work that was done in analyzing, 
for example, what was going on at the San Francisco airport and 
L.A. airport as we saw in the last year report from the 
Transportation Committee, we clearly see that there are ways of 
privatization to both gain efficiencies, in some respects, and 
not sacrifice on security whatsoever.
    You look at the European experience where we know at least 
half of the European airports used privatized screening, and 
yet their security and safety record is comparable to the 
United States.
    So, there is no question that this can be done, the problem 
is with the implementation of the program itself. I think 
getting that program where it is workable, but better for the 
airports and the industry and for TSA, I think is key to really 
getting the right balance in the work force that we need.
    So, with that, I greatly look forward to this hearing and 
your questions.
    [The prepared statement of Mr. Carafano follows:]
                Prepared Statement of James J. Carafano
                           September 11, 2012
    My name is James Jay Carafano. I am deputy director of the Kathryn 
and Shelby Cullom Davis Institute for International Studies and 
director of the Douglas and Sarah Allison Center for Foreign Policy 
Studies at The Heritage Foundation. The views I express in this 
testimony are my own, and should not be construed as representing any 
official position of The Heritage Foundation.
    Thank you for the opportunity to appear before the committee today 
to address this vital subject. It is certainly fitting that we pause to 
reflect on the state of transportation security on the anniversary of 
the terrorist attacks on New York and Washington, DC, but it is even 
more appropriate that this hearing is taking place during what has been 
a fairly unremarkable year in terms of transportation security. For it 
was on a quiet, unremarkable autumn morning that America was attacked. 
The best way to prevent more days like 9/11 is to spend our 
unremarkable days preparing--doing what we can to continue to keep this 
Nation safe, free, and prosperous.
    In my testimony today, I would like to focus on what I believe are 
the key challenges ahead for transportation security, including: (1) 
Remaining mission-focused; (2) gaining greater efficiency in 
operations; and (3) managing the Transportation Security Administration 
workforce.
    My responsibilities at The Heritage Foundation comprise supervising 
all of the foundation's research on public policy concerning foreign 
policy and National security. Homeland security has been a particular 
Heritage research priority as we produced the first major assessment of 
domestic security after 9/11.\1\ Over the past decade, we have 
assembled a robust, talented, and dedicated research team and I have 
the honor and privilege of leading that team.
---------------------------------------------------------------------------
    \1\ L. Paul Bremer III and Edwin Meese III, Defending the American 
Homeland: A Report of the Heritage Foundation Homeland Security Task 
Force (Washington, DC: The Heritage Foundation, 2002).
---------------------------------------------------------------------------
    Heritage analysts have studied and written authoritatively on 
virtually every aspect of homeland security and homeland defense. The 
results of all our research are publicly available on the Heritage 
website at www.heritage.org. We collaborate frequently with the 
homeland security research community, including the Center for 
Strategic and International Studies (CSIS), the Aspen Institute, the 
Center for National Policy, the Hudson Institute, the George Washington 
University Homeland Security Policy Institute, and the Strategic 
Studies Institute and Center for Strategic Leadership at the Army War 
College. Heritage analysts also serve on a variety of Government 
advisory efforts, including the Homeland Security Advisory Council and 
the Advisory Panel on Department of Defense Capabilities for Support of 
Civil Authorities. Our research programs are nonpartisan, dedicated to 
developing policy proposals that will keep the Nation safe, free, and 
prosperous.
    I am particularly proud of The Heritage Foundation's long and 
substantive record of research on transportation security. This effort 
reflects the foundation's commitment to advancing public policies that 
enhance our security by thwarting terrorist travel; encouraging 
economic growth by promoting the legitimate exchange of goods, peoples, 
services, and ideas among free nations; and fostering a free and open 
civil society--all at the same time.
                             mission focus
    In my mind, the 9/11 Commission's staff study on terrorist travel 
was in many ways more vital to understanding the transnational threat 
and how to impact its operational capabilities than the commission's 
best best-selling report. The August 2004 staff study documented the 
poor state of our preparedness to prevent exploitation of U.S. 
transportation systems. The study pointed out that the 9/11 hijackers 
had known affiliation to extremist groups, broke the law, committed 
fraud, lied on visa applications, had at least 68 contacts with State 
Department and Immigration and Customs officials, and yet managed to 
pass through aviation and border checkpoints here and abroad. According 
to the study, together the group ``successfully entered the United 
States 33 times over 21 months, through nine airports of entry.''\2\ 
Without that ease of movement, the 9/11 attacks would not have been 
possible.
---------------------------------------------------------------------------
    \2\ Thomas R. Eldridge et al., ``9/11 and Terrorist Travel: Staff 
Report of the National Commission on Terrorist Attacks Upon the United 
States,'' National Commission on Terrorist Attacks Upon the United 
States, August 21, 2004, preface, at http://www.9-11commission.gov/
staff_statements/911_TerrTrav_Monograph.pdf.
---------------------------------------------------------------------------
    There are few capabilities more essential to terrorist operations 
than the ability to freely move and communicate. Restricting either of 
these ``centers of gravity'' is key to containing the transnational 
operational threats.
    After 9/11 America became a much harder target. The United States 
has thwarted at least 51 Islamist-inspired terror plots since the 
attacks on New York and Washington, DC.\3\ Increasingly, we find that 
these plots are ``homegrown,'' in part because it has been more 
difficult for transnational terrorist groups to organize operations 
overseas and dispatch operatives to the United States.
---------------------------------------------------------------------------
    \3\ Steven Bucci and Jessica Zuckerman, ``51st Terrorist Plot 
Against the United States: Continued Threat of al-Qaeda and 
Affiliates,'' Heritage Foundation Issue Brief No. 3598, May 8, 2012, at 
http://www.heritage.org/research/reports/2012/05/51st-bomb-terror-plot-
proves-continued-threat-of-al-qaeda. See also James Jay Carafano, et 
al., ``Fifty Terror Plots Foiled Since 9/11: The Homegrown Threat and 
the Long War on Terrorism,'' Heritage Foundation Backgrounder No. 2682, 
April 25, 2012, at http://www.heritage.org/research/reports/2012/04/
fifty-terror-plots-foiled-since-9-11-the-homegrown-threat-and-the-long-
war-on-terrorism. This report provides a summary of each thwarted 
attack and subsequent investigation and prosecution.
---------------------------------------------------------------------------
    The post-9/11 efforts at thwarting terrorist travel and access to 
transportation systems, however, offer no cause for complacency. 
Transportation systems continue to rank high on the list of potential 
targets. For example, to the end Osama bin Laden continued to extol the 
virtue of aiming attacks on cities and transportation 
infrastructure.\4\ Further, in recent years in two plots, preemptive 
efforts failed to thwart attacks. In 2009, Umar Farouk Abdulmutallab 
attempted to donate explosives on a Detroit-bound international flight. 
In 2010, Faisal Shahzad attempted to detonate explosives in an SUV that 
he drove into and left parked in Times Square.\5\
---------------------------------------------------------------------------
    \4\ Peter L. Bergen, Manhunt: The Ten-Year Search for Bin Laden 
from 9/11 to Abbottabad (New York: Crown, 2012), pp. 140-141.
    \5\ Carafano, ``Fifty Terror Plots Foiled Since 9/11.''
---------------------------------------------------------------------------
    Our successes and shortfalls since 9/11 are instructive. The best 
way to prevent terrorists from exploiting or threatening our 
infrastructure is to disrupt their networks and operations before they 
are implemented. In this respect, effective U.S. counterterrorism 
programs are the first and most critical component of our defenses. 
Without question, overseas operations to identify and dismantle the 
leadership of al-Qaeda and its affiliates have degraded their 
operational capabilities.
    Yet, the current U.S. strategy is inadequate to prevent a 
resurgence of al-Qaeda.\6\ Indeed, there are already signs that al-
Qaeda and its affiliates are attempting to improve their operational 
security so that their operatives are less vulnerable to direct 
attack.\7\ Therefore, the United States must remain vigilant.
---------------------------------------------------------------------------
    \6\ The administration's strategy is primarily limited to attacking 
the leadership of al-Qaeda and its affiliates. It does not pay 
sufficient attention to global insurgency threat presented by the 
group, which makes the terrorist network more resilient than the U.S. 
Strategy appreciates. See, The Heritage Foundation Counterterrorism 
Task Force, ``A Counterterrorism Strategy for the `Next Wave,' '' 
Heritage Foundation Special Report No. 98, August 24, 2011, at http://
www.heritage.org/research/reports/2011/08/a-counterterrorism-strategy-
for-the-next-wave.
    \7\ Aaron Y. Zelin, ``Dodging the Drones: How Militants Have 
Responded to the Covert U.S. Campaign,'' Foreign Policy, August 31, 
2012 at http://afpak.foreignpolicy.com/posts/2012/08/31/
dodging_the_drones_how_militants_have_responded_to_the_covert_us_campaig
n.
---------------------------------------------------------------------------
    The most indispensible role for transportation security is to 
remain integrated with U.S. counterterrorism operations so that their 
security measures, oversight responsibilities, and capacity to act 
against active threats are synchronized in the most effective manner. 
No example of what must be done is more illustrative than the 
apprehension of Faisal Shahzad, the Times Square bomber, who was placed 
on a terrorist watch list, identified, and arrested attempting to flee 
the country on an international flight less than 2 days after the 
aborted attack. Programs that link directly to the larger 
counterterrorism effort, such as the Secure Flight initiative, must be 
the TSA's top priority.\8\ I would be greatly skeptical of any 
allocation of resources that did not fully fund these priorities first 
to the exclusion of anti-terrorism measures or other agency 
responsibilities.
---------------------------------------------------------------------------
    \8\ The Transportation Security Administration website describes 
Secure Flight as a ``behind-the-scenes program that enhances the 
security of domestic and international commercial air travel through 
the use of improved watch list matching. By collecting additional 
passenger data, it improves the travel experience for all airline 
passengers, including those who have been misidentified in the past. 
The airline submits this information to Secure Flight, which uses it to 
perform watch list matching. This serves to prevent individuals on the 
No Fly List from boarding an aircraft and to identify individuals on 
the Selectee List for enhanced screening.'' See, http://www.tsa.gov/
what_we_do/layers/secureflight.
---------------------------------------------------------------------------
                      making efficiency a priority
    One of the key findings of the 9/11 Commission emphasized a risk-
based approach to managing transportation security. The commission 
concluded, ``[h]ard choices must be made in allocating limited 
resources. The U.S. Government should identify and evaluate the 
transportation assets that need to be protected, set risk-based 
priorities for defending them, select the most practical and cost-
effective ways of doing so, and then develop a plan, budget, and 
funding to implement the effort. The plan should assign roles and 
missions to the relevant authorities (Federal, State, regional, and 
local) and to private stakeholders.''\9\ The commission recommendation 
offered the best strategy--appropriate for the threat and the vast, 
complex, and interrelated transportation infrastructure that TSA must 
oversee.
---------------------------------------------------------------------------
    \9\ ``What to Do? A Global Strategy,'' Chapter 12 in National 
Commission on Terrorist Attacks Upon the United States, The 9/11 
Commission Report, at http://govinfo.library.unt.edu/911/report/
911Report_Ch12.htm.
---------------------------------------------------------------------------
    A risk-based approach requires evaluating risk, threat, and 
criticality and adopting the most judicious means to reduce risk to an 
acceptable level at an acceptable cost.\10\ It is not clear that the 
agency consistently applies that approach in managing its programs and 
initiatives.
---------------------------------------------------------------------------
    \10\ For discussion of the role of risk management in homeland 
security, see James Jay Carafano, Testimony before the Subcommittee on 
Transportation Security and Infrastructure Protection, Committee on 
Homeland Security, United States House of Representatives, June 25, 
2008, at http://www.heritage.org/research/testimony/risk-and-
resiliency-developing-the-right-homeland-security-public-policies-for-
the-post-bush-era.
---------------------------------------------------------------------------
    From the onset, TSA has had difficulty truly adopting a risk-based 
approach. ``TSA's original strategies were largely grafted from the 
Federal Aviation Administration's pre-9/11 aviation security 
measures,'' noted the former administrator of TSA, Kip Hawley. ``Since 
the FAA's primary role is ensuring aviation safety, which has unbending 
parameters based on the laws of physics, its regulatory nature makes 
sense. But using regulation as the primary tool to stop adaptive 
terrorists does not.''\11\ TSA still struggles with finding the right 
balance of regulation, but it has struggled even more implementing the 
right balance of operational capabilities to put real obstacles rather 
than just rules in the path of terrorist travel and exploitation of 
transportation infrastructure. Two examples--the Federal Flight Deck 
Officer (FFDO) and the Surface Transportation Inspector Program--are 
illustrative.
---------------------------------------------------------------------------
    \11\ Kip Hawley and Nathan Means, Permanent Emergency: Inside the 
TSA and the Fight for the Future of American Security (New York: 
Palgrave Macmillan, 2012), p. 228.
---------------------------------------------------------------------------
    The Federal Flight Deck Officer Program.\12\ In his fiscal year 
fiscal year 2013 budget proposal for the Department of Homeland 
Security, President Obama called for a 50 percent cut in funding for 
the FFDO program. This decision made no sense. The FFDO program costs 
very little (fiscal year 2012 enacted: $25.5 million). To put total 
program costs in perspective: The FDDO costs approximately $15 per 
officer per flight; the Federal Air Marshal program, although also an 
important added layer of security, in comparison costs an estimated 
$3,300 per air marshal per flight. Further, at present, FFDOs are 
estimated to be able to cover five times as many flights as Federal Air 
Marshals, providing a strong added layer of defense and deterrence 
against the threat of terrorism and air piracy. Since the FFDO 
program's inception in 2003, its budget has not changed, despite an 
estimated 100-fold increase in members.\13\
---------------------------------------------------------------------------
    \12\ The Transportation Security Administration website describes 
the Federal Flight Deck Officer Program where ``eligible flight 
crewmembers are authorized by the Transportation Security 
Administration Office of Law Enforcement/Federal Air Marshal Service to 
use firearms to defend against an act of criminal violence or air 
piracy attempting to gain control of an aircraft. A flight crew member 
may be a pilot, flight engineer, or navigator assigned to the flight.'' 
See, http://www.tsa.gov/lawenforcement/programs/ffdo.shtm.
    \13\ See, Jessica Zuckerman, ``Federal Flight Deck Officer Program: 
First Line of Deterrence, Last Line of Defense,'' Heritage Foundation 
Issue Brief No. 3544, March 20, 2012, at http://www.heritage.org/
research/reports/2012/03/impact-of-cutting-the-budget-of-the-federal-
flight-deck-officer-program.
---------------------------------------------------------------------------
    Surface Transportation Inspector Program.\14\ In contrast to the 
FFDO initiative, the Surface Transportation Inspector program costs 
nearly four times as much (fiscal year 2012 enacted: $96.2 million) but 
appears to lack significant utility. The program has been criticized 
for lacking clear and consistent standards and focusing on regulatory 
requirements that are only marginally relevant to diminishing terrorist 
threats.\15\ Given the massive size, scope, and diversity of surface 
transportation within the United States, in contrast to aviation 
security it is difficult to see how any Federal program of this scope 
could have significant impact on reducing National vulnerabilities.
---------------------------------------------------------------------------
    \14\ Surface Transportation Security Inspectors ``assist surface 
transportation carriers, operators, owners, entities, and facilities to 
enhance their security against terrorist attack and other security 
threats and to assist the Secretary in enforcing applicable surface 
transportation security regulations and directives.'' See, 6 USC 1113.
    \15\ See, for example, Howard R. Elliot, Testimony before the 
Subcommittee on Transportation Security and Infrastructure Protection, 
Committee on Homeland Security, United States House of Representatives, 
May 31, 2012, at http://homeland.house.gov/sites/homeland.house.gov/
files/Testimony%20Elliott.pdf.
---------------------------------------------------------------------------
    Attention should also be given to the programs that provide the 
context for transportation security, particularly as it affects 
international travel. Contrasting examples are the Federal requirement 
for biometric exit and the Visa Waiver Program (VWP).
    Biometric Exit.--The directive for implementing biometric exit--
recording of a uniquely identifiable intrinsic physical characteristic 
(most often fingerprints) at the point of departure from the United 
States at land, sea, or airport point of entry--predates 9/11. After 
almost two decades, the Federal Government has failed to implement this 
Congressional mandate. Regardless of what benefits the framers of the 
requirement believed biometric exit would bring, either as an 
immigration management tool, a criminal enforcement measure, or a 
counterterrorism initiative, the need for this program needs to be 
reassessed in light of current requirements. From a counterterrorism 
perspective, it is difficult to justify the expense of biometric exit. 
When this program was originally conceived, there were few effective 
tools for tracking terrorist travel. Even where we have seen the 
requirement for tracking suspects trying to exit the United States in 
``real time,'' we have seen where these tasks can be conducted 
effectively using existing enforcement tools.
    From the enforcement perspective, biometric exit would be a very 
limited tool. Federal authorities lack the resources to investigate 
every lead such a system might produce. Furthermore, by itself, a 
report that an individual had failed to register an exit and 
potentially was unlawfully present in the United States would have 
scant utility in prioritizing law enforcement resources. Such a report 
might simply be a false positive--the individual's status might have 
changed. The report alone would provide no assessment of risk.
    Biographical data (name, date of birth, and country of origin) 
provide suitable data for most enforcement activities. Given the costs 
of implementing comprehensive biometric exit, the fiscal constraints 
that will likely be imposed on the Department of Homeland Security in 
the years ahead, and the Department's many priorities, the biometric 
exit mandate can no longer be justified. It is past time to repeal the 
requirement.\16\
---------------------------------------------------------------------------
    \16\ James Jay Carafano, Testimony before Subcommittee on 
Immigration Policy and Enforcement, Committee on the Judiciary United 
States House of Representatives, December 7, 2011, at http://
judiciary.house.gov/hearings/pdf/Carafano%2012072011.pdf.
---------------------------------------------------------------------------
    Visa Waiver Program.--In contrast to biometric exit, the Visa 
Waiver Program provides a cost-effective and efficient means to capture 
more useful data on travelers in real time.\17\ Thirty-six countries 
participate in VWP (in contrast, U.S. citizens can travel to over eight 
times as many countries visa-free or obtain a visa on arrival). Only 
one country has been added to the VWP under the current administration.
---------------------------------------------------------------------------
    \17\ The Visa Waiver Program allows for visa-free travel--for 
leisure or business--for up to 90 days among member states. See, 
Department of State, at http://travel.state.gov/visa/temp/without/
without_1990.html.
---------------------------------------------------------------------------
    The principal obstacles to adding more countries are the 
unrealistic legislative requirement to implement biometric exit and the 
manner in which current legislation requires calculating visa overstay 
rates. Revising the legislative limitations and pressing the 
administration to add more qualifying countries would be a very cost-
effective means to both facilitate international travel and strengthen 
the U.S. capacity to identify terrorist travel and high-risk 
passengers.\18\
---------------------------------------------------------------------------
    \18\ Carafano, Testimony before Subcommittee on Immigration Policy 
and Enforcement.
---------------------------------------------------------------------------
                         managing the workforce
    The administration's decision to engage in limited collective 
bargaining with airline security screeners could well reduce the 
agency's effectiveness over time. Collective bargaining impairs the 
agency's ability to reward merit and raises the likelihood of illegal 
labor disputes, finds The Heritage Foundation's labor expert, James 
Sherk, who has followed closely the shift in administration policy.\19\
---------------------------------------------------------------------------
    \19\ James Sherk, ``Unionizing Airline Screeners Endangers National 
Security,'' Heritage Foundation WebMemo No. 3142, February 9, 2011 at 
http://thf_media.s3.amazonaws.com/2011/pdf/wm3142.pdf.
---------------------------------------------------------------------------
    There have already been other instances within the Department of 
Homeland Security of union interference with operational activities. 
For example, the National Treasury Employees Union (NTEU) brought the 
Customs and Border Protection (CBP) before an arbitrator after the CBP 
changed policies. The arbitrator found that the CBP should have 
provided the NTEU with notice and the opportunity to bargain before the 
CBP made its changes, such as the Port of Houston reassigning officers 
to Bush International Airport and the Port of New Orleans. In short, 
CBP was cited for making decisions necessary to ensure the effective 
continuity of its operations.\20\
---------------------------------------------------------------------------
    \20\ Decision of M. David Vaughn in Federal arbitration between the 
Bureau of Customs and Border Protection and National Treasury Employees 
Union, November 15, 2006.
---------------------------------------------------------------------------
    The United States should have also learned a lesson from Canada. In 
2006, union baggage screeners undertook an intentional work slowdown 
during the Thanksgiving day travel rush. In response, managers allowed 
250,000 passengers to board without screening. In the words of one 
Canadian security expert, ``If terrorists had known that in those 3 
days that their baggage wasn't going to be searched, that would have 
been bad.''\21\
---------------------------------------------------------------------------
    \21\ CBC News, ``Luggage Security Lax During Pearson Labour 
Dispute: Report,'' December 20, 2006.
---------------------------------------------------------------------------
    Screening Partnership Program\22\.--Privatization of screening 
makes sense from both an economic and security perspective. As 
transportation security expert Robert Poole notes, ``in nearly all of 
Europe, screening is the responsibility of the airport, under national 
government oversight and regulation, and in most cases airports can 
either provide the screening themselves or outsource it to approved 
security firms.''\23\ The benefits of privatization also go beyond 
issues of security and cost-effectiveness--including providing a 
workforce that not only meets appropriate standards but can respond to 
the needs of the airport's customers, improving the travel experience.
---------------------------------------------------------------------------
    \22\ According to the Transportation Security Administration 
website ``[i]n accordance with the Aviation Transportation Security Act 
(ATSA) of 2001, TSA conducted a pilot program to evaluate the 
performance of a private contract screening workforce under Federal 
oversight. The pilot was conducted from 2002 to 2004 with five 
airports. ATSA required contract screeners to meet all the requirements 
applicable to Federally employed screeners. At the conclusion of the 
pilot, TSA created the Screening Partnership Program (SPP). The five 
pilot airports transitioned to SPP. Currently, 11 additional airports 
are participating in the program, for a total of 16.'' See, http://
www.tsa.gov/what_we_do/optout/index.shtm.
    \23\ Robert Poole, Testimony to the House Committee on Homeland 
Security, Subcommittee on Transportation Security, July 10, 2012, 
http://reason.org/news/show/improving-airport-security-testimon.
---------------------------------------------------------------------------
    Moving toward a mixed, non-union Federal workforce and greater 
reliance on private-sector screening companies would likely provide the 
United States in the near term with a balanced and responsive workforce 
at a responsible cost. Despite the utility of this approach, in January 
2011, the administration announced that it would no longer allow 
airports that wanted to privatize their TSA screening workforce to do 
so, claiming that privatization was not cost-effective.\24\ This was 
contradictory to statutory law, specifically the Aviation and 
Transportation Security Act of 2001, which grants airports the ability 
to ``opt out'' of having Federal TSA screeners as long as their private 
workforce submits to TSA oversight. In March, the Government 
Accountability Office noted that the TSA method of determining that 
privatization of screening was not cost-effective was flawed.\25\ In 
recent months, however, additional airports have applied and been given 
tentative approval to join the SPP.
---------------------------------------------------------------------------
    \24\ Mark Rockwell, ``TSA Halts Secure Partnership Program for 
Airports,'' Government Security News, January 31, 2011, at http://
www.gsnmagazine.com/node/22349?c=airport- _aviation_security; Jena 
Baker McNeil, ``Aviation Security: Policy Responses to Address 
Terrorism Threats,'' testimony before the Pennsylvania House of 
Representatives Committee on State Government, March 30, 2011, at 
http://www.heritage.org/research/testimony/2011/03/aviation-security-
policy-responses-to-address-terrorism-threats.
    \25\ Government Accountability Office, letter, Subject: Aviation 
Security: TSA's Revised Cost Comparison Provides a More Reasonable 
Basis for Comparing the Costs of Private-Sector and TSA Screeners, 
dated March 4, 2011 at http://republicans.transportation.house.gov/
Media/file/112th/Aviation/2011-03-04-GAO_Letter_Screening_Costs.pdf.
---------------------------------------------------------------------------
    The administration's whipsaw and over-centralized approach to SPP 
serves neither the agency's workforce, nor the airports, nor their 
customers well. Clear, consistent, and dependable processes should be 
established to govern SPP so airports and the agency can undertake 
thoughtful human capital strategies. In particular, airports should be 
given the authority to select their own contractors based on best value 
from a list of TSA-certified screeners and the airport should have full 
authority to manage the contract within the guidelines established by 
TSA regulatory policies.
                               next steps
    Thank you for the opportunity to speak today on this important 
issue. I urge this committee and the Congress to: Press TSA to sharpen 
its mission focus on fully integrating with other National 
counterterrorism efforts to thwart terrorist travel and exploitation of 
transportation infrastructure; concentrate its resources more on the 
most cost-effective operational initiatives; and rethink the management 
of its workforce, establishing a more judicious mix of Federal and 
private-sector screeners. I look forward to your questions.

    Mr. Rogers. Great, thank you--very good job.
    I am glad you mentioned the report. I do want to thank our 
Majority staff, Amanda Parikh, Nicole Smith, Krista Powers, and 
April Corbett. All of them have been very dedicated--put a lot 
of time and energy--as well as Chris Brinson on my staff, in 
putting that report together--and they are the reason why this 
committee has had success this cycle in providing some pretty 
aggressive oversight.
    Also I want to say that Nicole Smith is getting married 
this Friday. We will miss her while she is on her honeymoon--
but she will be back pretty soon.
    All right; our third witness is Mr. Sam Gilliland. Mr. 
Gilliland was co-chair of U.S. Travel Association's Blue-Ribbon 
Panel on Aviation Security 2 years ago. He serves as a chief 
executive officer of Sabre Holdings.
    The Chairman now recognizes Mr. Gilliland for 5 minutes.

  STATEMENT OF SAM GILLILAND, CHIEF EXECUTIVE OFFICER, SABRE 
                            HOLDINGS

    Mr. Gilliland. All right, thank you, Chairman Rogers, 
Ranking Member Jackson Lee, and Members of the subcommittee. 
Thanks very much for the opportunity to appear before you 
today.
    First and foremost, on the 11th anniversary of the horrible 
tragedy of September 11, we must pay tribute to all the 
families who lost loved ones, friends, and relatives. We must 
also honor those who assisted in the immediate aftermath as 
well as all who helped get our country back on its feet 
economically.
    This afternoon, I am pleased to provide an update on the 
recommendations released last year by the U.S. Travel 
Association's Blue-Ribbon Panel on Aviation Security. Our panel 
set out to develop recommendations that would improve the TSA 
checkpoint, generate greater Governmental efficiency and 
cooperation, and encourage broader use of risk management.
    Overall, TSA has made significant progress. TSA's risk-
based management screening initiative implements one of the 
major goals of our panel and demonstrates a new willingness by 
the Government to provide low-risk travelers with an improved 
screening experience.
    At the same time, there are millions of low-risk travelers 
who could and should be enjoying expedited access through our 
Nation's airports, PreCheck must be expanded in several ways, 
including facilitating interoperability among carriers, 
increasing enrollment opportunities, and offering PreCheck 
eligibility to international members of global entry.
    Travel industry stakeholders and TSA must also collaborate 
so that travelers know what to expect at airport security. 
While the role out of both TSA PreCheck and the TSA smartphone 
app demonstrate progress in this area, travelers continue to be 
frustrated by the lack of clear instructions on screening 
protocols.
    Improving Government efficiency and cooperation is also 
critical. While the Aviation Security Advisory Committee was 
implemented last November, TSA needs to recognize the valuable 
perspective of passenger advocacy groups and include them in 
full ASAC membership.
    TSA must develop a comprehensive multi-year plan for 
acquiring and implementing checkpoint technology, and Congress 
must provide multi-year funding authorization for the agency.
    Unfortunately, TSA has yet to issue a legislatively 
required long-term acquisition plan. Also collaboration with 
the technology development community remains uneven.
    Regarding streamlining international arrivals, DHS has 
taken no action on duplicative TSA's screening. Fortunately, 
the fiscal year 2012, DHS appropriations bill established a 
pilot program to look at this issue.
    Other legislative alternatives being considered including 
the No Hassle Flying Act are also consistent with the panel's 
recommendations. In terms of facilitating international travel, 
while CVP has expanded access to global entry and Congress has 
authorized the APEC business travel card, more must be done.
    CVP should aggressively expand global entry, an excellent 
example of risk management in practice. Issue APEC business 
travel cards and offer foreign members of global entry access 
to TSA PreCheck.
    Also, in the international arena, DHS has worked to build 
security-screening capacity abroad. Last November concluded 
negotiations with the European Union on a revised passenger 
name record treaty. Recently, the United States and the 
European Union agreed to work together to harmonize the 
checkpoint screening of liquids, aerosols, and gels.
    Going forward, DHS should continue expanding global entry, 
and Congress should pass legislation to add more countries to 
the visa waiver program related to liquids, aerosols, and gels. 
The United States and European Union should make public their 
time lines and multi-year budgets for technology deployment.
    In conclusion, since the issuance of the Blue-Ribbon Panel 
report, and clearly since September 11, much has been done to 
improve aviation security. At the same time, we are just 
beginning, as a Nation, to look at the other side of TSA's 
mission, travel facilitation. Many Members of this committee 
are leading that effort, and we thank you for that commitment.
    In honor of those who lost their lives, and for the sake of 
the continued well-being of our Nation, we must do all we can 
to protect ourselves from future attacks, while not deterring 
law abiding, freedom-loving citizens from traveling.
    Thanks for the opportunity to testify today. I look forward 
to answering your questions.
    [The prepared statement of Mr. Gilliland follows:]
                  Prepared Statement of Sam Gilliland
                           September 11, 2012
                            a. introduction
    Chairman Rogers, Ranking Member Jackson Lee, Members of the 
subcommittee, thank you very much for this opportunity to appear before 
you on this solemn anniversary day. My name is Sam Gilliland, and I 
serve as chairman and chief executive officer of Sabre Holdings, one of 
the Nation's and the world's leading travel technology companies. First 
and foremost, on the 11th anniversary of the horrible tragedy of 
September 11, we must pay tribute to all families who lost loved ones, 
friends, and relatives. We must also honor the first responders, good 
Samaritans, and others who helped in the immediate aftermath of the 
attacks on the United States, as well as those who helped get our 
country back on its feet economically. In their honor and for the sake 
of the continued well-being of our Nation, we must do all we reasonably 
can to protect ourselves from future attacks, while not deterring law-
abiding, freedom-loving citizens from traveling.
    Our country is becoming stronger, more secure, and more resilient 
through our dedication to creating the best aviation security system in 
the world. And it's frankly most encouraging that the TSA and private-
sector leaders are striving and increasingly working together to create 
a system that strikes the right balance between security and 
facilitation. So in that spirit, I'm pleased to provide an update on 
the recommendations of the U.S. Travel Association's blue-ribbon panel 
on aviation security released last year. I had the honor of co-chairing 
this panel with former Department of Homeland Security Secretary Tom 
Ridge and the former Ranking Member of this Committee, Representative 
Jim Turner. The panel included over a dozen experts with significant 
expertise in aviation, security, economics, and privacy.
    Our report, entitled ``A Better Way: Building a World-Class System 
for Aviation Security,'' was released on March 16, 2011. The goals of 
our panel were simple--we set out to develop recommendations that 
would:
    1. Improve the TSA checkpoint by increasing efficiency, decreasing 
passenger wait times, and screening passengers based on risk;
    2. Generate greater Governmental efficiency and cooperation in 
executing its security responsibilities; and
    3. Restructure America's National approach to aviation security by 
developing and using risk management methods and tools.
    With these three goals in mind, the panel set forth a series of 
detailed recommendations. Today, I will provide an overview of those 
recommendations, an assessment of progress made on the key 
recommendations, and thoughts on the path forward for those that remain 
works in progress.
    Overall, TSA has made good progress on a number of the 
recommendations by the blue-ribbon panel. TSA's risk-based security 
initiative, for example, implements one of the major goals of our panel 
and demonstrates a new willingness by the Government to identify low-
risk populations and provide them with an improved screening 
experience. The re-establishment of the Aviation Security Advisory 
Committee is also a positive step toward engaging a broader community 
of experts to advise TSA on issues critical to the traveling public. At 
the same time, there is much work to be done in areas like long-term 
budgeting and planning, utilization of secure identity documents, and 
elimination of redundancy with other Government agencies.
  b. review of tsa progress against blue-ribbon panel recommendations
Recommendation 1: Improve the TSA Checkpoint by Increasing Efficiency, 
        Decreasing Passenger Wait Times, and Screening Passengers Based 
        on Risk
            Implement a risk-based Trusted Traveler program. Congress 
                    should authorize TSA to implement a new, voluntary, 
                    Trusted Traveler program that utilizes a risk-based 
                    approach to checkpoint screening, with the goal of 
                    refocusing resources on the highest-risk 
                    passengers.
    Progress.--On this first recommendation, TSA has made its most 
visible progress through implementation of a trusted traveler program. 
Six months after the publication of our report, TSA launched the TSA 
PreCheck<SUP>TM</SUP> program on a pilot basis on October 4, 2011. The 
pilot has expanded from an initial limited partnership with two 
carriers within specific terminals in four airports to a full network 
of specific terminals at 22 airports and five airlines partners.\1\ 
Dulles Airport here in the Washington area is scheduled to 
significantly expand PreCheck<SUP>TM</SUP> on September 25; I am 
hopeful that many of the Members of this committee will have the 
opportunity to visit the airport and see how travelers move through the 
security checkpoint with laptops and liquids in their bags; shoes, 
belts, and jackets on; and hands by their sides instead of over their 
heads. Customers are extremely supportive of the program, as they have 
used PreCheck<SUP>TM</SUP> over 2 million times to date, according to 
data from TSA. The pilot program now underway includes many elements of 
the blue-ribbon panel proposal, including the offering of 
PreCheck<SUP>TM</SUP> benefits to U.S. Customs and Border Protection's 
Global Entry international trusted traveler program \2\ members, 
airline frequent flyer program members, and other vetted populations 
such as active-duty military.
---------------------------------------------------------------------------
    \1\ According to TSA's website, PreCheck<SUP>TM</SUP> exists at 
specific terminals in the following airports: Charlotte Douglas, 
Chicago O'Hare, Cincinnati/Northern Kentucky, Dallas/Ft. Worth, 
Detroit, Dulles, George Bush Intercontinental, Hartsfield Jackson 
Atlanta, Indianapolis, John F. Kennedy, LaGuardia, Lambert-St. Louis, 
Las Vegas McCarran, Logan, Los Angeles, Miami, Minneapolis-St. Paul, 
Newark, Orlando, Philadelphia, Phoenix, Portland, Ronald Reagan, Salt 
Lake, Seattle-Tacoma, and Tampa. The 5 airlines participating in 
PreCheck<SUP>TM</SUP> at these locations are: Alaska, American, Delta, 
United, and U.S. Airways.
    \2\ Global Entry is a U.S. Customs and Border Protection (CBP) 
program that allows expedited clearance for pre-approved, low-risk 
travelers upon arrival in the United States.
---------------------------------------------------------------------------
    Next Steps.--While clearly PreCheck<SUP>TM</SUP> is a major step 
forward, and one that deserves high praise from all industry 
stakeholders, we believe there are millions more low-risk travelers who 
could and should be enjoying expedited access through our Nation's 
aviation security system if TSA and the broader travel and tourism 
community purposefully worked together to expand it.
    To achieve this, we believe that TSA and the travel community must 
work together to improve and expand PreCheck<SUP>TM</SUP> in a number 
of ways, including:

    1. Facilitating interoperability among carriers so that a traveler 
        identified as ``low-risk'' by one airline can also be 
        recognized as a low-risk traveler on all other airlines. 
        Interoperability was a key requirement of the private-sector-
        run registered traveler program that existed at 19 airports 
        until July of 2009 and should be a core part of an expanded 
        PreCheck<SUP>TM</SUP> effort.

    2. Increasing enrollment opportunities through partnerships with a 
        range of organizations that can bring massive numbers of low-
        risk travelers into the program. Today, TSA follows two paths 
        to enroll members in PreCheck<SUP>TM</SUP>. The most well-known 
        approach is one where TSA teams with specific airlines to 
        enroll their most frequent travelers. TSA is also continuing to 
        identify communities of other low-risk individuals--most 
        recently Federal judges and members of the intelligence 
        community with security clearances--to enroll in 
        PreCheck<SUP>TM</SUP>. However, enrolling these limited 
        populations will not rapidly grow this program to the size it 
        should be. The number of low-risk travelers who would be 
        willing to voluntarily provide additional information for a 
        better aviation security experience, is, we believe, quite 
        large. Opening up alternative enrollment mechanisms through new 
        TSA agreements with hotel loyalty programs, frequent car rental 
        programs, travel agencies, and companies like the reorganized 
        Clear (which offers private-sector run biometric enrollment for 
        travelers who seek an expedited security checkpoint 
        experience), are all examples of how we might enroll low-risk 
        travelers in PreCheck<SUP>TM</SUP>. These are also all ideas 
        that would significantly increase the size of this program 
        within TSA's risk-based screening framework.

    3. Improving PreCheck<SUP>TM</SUP> promotional materials by 
        bringing private-sector marketing and communications expertise 
        to bear. Today's PreCheck<SUP>TM</SUP> materials are sufficient 
        for the limited populations now being offered access to this 
        program. However, if TSA opens up the program along the lines 
        we have outlined above, then it should engage marketing and 
        communications experts at some of our Nation's leading travel 
        and tourism companies to improve the materials in existence 
        today. As a member of the President's Management Advisory 
        Board, I have been part of numerous discussions on how the 
        public and private sectors can join forces to achieve shared 
        goals. This effort is a prime example of an area where the 
        private-sector's marketing skills could be used for the 
        Government's benefit.

    4. Improving communication with the traveling public to provide 
        clear PreCheck<SUP>TM</SUP> usage requirements. TSA and the 
        travel community would both benefit from stronger partnerships 
        to make sure travelers understand how to use 
        PreCheck<SUP>TM</SUP>. Again, assuming that the growth 
        recommendations outlined above would be adopted, communication 
        with travelers would need to be substantially improved so that 
        individuals understand what to expect when entering a 
        PreCheck<SUP>TM</SUP> lane at a PreCheck<SUP>TM</SUP> airport 
        terminal. Clearly communicating all of the requirements 
        beforehand would also prevent confusion and frustration when a 
        traveler is denied PreCheck<SUP>TM</SUP> benefits.

    5. Working with airlines to standardize PreCheck<SUP>TM</SUP> 
        verbiage. Today's airline-centric PreCheck<SUP>TM</SUP> model 
        does not provide that all participating airlines communicate 
        with customers on program benefits or eligibility in a 
        standardized manner. As a result, there is significant 
        potential for traveler confusion when traveling on different 
        airlines. Providing consistent and predictable communication 
        among all airlines would help eliminate any potential confusion 
        within the traveling public.

    6. Working with airlines to create a consistent level of 
        PreCheck<SUP>TM</SUP> training. Given that so much of the 
        current PreCheck<SUP>TM</SUP> program is in the hands of the 
        airlines, it would be useful for TSA to expect that all 
        participating airlines provide appropriate employees with a 
        standard level of training on the program so that they 
        consistently communicate the program's attributes, offer 
        enrollment to the eligible population of travelers, and can 
        adequately address PreCheck<SUP>TM</SUP> related questions from 
        the traveling public.

    7. Working with Online Travel Agents (OTAs) to accept Global Entry 
        PASS ID numbers during the booking process. Currently, Global 
        Entry members who use OTA's to book flights may not have their 
        CBP-issued PASS ID included in their reservation that is 
        forwarded to the carrier, and thus may not be able to utilize 
        PreCheck<SUP>TM</SUP> for flights booked in this manner.

    8. Expanding PreCheck<SUP>TM</SUP> usage beyond domestic flights 
        and allowing international participation in the program. Today, 
        PreCheck<SUP>TM</SUP> is only offered to individuals travelling 
        purely domestically, not to those on outbound international 
        flights or taking a domestic connection after an international 
        flight. A low-risk traveler should have the opportunity to 
        utilize PreCheck<SUP>TM</SUP> for flights originating in the 
        United States.

    9. Offering PreCheck<SUP>TM</SUP> eligibility to international 
        members of Global Entry. Through the CBP Global Entry program, 
        the United States has identified low-risk travelers from other 
        countries. Because these individuals are low-risk from a CBP 
        perspective, they should also be eligible to benefit from 
        PreCheck<SUP>TM</SUP> when travelling within the United States.

    10. Ensuring efficient use of dedicated lines and lanes as traffic 
        increases. While no one would say that today's 
        PreCheck<SUP>TM</SUP> lanes are overcrowded, implementation of 
        any of the program growth initiatives outlined above would 
        change that significantly. Therefore, planning should begin now 
        so that as the PreCheck<SUP>TM</SUP> population grows, it grows 
        along with TSA's capability of handling a larger number of 
        participants in the program.

            Improve preparation of travelers. Industry stakeholders, 
                    including airlines, hotels, resort owners and 
                    operators, cruise lines, rental car agencies, 
                    travel agents and the like should work with TSA to 
                    improve their education and communication on 
                    security rules and regulations, targeting locations 
                    and sources that travelers are likely to review as 
                    they book or prepare for a trip.
    Progress.--TSA has improved communications with industry sources to 
provide them with more information on programs such as TSA 
PreCheck<SUP>TM</SUP>. Of note, TSA has developed promotional materials 
and worked with Government partners, notably CBP and the Department of 
State, to disseminate information to the traveling public. 
Additionally, their roll-out of a TSA-dedicated smartphone app allows 
travelers find answers to TSA-related questions during the travel 
process.
    Next Steps.--Despite this progress, more improvement is necessary, 
as travelers continue to be frustrated by:

    1. The lack of clear instructions on the regular (as opposed to 
        PreCheck<SUP>TM</SUP>) screening protocols (e.g., sometimes 
        consumers are asked to put their shoes on the conveyor belt, 
        other times in a bin; sometimes tablet computers are treated 
        like laptops, other times like mobile phones; sometimes laptops 
        are put in a bin alone, other times it is all right to include 
        other items in that bin; occasionally consumers are asked to 
        have a boarding pass in hand, other times they are not; and the 
        on-going confusion over whether or not duty-free liquids of 
        more than 3 ounces acquired abroad when connecting to a 
        domestic flight are permitted in a carry-on); and

    2. The lack of easy-to-find and -use contacts that consumers can 
        reach for immediate answers to their travel security questions, 
        including airport-specific information, airport-specific phone 
        lines or customer service agents at an airport.

    TSA, airports and the airlines must continually collaborate to 
provide travelers with clear, concise, and consistent guidance on 
aviation security, including processes and procedures at the airport 
from curbside to boarding. A November 2011 survey by the U.S. Travel 
Association found that four out of five travelers are frustrated with 
the checkpoint process. While there are clearly a range of reasons for 
the frustration--long lines, travelers unsure of how to use the 
advanced imaging technology, families with lots of unwieldy gear--not 
understanding the aviation security process should not be one of the 
reasons once all parties in the security process are communicating 
effectively.
    Additionally, commercial aviation stakeholders--hoteliers, cruise 
lines, and rental car agencies, for example--should look for 
opportunities to provide their customers, members, and affiliates with 
information on enrollment for programs like PreCheck<SUP>TM</SUP> and 
Customs and Border Protection's international travel facilitation 
program called Global Entry in order to add more low-risk travelers to 
the programs, and allow TSA to focus its resources on higher-risk 
travelers. In addition, as new programs or screening protocols are 
unveiled, organizations that can reach out to significant numbers of 
travelers should work with the appropriate Government agency to 
communicate the new processes to the traveling public.
Recommendation 2: Improve Governmental Efficiency and Cooperation in 
        the Execution of its Security Responsibilities
            Reinstitute the Aviation Security Advisory Committee. DHS 
                    should immediately reinstate and appoint the 
                    Aviation Security Advisory Committee (ASAC) to 
                    provide effective private-sector input to DHS on 
                    aviation security within 180 days. DHS should also 
                    convene airport-specific working groups to identify 
                    and resolve problems affecting travelers at 
                    particular locations.
    Progress.--On November 7, 2011, TSA officially reconstituted the 
ASAC and named 24 members to the committee. Since that time, the ASAC 
has held several full committee meetings, formed five subcommittees to 
examine specific issues, and will consider subcommittee recommendations 
in the near future. I am especially pleased that TSA named my friend 
and fellow panelist Geoff Freeman, executive vice president and chief 
operating officer of the U.S. Travel Association, as chair of the ASAC 
Subcommittee on Passenger Advocacy.
    Next Steps.--Now that passenger advocacy groups, including the U.S. 
Travel Association, have been brought into the ASAC process at the 
working group level, it is time to recognize the importance of such 
organizations and add them to the full membership of this Federal 
Advisory Committee. Adding U.S. Travel and others, such as the Consumer 
Travel Alliance, for example, would give the travel community a greater 
voice in the advisory committee. CBP and TSA also need to create a 
broader group of local airport-specific stakeholder groups, including 
relevant destination marketing organizations, to develop innovative 
solutions that can improve passenger processing and customer service at 
their airports.
            Facilitate non-partisan leadership of TSA. The TSA 
                    Administrator should be converted to a 5-year 
                    position extending across Presidential 
                    administrations to be filled by a non-partisan 
                    official with expertise in both security and 
                    facilitation.
    Progress.--While the underlying statute creating the TSA envisions 
the administrator position holding a 5-year term, there has not yet 
been effective implementation of this term appointment during a 
transition of Presidential leadership: at the end of the Bush 
administration, former administrator Kip Hawley resigned rather than 
continue into the Obama administration. We understand that this issue 
has arisen recently before this committee, and that there has been 
discussion between the Chairman and the Ranking Member on the subject. 
We hope that bipartisan support for the TSA Administrator fulfilling a 
5-year term appointment will remain strong so that this critical 
organization can transition from administration to administration 
without the disruption of a confirmation process.
    Next Steps.--Aviation security and travel facilitation should not 
be partisan issues, and TSA can ill afford not having a confirmed head 
following a Presidential election as happened in 2009. Thus, aviation 
stakeholders should encourage the incumbent or new administration to 
commit to having TSA Administrator Pistole fulfill his 5-year term. 
Additionally, Congressional leaders should, on a bipartisan basis, 
consider whether a longer term, such as that held by the FBI Director, 
would provide necessary continuity at TSA.
            Develop a comprehensive technology procurement strategy. 
                    TSA, in collaboration with technology vendors and 
                    the travel community, should develop a 
                    comprehensive strategy for implementing necessary 
                    checkpoint technology capabilities. Congress should 
                    provide multi-year funding plans for TSA to execute 
                    this strategy.
    Progress.--As this committee and others have noted in oversight 
hearings over the last several years, TSA has a checkered history in 
terms of deploying security technology. TSA priorities change with 
little notice, leaving frustrated vendors on the hook for time and 
resources spent in technology development. For example, deploying 
biometric card readers for the TSA Transportation Worker Identity 
Credential (TWIC) program, which provides biometrically-enabled cards 
to qualified individuals who need unescorted access to the secure areas 
of ports, vessels, and facilities, has been unresolved for years, with 
vendors having technology approved but left waiting for the formal 
rulemaking process to conclude. At the request of TSA, vendors 
prioritized the development of bottled liquid scanners in response to a 
specific threat only to see the organization pull back from the broad 
deployment originally envisioned. The current Credential Authentication 
Technology-Boarding Pass Scanning System (CATBPSS) has been through 
multiple procurements over several years, and support for this program 
is still questioned by some. Meanwhile, travelers are left with little 
understanding of what technologies do, what the future looks like, and 
how security will be enhanced over time. Knowing all of this, in the 
fiscal year 2012 DHS appropriations bill, Congress has established a 
requirement that all DHS components, including TSA, issue a Five-Year 
Homeland Security Acquisition Plan. Unfortunately, TSA has yet to do 
so, and there are some indications are that the agency does not plan to 
comply with the mandate, citing ever-changing threat circumstances as 
factor that limits the organization's ability to plan for the long-
term.
    Next Steps.--As any business leader knows, budgeting and planning 
are a necessary disciplines to set priorities and establish resource 
requirements. Uncertainty about the future is a given and changing 
priorities--and budget allocations--is in fact part of every manager's 
responsibility. Government budget experts also know this, and have, in 
departments including the Department of Defense, issued 5-year plans 
that signal what the agency believes the future holds so that others, 
including partners in the private sector, can plan accordingly. The 
homeland security apparatus of the Government should similarly have the 
capability to issue 5-year plans. Indeed, I would argue that, given 
this tight budget environment, TSA's planning capabilities must 
improve, and the organization must more routinely and deeply engage 
technology vendors and travel community representatives. Engaging 
vendors before issuance of a request for proposals to discuss a 
security requirement, and possible solutions, should be the norm, not 
the exception. An open and transparent process to establish 
requirements and specifications should also be standard operating 
procedure--as opposed to the erratic, often opaque, process in place 
today. Through better planning and more thorough engagement, TSA can 
better ensure that the industry develops and deploys more effective and 
traveler-accepted technology that addresses well-articulated 
requirements. Stronger collaboration between the Government and private 
sector on acquisition-related issues will drastically improve traveler 
facilitation and security, while providing significant cost savings.
            Encourage wider use of secure identification documents. 
                    Federal and State governments should embrace 
                    programs that build and deploy secure 
                    identification documents in order to provide 
                    higher-quality identity documents to the traveling 
                    public that meet Government security requirements.
    Progress.--A critical step in securing our country's commercial 
aviation system is ensuring the identity of individuals who travel on 
it. Today, the percentage of Americans holding a passport has reached 
an all-time high of 35%, according to the State Department. In 
addition, nearly all States have made significant improvements to the 
security of their identity documents in recent years, enhancing 
confidence that individuals holding an identity document are who they 
purport to be. Furthermore, U.S. Travel and several other stakeholders 
have submitted a proposal to TSA to leverage private-sector investment 
in secure identification as an alternative enrollment mechanism for TSA 
PreCheck<SUP>TM</SUP>.
    Next Steps.--Expanding the existence of secure identity documents 
should be a TSA priority. To that end, TSA should approve the use of 
secure private-sector enrollment technologies for TSA 
PreCheck<SUP>TM</SUP> to leverage the biometric identity management 
systems in use today within the private sector. The new Clear company, 
with its biometric identity card, is one good example, particularly 
given that a security threat assessment is conducted in conjunction 
with card issuance.
            Reduce duplicative TSA screening for international 
                    arrivals. DHS should enable certain low-risk 
                    passengers who are traveling through a U.S. gateway 
                    to another domestic airport to forego checked 
                    baggage and passenger screening upon landing in the 
                    United States.
    Progress.--The fiscal year 2012 DHS appropriations bill directed 
DHS to establish a pilot program to allow connecting passengers and 
their baggage to bypass baggage screening. In addition, the U.S.-Canada 
bilateral ``Beyond the Border'' action plan outlined a series of travel 
facilitation steps, including the end of rescreening of baggage from 
Canada under most circumstances by 2015 as Canada deploys baggage 
explosive detection systems.
    Next Steps.--CBP and TSA should complete the pilot described above 
and look to expand it to additional locations and populations. 
Furthermore, commercial aviation and travel interests should work with 
U.S. and Canadian authorities to move the ``Beyond the Border'' agenda 
forward, including the goal of baggage screening harmonization. 
Finally, legislative alternatives, including the No Hassle Flying Act, 
H.R. 6028, which streamlines baggage security processing measures for 
international flights, should also be viewed as options to achieve this 
same goal. This bill is on the House suspension calendar this week.
            Expand trusted traveler programs to qualified international 
                    passengers. DHS should expand access to trusted 
                    traveler programs for international passengers 
                    entering the United States, as well as lead efforts 
                    to establish a multinational network of streamlined 
                    entry procedures for low-risk travelers.
    Progress.--CBP has made some progress in expanding access to Global 
Entry by launching pilot programs with the United Kingdom and Germany, 
and announcing agreements with South Korea and Singapore. Congress has 
supported Global Entry with funding and authorizing language, including 
requests to broaden enrollment to members of international 
organizations. In addition, Congress enacted legislation to allow the 
United States to participate in the APEC Business Travel Card (ABTC) 
program, which facilitates travel for business leaders in the 21 
economies that make up the Asia Pacific Economic Cooperation Forum.
    Next Steps.--CBP should accelerate negotiations with foreign 
governments to expand access to Global Entry, work to reduce interview 
delays in enrollment locations, and implement the ABTC legislation by 
beginning to issue APEC Business Travel Cards to qualified business 
travelers. In addition, foreign members of Global Entry--such as those 
in the U.S.-Canada NEXUS program--should be offered access to TSA 
PreCheck<SUP>TM</SUP>.
            Eliminate duplication between TSA and Customs and Border 
                    Protection (CBP). DHS should streamline its 
                    operations at U.S. international airports to reduce 
                    unnecessary duplication and leverage CBP and TSA 
                    resources, authorities, and capabilities.
    Progress.--Unfortunately, there has been no progress on this 
recommendation, despite the potential cost savings that could be 
realized from elimination of duplication between TSA and CBP.
    Next Steps.--Reducing unnecessary duplication and cutting 
Government spending are two goals that every department and agency 
should be pursing with all due haste in this time of fiscal discipline. 
However, as TSA and CBP have not yet tackled this recommendation, we 
would hope that perhaps this committee could review programs in CBP and 
TSA that are duplicative, or might benefit from consolidation. This 
should start with both agencies jointly reviewing their staffing levels 
and schedules at international arrival airports. Unifying schedules so 
that there is optimal staffing based on flight arrivals should be the 
first priority, followed by an assessment of where cross-training of 
TSA and CBP officers might benefit the travelling public. Of course, in 
cases where programs seem duplicative but in fact a legitimate law 
enforcement or National security purpose is served through separation, 
we would not object. However, in this case, we believe a fresh set of 
eyes on the roles and responsibilities of CBP and TSA personnel at 
airports is merited, and we hope this committee would conduct such 
oversight.
            Push for international cooperation with U.S. security 
                    standards. The Federal Government must continue to 
                    push for international cooperation in the 
                    development of international aviation security, 
                    including both bilateral and multilateral 
                    approaches, as well as with organizations such as 
                    the International Civil Aviation Organization 
                    (ICAO), to strengthen aviation security efforts 
                    while promoting travel and protecting travelers' 
                    rights.
    Progress.--Following a 2010 agreement by the International Civil 
Aviation Organization to strengthen aviation security, DHS has 
continued to work on a bilateral basis with countries such as Panama, 
El Salvador, Costa Rica, Guatemala, and Qatar to build capacity in the 
international aviation system for more consistent levels of screening 
and more standardized deployment of technology. In addition, in 
November 2011, DHS and the European Union concluded negotiations on a 
revised Passenger Name Record treaty to allow for continued vetting of 
in-bound passengers from the European Union. And recently, the United 
States and the European Union agreed to work together to harmonize the 
currently disparate approaches to the checkpoint screening of screening 
of liquids, aerosols, and gels.
    Next Steps.--Two DHS programs that are global in nature--the Global 
Entry program and the Visa Waiver Program--merit expansion immediately, 
assuming the foreign partners commit to implementing the required 
improvements in security and law enforcement information sharing. In 
the House, the expansion of VWP is codified in the Jobs Originated 
through Launching Travel Act (JOLT Act), H.R. 5741 (S. 3199 in the 
Senate). We hope that Members of this subcommittee, and the full 
committee, will take a look at this legislation and consider signing on 
as co-sponsors, and also encourage subcommittee Chair Miller to hold a 
hearing. In the liquids, aerosols, and gels area inspection area, the 
United States and European Union should make public their time lines 
and multi-year budgets for harmonizing the deployment of technology 
that will meet the new U.S.-E.U. requirements so that technology 
vendors are ready with equipment once the governments harmonize policy.
Recommendation 3: Restructure Our National Approach to Aviation 
        Security by Developing and Utilizing Real Risk Management 
        Methods and Tools
            Implement well-defined risk management processes. The 
                    administration should convene an external panel of 
                    experts with appropriate security clearances to 
                    review TSA aviation security programs, assess the 
                    risk each is designed to mitigate and develop 
                    metrics for measuring progress to lessen that risk.
    Progress.--While an external panel of risk management experts has 
not been convened by TSA, we do believe that the Risk-Based Screening 
Initiative, which includes PreCheck<SUP>TM</SUP>, is consistent with 
the spirit of this recommendation, which encouraged broader use risk 
management processes.
    Next Steps.--TSA's Risk-Based Screening Initiative and the 
revitalization of the Aviation Security Advisory Committee are hopeful 
signs that TSA is not only expanding its use of risk management, but 
also is more thoroughly engaging external travel and aviation experts 
from the private sector. We will watch the evolution of the various 
streams of on-going aviation security and facilitation work to insure 
they stay grounded in solid risk management principles, and that 
external experts remain actively involved. Assuming that is the case, 
we will withhold seeking the explicit creation of a risk management 
experts group.
                             c. conclusion
    Since the issuance of the blue-ribbon panel report--and clearly, 
since September 11, 2001--much has been done to improve aviation 
security. A new Government agency, new technologies, and new approaches 
to security have all been brought to bear to employ all reasonable 
steps to insure that such a tragedy never strikes our country again. At 
the same time, we are just beginning, as a Nation, to look at the other 
side of TSA's mission--travel facilitation. Many Members of this 
committee are leading that effort, and we thank you for your 
commitment. The twin goals of security and facilitation must be 
effectively balanced to ensure that our country is both safe and 
prosperous.
    In our estimation, TSA has made tremendous progress since its 
establishment, and recent efforts--including TSA's Risk-Based Screening 
Initiative--hold much promise for the country and for the traveling 
public. We look forward to continuing our long-standing bipartisan work 
with this subcommittee to ensure we highlight opportunities for TSA to 
do more to facilitate commercial air travel, while maintaining security 
for all Americans.
    Thank you for this opportunity to testify today, and I look forward 
to answering your questions.

    Mr. Rogers. Great, Mr. Gilliland.
    I appreciate you mentioning the No Hassle Flying Act. That 
will be on the floor this afternoon and the suspension 
calendar. So we are excited about that.
    The Chairman now recognizes himself for 5 minutes for 
questions. Each witness, I am a recovering attorney, as you all 
probably know, so I am going ask a leading question. I want you 
to answer with the one letter.
    What grade would you give TSA on efficiency, efficiency 
after 11 years?
    Mr. Freeman.
    Mr. Freeman. TSA has made progress, but the grade is 
clearly incomplete as you look at what the opportunities are 
with PreCheck.
    Mr. Rogers. You have been watching the convention, haven't 
you?
    Mr. Freeman. It works well.
    [Laughter.]
    Mr. Freeman. There is progress that has been made. It is a 
step in the right direction, but as for all the reasons we 
outlined earlier today with PreCheck, we have got to work on 
that model; we have got to work on our inter-operability, and 
we have got to find better ways to get people enrolled and 
provide more predictability to those that are enrolled.
    Mr. Rogers. Doctor Carafano.
    Mr. Carafano. With all due respect sir, it is the wrong 
question. Your grades are subjective, particularly looking 
across the complexity of the TSA mission. To give them a grade 
in this sense would be to do what they are doing wrong now, 
which is we are don't have the strong quantitative and 
qualitative analytical basis for decision making.
    Rather than give them a grade, I would say we have got--the 
structural inability to do the kind of tradeoffs that need to 
be done, and that is something that needs to be fixed.
    Mr. Rogers. Mr. Gilliland.
    Mr. Gilliland. Well, are we grading at a curve?
    Mr. Rogers. No.
    [Laughter.]
    Mr. Gilliland. No.
    I guess I would say, specific to efficiency, there are 
clearly frustrations, particularly during peak travel times 
when somebody shows up at an airport.
    So if I think about it, specifically from a checkpoint 
perspective, you could say there are improvements to be made. 
There is a lot of work being done to move those trusted or 
known travelers out of those lines, so that they can process 
the other travelers more quickly.
    I will say from experience, I was in Frankfurt, 
transmitting through Frankfurt here just in the last couple of 
days, and certainly noted that the checkpoint process there is 
much slower than our own.
    So, if you are grading on a curve, they are certainly doing 
better than certainly some international checkpoint processes 
that I have seen; but lots of opportunity here ahead with TSA 
PreCheck, with global entry too, to reduce the size of a 
haystack. You know, we are looking for a needle in the 
haystack.
    Reduce the size of the haystack--get those known travelers, 
trusted travelers out of those lines and push people through 
much more efficiently.
    Mr. Rogers. As a follow-up to that, let me ask, do you 
believe that TSA has implemented security measures in a 
proactive or reactive way?
    We will start with Mr. Gilliland.
    Mr. Gilliland. Well, I think certainly there has been 
reaction to numerous incidents that have occurred in the last 
11 years. So you see them being reactive in a number of 
situations. I suppose there is no other way to manage through 
that.
    On the proactive front, and I mention this in my testimony, 
I think we really need to have a multi-year plan. I think TSA 
needs to have a multi-year plan, and you need to provide--this 
committee needs to provide them with multi-year funding 
authorization so that they can look forward.
    To your points, Chairman Rogers, you know the threats are 
evolving. They are looking forward; they are looking at those 
threats. They need to build a proactive plan, technology and 
otherwise, to address that. I think that is what gets them 
fully forward from a proactive perspective.
    Mr. Rogers. Doctor Carafano.
    Mr. Carafano. I think the simple answer is we have seen 
both. We have seen them do both.
    You know, I look back at the reaction to the liquid bomb 
plot, which in many ways, seems like a reaction, but was 
actually very proactive, because the agency had actually done a 
lot to think through that threat and when they had to respond 
to it, they actually did so, I thought, in a fairly thoughtful 
way.
    We don't always see that. So it is this lack of consistent 
pattern of behavior throughout all the programs that I think is 
the greatest cause for concern.
    Mr. Rogers. How about you, Mr. Freeman?
    Mr. Freeman. I would add two things.
    I think the point Jim made earlier is that we have all been 
a bit too reactive with things from Congress, to the public, to 
TSA looking in bad times to see what needs to be done, as 
opposed to doing what you are doing today, which is when times 
are--when there isn't a crisis situation, ``How do we make some 
improvements here?'' So, I think we are all guilty of being a 
bit reactive, in that sense.
    I think where we suffer the most though from a travel 
perspective is we continue to look at this too much only from 
the security lens, rather from that balance of security and 
facilitation.
    If we bring that model to it of ``How do we get as many 
people through America's airports as we possibly can?'' as a 
means of promoting commerce, it is going to give us a different 
perspective, it is going to lead us to some different ideas as 
to policies that will increase travel and, in so doing, create 
new jobs.
    Mr. Rogers. Mr. Gilliland, given your role in the private 
sector, can you discuss what challenges you have encountered 
with TSA's procurement process?
    Mr. Gilliland. I think the challenges that I have 
observed--and they aren't necessarily specific to our company--
but I think from private-sector perspective--I think that there 
are numerous starts and stops.
    So some of that can come from either a policy change--but 
technology companies can get started on a project-based on a 
view of where we are going to be a couple years from now, only 
to have policy stop that. So we saw that, in some respects, 
with liquids, aerosols, and gels and the technology that was 
going to be deployed in that regard.
    I think it is really important--and my prior point that we 
understand that technology companies are included early in the 
process understanding what problem we are trying to solve. They 
will then forecast forward and plan along with TSA to get at 
the solution.
    Mr. Rogers. I completely agree. That is across DHS. That is 
not unique to TSA.
    I thank you very much.
    The Chairman now recognizes the Ranking Member for any 
questions she may have.
    Ms. Jackson Lee. Mr. Chairman, thank you very much for, 
again, this hearing.
    I guess I am a little taken aback on the criticism on a day 
that we are mourning those who are lost, that we haven't had 
one tragic incident since 9/11.
    So let me try to understand--I think it is Mr. Freeman? 
Where did you get this data that you are talking about that 
people are not traveling? Is this your own research?
    Mr. Freeman. Yes, Ranking Member Jackson Lee. There have 
been several studies done. We funded one study through 
Consensus Research. There have been other studies which speak 
to travelers' frustration with the air-travel process.
    In fact, four out of five of the top frustrations deal with 
the security-screening process. It does discourage travel. It 
does discourage people from going to various destinations 
around the country.
    As I said earlier, our challenge is to match our immense 
success on the security side with similar successes in 
facilitating travel.
    Ms. Jackson Lee. Okay. But you indicate in your statement 
that the research you are indicating your statement said 
travelers would take two or three more flights if the hassles 
in security screening were reduced.
    What are you suggesting? Reduced in what?
    Mr. Freeman. Well, when it comes to the hassle factor, as 
you talk to travelers there are various things, from the length 
of lines to the unpredictability of what you are going to face 
one day versus the next, to removing shoes.
    What travelers are most frustrated with is the one-size-
fits-all approach. Many travelers, particularly those that are 
business travelers----
    Ms. Jackson Lee. So you want us to hire more TSO officers, 
because you say there are lines?
    Mr. Freeman. Yes.
    What travelers would like to do is provide more information 
about themselves. Provide that background information about 
themselves--prove with whatever measure Congress would like to 
set--that they are not a threat, so that they can face a 
different experience----
    Ms. Jackson Lee. Do you see anything positive about what 
has occurred since 9/11?
    Mr. Freeman. As I said in my statement, TSA has done a 
fabulous job of protecting America, of assuring that we haven't 
had any future or any additional terrorism acts. Our challenge 
is to match that success with similar successes on 
facilitation.
    Ms. Jackson Lee. I think part of what we have to do is to 
listen to you. You obviously have expertise. But I think the 
other part of what we have to do is to explain to America that 
they have safe travel partly because of some of the technology 
and techniques that have been utilized. Maybe a little bit of 
explanation might aid in the understanding.
    I am looking at the language that says nearly two in every 
three travelers, 54 percent, said they would fly more if the 
procedures remain as effective. So they believe that the 
procedures are effective. I guess that the issue of being 
intrusive and time-consuming, don't you think that in addition 
to maybe looking at ways of expediting, that a greater 
explanation and information to travelers might also be helpful?
    Mr. Freeman. I think travelers are the customers. Travelers 
have the right to demand speedy process while also being 
secure. We can find a way to do that. We are the country that 
put a man on the moon, we can figure out how to----
    Ms. Jackson Lee. One of the things that I am certainly 
interested in is that--or that I might join with you on--is 
that we want to ensure that the civil liberties of all 
passengers are certainly protected; that there is no racial 
profiling, that there is no discrimination on the basis of 
one's religious attire. I think that we can come together on 
that.
    But I also believe that we have seen over the last 2 weeks 
two very conspicuous large conventions. As I have had reports 
provided for me on both of those in Tampa and Charlotte, and 
having seen the one in Charlotte, and even stopped at the 
airport and watched the screening process--large population of 
individuals, large numbers of individuals--and it looks as they 
went through without a hitch.
    I also think we can focus on information. I am not sure 
whether we can focus on reduction, and I think that if you are 
aware that TSA continuously looks at ways to eliminate some of 
the--let me not use the terminology--procedures that they use, 
including taking off shoes.
    So would that please you if TSA would move more 
expeditiously on some aspects of the screening process?
    Mr. Freeman. I think if we can move expeditiously to look 
at the reforms, it would be an excellent step in the right 
direction. You know, we have that here in the Cannon House 
Office Building. We have it across Capitol Hill right now, 
where Members of Congress go through a different screening 
procedure than I go through when coming into this building.
    That is because they have more information about Members of 
Congress. They are trusted. It is using risk-based screening. 
We need to bring that same effort to America's airports.
    Ms. Jackson Lee. With all due respect, I am not going to 
adhere to the screening here to protect Members of Congress. I 
think protecting the various visitors that we have might be a 
little bit more important. But it certainly doesn't equate to 
someone getting on an airplane and being airborne and that 
particular, if you will, aircraft becoming a flying missile, as 
it did on 9/11.
    I just want to say that I think we live in a completely 
different world, and it is not all about vacationers and 
others. I do want grandma and grandchild to be able to get to 
their destination to visit each other without having an 
intrusive and frightening process.
    But I believe that one of the responsibilities we have as a 
Member of Congress is to ensure that we educate not only you 
and the traveling public, because I think we have done a lot 
for the travel industry and I want to do more. I like to do 
more for however I can create processes to help you.
    But I do not want us to be lax--and I am ending, Mr. 
Chairman, thank you for the gavel--I do not want to be lax, if 
you will, on procedures that have provided a safe passage for a 
Nation's millions of travelers since 9/11.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentlelady.
    The Chairman now recognizes the gentleman from California, 
Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    At the outset I want to say that I do think we are safer as 
a result of the actions that have been taken. I do think there 
has been some improvement in terms of the rapidity with which 
we can go through.
    At least, I have seen that. I have only traveled 2.5 
million miles on commercial air, and unfortunately I did two 
different airlines, and so you don't get the same benefits at 1 
million as you do with 2, but what the heck?
    But I have noticed an improvement. I happen to think the 
full-body scanners have helped, particularly since I have been 
one of those who have the opportunity to have a hip 
replacement, a knee replacement. I would much rather go through 
that way than have their hands put on me.
    But there is a lot of improvement that needs to be done. I 
don't think there is any doubt about that.
    Dr. Carafano, I would like to ask you this: Do we run into 
the problem of sort of two different impulses--egalitarianism, 
meaning that everyone is treated the same, versus risk-based 
activity? It just strikes me that we have had the reluctance on 
the part of TSA in both administrations to go to pre-screened 
lines, because it is going to treat people differently.
    We had a reluctance by prior operations for the flight-deck 
operation. I mean, that was imposed by Congress. It was because 
they would be treated differently than everybody else. It just 
seems to me that smacks of frankly silliness in not getting us 
to a risk-based scenario.
    Mr. Carafano. Well, Congressman, I think you ask a really 
great question. I have real problems with the risk-based 
initiative, because it implies something is exactly wrong. Most 
people that travel are low-risk. So the notion that we have 
distinguish a few low-risk categories, that is really much of 
an achievement. That just means that we have singled out a few 
out of all of us who are very, very low-risk.
    So I really don't applaud the department for these 
initiatives, because we have got the real challenge is to 
distinguish the vast majority of travelers that are low-risk 
from the very few that we know are a real problem. Which is, 
again, my emphasis on linking TSA on the operational 
capabilities, the things that are proactive, the things that 
link with CT, the things that stop people before they get near 
our critical infrastructure, that are really the most cost-
effective.
    Mr. Lungren. Let us presume that--because in tough budget 
times that TSA is going to continue with the current budget or 
maybe even slightly less. How would you make changes with the 
same budget and why?
    Mr. Freemen, do you have any suggestions?
    Mr. Freeman. Well, I think one of the great opportunities 
here is the many travelers who are willing to pay for a better 
experience. Quite frankly, when you look at it, upwards of 80 
percent of travelers would be willing to pay to be part of a 
trusted-traveler program, where in exchange for providing 
information about themselves and paying a modest fee to cover 
TSA's cost for the FBI background check or whatever else they 
may have----
    Mr. Lungren. Have you ever heard anybody argue that having 
more information that would go to the question of whether they 
are a risk or not risk does not give you a better benefit than 
idly looking at everybody that goes through?
    Mr. Freeman. No. No one has made that argument. In fact, 
the model for the Global Entry program that Customs and Border 
Protection is already using is based on getting information 
about people in advance. As the 9/11 Commission says, it is all 
about intelligence gathering. Gathering that information in 
advance is the best that we can do, and processing people 
through there.
    I think when you look at tight budgetary time, that is one 
approach; working with private vendors who can also cooperate 
here. I mentioned Clear earlier as one example of an entity 
that can help on background checks and in other areas that are 
opportunities here to achieve the security that Ranking Member 
Jackson Lee rightfully demands will also streamline the 
process.
    Mr. Lungren. Mr. Gilliland, do you have any suggestions how 
they can improve without having an increased budget if they 
have to deal with that situation, as most Government agencies 
are going to have to?
    Mr. Gilliland. Well, I think the very programs that have 
been mentioned here are opportunities to use the same number of 
people to screen more. What I mean by that is that you see 
PreCheck, you see Global Entry--it allows people to move 
through the process more quickly. It allows TSA to focus on 
people they don't know.
    However, we do need to--as Dr. Carafano pointed out, we 
need to get more people into the program. So it can't simply be 
about frequent travelers, although they are the highest volume 
of entry and exit into and out of airports. It can't just be 
about frequent fliers.
    We have got to get the programs like Clear, other programs 
that can get more and more people into that process. If you do 
that, you can process more people with fewer TSA agents or----
    Mr. Lungren. Dr. Carafano, any other suggestions?
    Mr. Carafano. Well, you know, I think that they are both 
correct. If you reduce your screener requirement you are going 
to save a ton of money. The question is--even if you vastly 
spend, the number of people that are low-risk, and the getting 
people into--wind up into the low-risk category, is just like 
getting people to use Twitter.
    I mean, the rules are exactly the same. It has to be 
simple. It has to be vigorous, and the traveler has to see 
value in that. So unless you create a system that has those 
three attributes, you are not going to get the numbers of 
people into the system at the level you do to significantly 
reduce costs.
    I don't see how you get to that kind of system with just a 
Government-run program. I do think you are going to have to 
have a program which has greater input from industry and 
travelers and stakeholders to shape the kind of programs that 
are suitable and flexible to their needs.
    Mr. Lungren. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    Mr. Davis is recognized for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman. I want to 
thank the witnesses for being here.
    Mr. Freeman, in your testimony, you discuss the economic 
impact travel has on our Nation's economic health and the many 
jobs that are dependent upon the travel industry.
    Is it accurate to say that when TSA does its job 
effectively and prevents terrorist attacks from occurring, it 
is helping to ensure the health of a critical part of our 
economy?
    Mr. Freeman. The most important things to increase travel 
are safety and efficiency, so both of those things have to work 
hand-in-hand.
    Unfortunately, we have the same number of air travelers 
today that we had in 2000. So I think we have to ask ourselves, 
``What is it going to take to get more people traveling?'' What 
is it going to take to get more people in the air so that we 
can go into these local communities and not just stay in hotels 
and rent cars, but go to the local drugstores, go to the dry 
cleaners, spend that money throughout those local communities 
to strengthen them?
    Right now, we are static.
    Mr. Davis. You also cite in your testimony studies that 
suggest individuals do not fly oftentimes due to hassles 
related to the checkpoint screening.
    What would you suggest TSA and the travel industry do 
collaboratively to ensure that individuals are not deterred 
from flying because of security hassles?
    Mr. Freeman. Yes, the travelers that most often avoid trips 
are those travelers who travel most, the frequent business 
travelers. The single biggest thing those travelers want is 
predictability. They want a sense of, if it is an hour wait 1 
day and 1 minute or 5 minutes the next day, why is that? Why 
are things changing constantly?
    If we can work together to provide that predictability, we 
will be much better off. One thing we have been discussing with 
TSA is the ability of travelers if TSA would be willing to 
provide the information to check from an offsite location as to 
the length of wait times at various airports so they can know 
before they depart for the airport.
    That is one example, I think, would help business travelers 
in particular.
    Mr. Davis. Thank you.
    Also in your testimony, you referenced that TSA restarted 
the Aviation Security Advisory Committee and has increased its 
interaction with the private sector.
    I know that Mr. Thompson, our Ranking Member Thompson, has 
legislation H.R. 1447 which would codify the Aviation Security 
Advisory Committee. Do you support that kind of approach or Mr. 
Thompson's legislation?
    Mr. Freeman. The Aviation Security Advisory Council is 
critical. Sam's Blue-Ribbon Panel recommended putting that into 
full gear. I need to look at Mr. Thompson's bill. I am not 
familiar with it, but we absolutely support councils like that 
to ensure that TSA can get the outside council that it needs.
    Mr. Davis. In your testimony, you also state that TSA's 
PreCheck program is an essential first step to creating a more 
efficient and secure screening process.
    What would you recommend that the next step be in an effort 
to expand that activity?
    Mr. Freeman. Well, I think two important next steps.
    One is working with outside entities who can help direct 
more travelers to that so that Global Entry is not the only 
model for coming into the program, as well as working to create 
some interoperability with the airlines.
    One of the biggest shortcomings today is that if you have 
100,000 miles with one airline and you fly on that airline, you 
may be in PreCheck. The next day you fly with a different 
airline, you are the same person, you are the same security 
threat, and yet you have a different experience.
    We have got to address that issue.
    Mr. Davis. Thank you very much.
    Mr. Gilliland, let me ask you, the Blue-Ribbon Panel's 
report states that TSA should develop a comprehensive 
technology procurement strategy.
    How many years would you suggest the strategy cover, and do 
we ensure TSA retains the flexibility to adapt to new threats 
that may have not been envisioned at the time the strategy was 
developed?
    Mr. Gilliland. Well, first of all, if I were to apply 
private-sector approaches to a forward-looking view on 
technology planning, I would say 3 to 5 years would be a good 
time horizon to think about in terms of a technology plan.
    I think, though, going along with that, it is going to be 
really important for this subcommittee to provide a multi-year 
authorization for that type of plan.
    Sir, I am sorry, the second part of your question?
    Mr. Davis. The second part would be--let us see, what did I 
ask here? The second part was what kind of flexibilities, I 
guess, would one project the need for over that period of time?
    Mr. Gilliland. Well I think, and again, this comes back to 
the challenge of the budget process around here. But often you 
can plan in the private sector to purchase something a year out 
and your plan won't change.
    In the budgetary process here, you are often forecasting 
out several years. By the time you get there to implement the 
technology has passed you by and you need to procure new--so I 
think the flexibility that is needed is both an ability to 
purchase soon after the decisions are made and also than to 
have a budgeting process that allows you think forward a couple 
of years and purchase at the time of need as opposed to having 
to forecast so far out that the technology has become obsolete 
by that time.
    Mr. Davis. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the gentleman from New York, 
Mr. Turner, for any questions he may have.
    Mr. Turner. Thank you, Mr. Chairman.
    A question for Dr. Carafano--you mentioned the 
international studies and comparisons with some of the European 
operations in airports. Could you elaborate a little bit on 
what has been learned that is positive that could translate 
here?
    Mr. Carafano. Well, I think if you look at the European 
experience--with the last data I looked at from the Reason 
Institute was about--I think they said 48 percent of European 
countries either use contractor airport security--Government 
security--their compliance with ICAO--their safety records have 
been comparable with the United States.
    That raises----
    Mr. Turner. Cost?
    Mr. Carafano. I am not sure on the European costs. The most 
interesting data I have seen on cost comparisons was the work 
that the House Transportation Committee did in 2011 where they 
looked at LAX, which is a completely TSA airport, vis-a-vis San 
Francisco, which was in the screening partnership program--San 
Francisco had lower costs and equal efficiency; and actually 
some cases better efficiency, but equal levels of security.
    The question of Government versus private screeners in 
terms of the level of security they provide--I think the answer 
is, with the appropriate oversight and requirements on them, 
they can provide equal security. Then the question of cost 
efficiency gets a little more complicated as to the size of the 
airport, how it is structured and everything.
    But clearly we have seen there is potential for airports 
with private security screening to deliver equal services at 
lower cost.
    Mr. Turner. Sure, all right, thank you.
    Mr. Freeman, I can only agree with you, as a frequent flyer 
and roughly 2.5 million miles as well over many years. If I can 
avoid flying, I do.
    Just the operations at the airport are--it is off-putting 
and some days it is belts-on. Some days it is belts-off, shoes-
off, don't quite know why. Just the last time I flew, I had my 
Congressional identity challenged--``No, we can't use that. We 
can only use State driver's license.'' I said, ``Really?''
    But, I let that one go because by the time you get a 
supervisor over, just--I can drive in 5 hours down here as 
opposed to getting to the airport an hour early and going 
through that hassle and waiting on the tarmac another 40 
minutes on. What you say is very true.
    I have a dozen friends who now drive from New York to 
Myrtle Beach. They have had it with the airport process. They 
will take a day-and-a-half drive rather than two airline trips.
    So I am sure it is affecting the commerce and the business 
of airline travel, and it is not positive.
    Now I don't think this is that difficult to find who the 
frequent travelers are, identify them and move them through. I 
think that can be a very big and broad list. But if you have 
anything to add, I would like to hear it.
    Mr. Freeman. I am sorry your experience mimics that of so 
many others. We can do better. I think that is the essence of 
what the Blue-Ribbon Panel chaired by Sam, Tom Ridge, former 
Congressman Jim Turner, everyone looking at this issue is 
saying we can do better.
    Security is absolutely job No. 1. As Americans, let us find 
a way to achieve that security with world-class efficiency, 
with a world-class customer service and letting people know 
that we want to help you move around this country. That is the 
challenge we face, and we can do it.
    Mr. Turner. Thank you.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    You all are probably aware that this committee has held a 
series of hearings on procurement and acquisition and the 
problems that alluded to Dr. Carafano's opening statement as 
being accurate, but it is accurate across the whole Department. 
This has been real frustrating to me.
    Mr. Gilliland, has TSA requested the assistance of the 
private sector, to your knowledge, to help in establishing a 
truly risk-based screening process at checkpoints?
    Mr. Gilliland. Well, I think the ASAC is an example of the 
type of collaboration that can occur if we bring public and 
private sector together. So I think there is certainly that 
collaboration.
    I think the other collaboration that has occurred here more 
recently is less related to technology and more related to 
communications and process.
    Certainly, there has been a lot of collaboration around: 
How do we get the word out about Global Entry? How do we get 
more people signed up? How do we get more people into TSA 
PreCheck and help them understand? Can you be helpful if it 
relates--can private sector be helpful as it relates to 
technology on our website--and the clarity of that information, 
the flow of the website so that we can be a lot more helpful to 
travelers with the information they would really like to get 
out to them?
    Mr. Rogers. You heard Mr. Freeman talk about being 
qualified for Global Entry and being denied for PreCheck and 
made the reference to the fact that, just like I am, I am 
PreCheck for Delta, but US Air, I am not, which is----
    Mr. Gilliland. Yes.
    Mr. Rogers. Do you have an opinion as to whether or not the 
technology exists and whether it would be prohibitively 
difficult or expensive to put in a central database of people 
who are qualified for PreCheck or Global Entry or whatever so 
that each airline would be able to ping off that database 
somebody that has bought a ticket?
    Mr. Gilliland. Certainly, from a technology perspective, it 
is doable. I think, from a policy perspective and just as you 
think about the passengers themselves and their willingness to 
opt in, which I think many would be happy to opt in, to provide 
their information and data more freely.
    I think it is clearly possible, from a tech perspective. 
There are probably some processes and maybe even some policy 
that you need to apply to it though as well.
    Mr. Rogers. I am interested--do you all have any thoughts 
on that point? Since you brought it up, Mr. Freeman, the Global 
Entry thing I think, is just amazing--that after having that 
done you can't qualify for PreCheck.
    Tell me more about the general--I don't know your 
particulars, but why you think that happens?
    Mr. Freeman. My understanding is, in talking with TSA, that 
it deals with different entry codes in the various airline 
systems as well as TSA's systems whether your middle initial is 
entered in one system and your full middle name in another.
    These systems are having difficulty talking to one another. 
That certainly needs to get addressed. It can be done, as Sam 
said, from a technology standpoint. We just have to place 
greater emphasis on it.
    Mr. Rogers. Dr. Carafano, what would you suggest we do to 
try to enhance or facilitate more public-private conversation 
between the Department and the private sector?
    Mr. Carafano. That is a great question. I think it is all 
an interesting kind of academic debate. We don't get to the 
fundamental problem, which is the Department, overall, lacks an 
organized, coherent acquisition process and we need that. 
Without that everything else around is just kind of window 
dressing.
    There are some great initiatives. For example, the Homeland 
Security Policy Institute runs a program for DHS on technology 
review where they bring in stakeholders and they say, ``Hey, 
here is the technology, what do you guys think?''
    They get a variety of stakeholders from industry and 
private sector and they comment on it. The idea is to 
understand how the public and how customers would react to this 
technology if the Department rolled it out or if they tried to, 
you know, hand it over to industry.
    It is a great initiative, but it is a great initiative 
absent the context of a structured acquisition program for the 
Department.
    Mr. Rogers. Frustrating. Thank you very much.
    The Chairman recognizes the Ranking Member for any 
additional questions she may have.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much.
    I want to make sure that the panelists know how much I 
appreciate the insight is crucial. It is good for us to have a 
give-and-take. I want Mr. Turner to be able to not have to 
drive 5 hours and do other things.
    I, most of all, want to make sure that TSO officers 
understand what a Government ID is and that a Congressional ID 
is a Government-issued ID and it should not be question not 
because we are Members of Congress, but because it is a 
Government ID.
    So I hope that those who are in the sound of my voice can 
hear that, Mr. Chairman, because that is an embarrassment.
    But I do want Mr. Freeman, who I want to welcome in 
particular, to at least give me the moment that a lot of other 
things impact traveling such as--a $150 travel fee, baggage 
fees, waiting on tarmacs, canceled flights are part of it. But 
I think we can come together and I want to just raise this 
question with you which I think is important.
    The U.S. Travel Association's Blue-Ribbon Panel Report 
recommends that Congress act immediately to clear up confusion 
over ownership of commercial aviation security and authorize 
TSA to control the entire security checkpoint starting at the 
beginning of the security lines and ending as the traveler 
exits the screening area.
    I would almost make the argument about the area right 
outside the airplane and the place of entry onto the plane. 
But, in any event, would implementation of this recommendation 
enhance both efficiency and security and, also, do what I think 
you said is the integration of the PreCheck and the Global 
Entry and to expedite that processing even if we have moved to 
the point where we have it integrated? I think it would be 
important to integrate that system to make it one so that you 
could do that in a more expeditious way.
    Let me just finish by saying you also recommend the 
Department of Transportation issue regulations requiring 
airlines to allow passengers one checked bag as part of their 
base airfare.
    So why don't I let you answer that with the focus being how 
TSA, by getting more control over areas, put on the onus and 
burden of them being efficient.
    I do want to acknowledge Mr. Richmond and Mr. Davis' 
presence here for the record, even though Mr. Davis has already 
spoken.
    I yield to you.
    Mr. Freeman. I appreciate that. Let me take those questions 
in reverse order. The panel did look at the issue of increased 
bags coming through the security checkpoint.
    According to Secretary Napolitano, they have picked up--DHS 
has--in excess of $300 million in new costs since the 
implementation of baggage fees and the increased bags coming 
through the security checkpoint.
    Administrator Pistole has told folks in the industry, they 
have seen a 50 percent increase in bags coming through the TSA 
checkpoint. We think that is an issue that needs to be 
investigated, that, absolutely, it would play a significant 
role in the inefficiency of that process and it is something 
that needs to be explored, No. 1.
    With regard to Global Entry integration, we completely 
agree. Global Entry is a good model for what PreCheck can look 
like. It includes a background check. It includes a personal 
interview. It includes a lot of the things that speak to risk 
management. So we agree on the integration.
    On your last point regarding the whole checkpoint, I think 
one thing that many people are unfamiliar with is that the 
airlines control the security checkpoint up until you reach the 
Travel Document Checker.
    Ms. Jackson Lee. Right.
    Mr. Freeman. So that whole line process is controlled by 
the airlines, and we understand why they see value in that. 
Certain travelers get a different, perhaps better experience, 
than other travelers.
    It would be our opinion that the security checkpoint is 
about security and the way to get a better security experience 
is to provide more information about yourself. The more 
information you provide, the more information that speaks to 
security--the better experience you get based less on your 
frequency of flying or how much money you have paid someone and 
much more on the security information you have provided.
    Having control of that entire checkpoint will increase 
efficiency and will get us to a system that is more risk-based 
than dollar-based.
    Ms. Jackson Lee. There lies a very conspicuous place of 
agreement and a place where we can include and engage the U.S. 
Travel Association and airlines, which, Mr. Chairman, I think 
are very important to come into this discussion because Mr. 
Freeman is right.
    If you look at the lines, you will see a slow process, long 
lines based upon ticket structure. But, more importantly, you 
will see, as a frequent traveler--and you are I know--the huge 
numbers of bags that individuals--I am amazed at how many bags 
they can pack under their arm or on their backpack or in 
between their shoulders, et cetera, in order to avoid what is 
expensive baggage fees.
    I am not criticizing travelers at all, but we have got to 
find a common ground because I believe that America has been 
made secure because we have had a process in place. Now, we 
have to refine and define and make better the process.
    So let me thank you. That is the only question I wanted to 
follow-up with is about the control of the security area and 
how we can expedite and make better security and expedite 
travelers. Thank you very much for our testimony.
    Mr. Freeman. Thank you.
    Mr. Rogers. I thank the gentlelady.
    That concludes our question period. We do have one brief 
statement that the gentleman from California wanted to make.
    Mr. Lungren. I just wanted to say, Mr. Chairman, I join my 
colleagues in wondering why the identification card for Members 
of Congress, which is a Government-issued document, which has a 
picture on it, is not accepted.
    It certainly seems to me that has a higher level of 
security than a driver's license. Twice at Los Angeles Airport, 
I have been told by the person ``Well, I don't recognize that. 
That is not one of the usual ones and if you wait here for 5 or 
10 minutes, we can get the supervisor to come.''
    If the purpose is security, the manner in which it is used 
just goes upside-down. So maybe they will hear today from this 
hearing.
    Mr. Rogers. Yes, that is demonstrative of a larger problem.
    Thank all of you all for your very thoughtful comments and 
answers to our questions. It has been very helpful and I 
appreciate it.
    With that, this panel is dismissed, and we will call up the 
second panel.
    The Chairman now recognizes the second panel.
    We are pleased to have two additional witnesses for us 
today on this important topic--both of them very familiar 
figures when it comes to this subcommittee.
    Let me remind the witnesses their entire written statements 
will appear in the record.
    Our first witness, Mr. John Halinski, currently serves as 
deputy administrator for TSA.
    The Chairman now recognizes Mr. Halinski for 5 minutes.

     STATEMENT OF JOHN W. HALINSKI, DEPUTY ADMINISTRATOR, 
TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Halinski. Chairman Rogers, Ranking Member Jackson Lee, 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear before you today.
    None of us needs to be reminded of the significance of this 
day. Few dates in our history carry the weight associated with 
the numbers 9/11. Like today, September 11, 2001 was a Tuesday. 
The attacks occurred from 8:46 to 10:03. When it was over, 
2,977 people had been killed, and more than 3,000 children lost 
a parent.
    As the wreckage of the World Trade Center smoldered, the 
United States Congress passed ATSA, the Aviation and 
Transportation Security Act, authorizing the creation of the 
Transportation Security Administration.
    We were built to strengthen the security of the Nation's 
transportation systems while ensuring the freedom of movement 
for people in commerce. We were built to coordinate and 
collaborate security efforts with the public and private-sector 
stakeholders across all modes of transportation. We were built 
to ensure that no other date is ever as deeply and permanently 
scarred as this one.
    Everywhere we work, our actions are guided by the promise 
that we will never forget. Every year, more than 9 billion 
passengers use mass transit, while another 750 million people 
travel on over-the-road buses. Additionally, nearly 800,000 
shipments of hazardous material are transported every day, 95 
percent of them by truck. Transportation security officers 
perform security screening for approximately 640 million 
passengers each year.
    Our commitment to never forget the significance of this day 
includes an understanding that commercial aviation continues to 
be a priority target for terrorists who continue developing and 
adapting threats against the global aviation system. This is 
why intelligence is a key driver for all we do.
    Continuing our efforts to strengthen global aviation this 
week, TSA administrator John Pistole will meet with leaders 
from around the world. This high-level conference, which is a 
culmination of 2 years' worth of work on aviation security, is 
sponsored by the international civil aviation organization and 
will address key aviation security principles. Agenda items 
vary from risk-based security, to cargo, to combating the 
insider threat.
    As you know, we are taking a number of steps to achieve our 
primary goal of providing the most effective security in the 
most efficient way for passengers as well. These include 
modified screening procedures for passengers 12 and younger and 
75 and older, the launch of TSA PreCheck, the Known Crewmember 
program, and the expedited screening for members of the U.S. 
armed forces.
    The success of these risk-based security initiatives depend 
upon our most valuable resource, our people. Maintaining and 
enhancing the capabilities of our employees through training is 
a priority. The nature of our work and advances in technology 
require our work force to adapt and develop new specialized 
skills as threats evolve.
    It is not enough to train and engage our work force. We 
must hold everyone accountable in the success for our mission, 
and remove people who do not meet the high standards of 
integrity that our mission requires.
    To honor our commitment to never forget, we must also 
engage our work force, shaping them for success and driving 
efficiencies across the organization, so that all who travel 
can do so securely, as exemplified by recent TSA support to the 
Olympics and the conventions in Tampa and Charlotte.
    Eleven years ago, we--all Americans--stood united to defeat 
a diabolical threat that attacked our Nation. TSA was born from 
this tragedy, and lives this event every day. We do this with 
honor, integrity, and professionalism. Our mission appears 
simple to many, but its complexity and variety makes it a 
difficult task for anyone to accomplish.
    As the memories of 9/11 slip by for many, we at TSA cannot 
afford to forget what our job is. We cannot be distracted by 
critics and others who forget we face a threat, that just this 
spring rose again and attempted to attack our transportation 
system.
    We will never forget and not let it happen on our watch. I 
am proud of our employees who come to work each day and every 
day to serve and protect the traveling public.
    I appreciate the opportunity to be here with you on this 
important anniversary. I look forward to answering your 
questions. Thank you very much.
    [The prepared statement of Mr. Halinski follows:]
                 Prepared Statement of John W. Halinski
                           September 11, 2012
    Chairman Rogers, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, thank you for the opportunity to appear 
before you today on the anniversary of the September 11 terrorist 
attacks against our Nation.
    The Transportation Security Administration (TSA) was created in the 
wake of 
9/11 to strengthen the security of the Nation's transportation systems 
while ensuring the freedom of movement for people and commerce. TSA 
functions as a critical component of our Nation's counterterrorism 
efforts with a highly dedicated workforce working around the clock and 
across the globe to execute our transportation security 
responsibilities. Every day we work closely with public and private-
sector stakeholders in the aviation, rail, mass transit, highway, and 
pipeline sectors to employ an intelligence-driven, risk-based security 
approach across all modes of transportation.
    The vast nature of the Nation's transportation systems as well as 
its impact on our Nation's economy requires that our personnel 
continually adjust and adapt security practices and procedures to best 
address evolving threats and vulnerabilities. Every year, passengers 
make more than 9 billion mass transit trips while over 750 million 
over-the-road bus trips are completed. Additionally, nearly 800,000 
shipments of hazardous materials are transported every day, of which 95 
percent are shipped by truck. Within the commercial aviation 
environment, Transportation Security Officers (TSOs) perform security 
approximately 640 million passenger screenings each year. This volume 
is roughly equivalent to screening every person residing in the United 
States, Mexico, Germany, France, the United Kingdom, and Italy.
    TSA's security measures create a multi-layered system of 
transportation security that mitigates risk. We continue to evolve our 
security approach by examining the procedures and technologies we use, 
how specific security procedures are carried out, and how screening is 
conducted. As we carry out our mission, TSA is focused on providing the 
most effective transportation security in the most efficient way 
possible.
                   maintain focus on global strategy
    We are committed to maintaining our focus on global strategies in 
order to mitigate the likelihood of a successful attack that originates 
from beyond our borders. To accomplish our mission, TSA has a globally-
deployed outreach and engagement workforce comprising TSA 
representatives (TSAR) who coordinate closely with foreign government 
counterparts and international industry representatives who serve as 
the direct liaison to regulated foreign airlines. Also, TSA has a cadre 
of aviation security instructors who focus on capacity development and 
provide formal training to international counterparts when capacity 
development and training are deemed a viable solution for 
vulnerabilities. Through these interactions, TSA is able to synchronize 
our approach with the entities affected by our security decisions while 
promoting both international security and commerce.
    We believe that good, thoughtful, sensible security by its very 
nature facilitates lawful travel and legitimate commerce. Tomorrow, DHS 
Secretary Janet Napolitano and TSA Administrator John Pistole will meet 
with leaders from around the world at a High-Level Conference on 
Aviation Security of the International Civil Aviation Organization 
(ICAO) to address, among other things, key principles of air cargo and 
mail security developed by an ICAO working group in May of this year. 
These principles recognize that strong, sustainable, and resilient air 
cargo security is essential and recommend the adoption of the total 
supply chain approach to security that has already been incorporated by 
the United States to secure domestic cargo. The principles also 
emphasize the importance of oversight, quality control, and 
international cooperation and coordination of security measures for the 
global air cargo supply chain.
    TSA has worked closely with its international and private-sector 
partners to increase the security of air cargo without restricting the 
movement of goods and products. By December 3, 2012, TSA will require 
100 percent physical screening of all air cargo transported on 
passenger aircraft bound for the United States. This important step not 
only builds on the current practice of 100 percent screening of 
identified high-risk international cargo, but also adds TSA's risk-
based, intelligence-driven procedures into the prescreening process by 
determining appropriate screening protocols on a per-shipment basis. 
This process requires enhanced screening for any shipment designated as 
higher-risk based on a review of information about the shipper and the 
shipment itself, which must undergo the most stringent screening 
protocols prior to transport on both passenger and all-cargo aircraft 
bound for the United States. In addition, TSA continues to pursue 
bilateral efforts with appropriate foreign government partners through 
its National Cargo Security Program (NCSP) recognition program. Under 
this program, an air carrier can choose to implement the security 
program of the country from which it is operating once TSA has 
determined that such programs provide a level of security commensurate 
with current U.S. air cargo security requirements.
           risk-based security improves mission effectiveness
    Risk-based screening strengthens security while significantly 
enhancing the travel experience for passengers whenever possible. By 
learning more about travelers through information they voluntarily 
provide, and combining that information with our other layers of 
security, DHS can focus more resources on higher-risk and unknown 
passengers. DHS will continue to incorporate random security steps as 
well as other measures both seen and unseen in order to maintain the 
safest and most efficient system possible for the traveling public. 
Since the fall of 2011, TSA has offered modified screening procedures 
to a variety of low-risk populations including passengers 12 and 
younger and 75 and older.
    In October 2011, TSA launched the TSA PreCheck<SUP>TM</SUP> program 
to build on our intelligence-driven, risk-based initiatives helping TSA 
move away from a one-size-fits-all model and closer to its goal of 
providing the most effective security in the most efficient way. To 
date, more than 2 million passengers have experienced TSA 
PreCheck<SUP>TM</SUP>. TSA PreCheck<SUP>TM</SUP> is now available in 23 
airports for Alaska Airlines, American Airlines, Delta Air Lines, 
United Airlines, and US Airways frequent flyers. A total of 35 airports 
are scheduled to be on-line by the end of this year. As participating 
airlines and airports become operationally ready, TSA will announce the 
implementation of TSA PreCheck<SUP>TM</SUP> at additional locations.
    TSA PreCheck<SUP>TM</SUP> enables TSA to focus our efforts on the 
passengers we know little about and high-risk passengers, while 
providing expedited screening and a better experience for those 
travelers TSA knows the most about. Airports with TSA 
PreCheck<SUP>TM</SUP> provide expedited screening to U.S. citizens 
flying domestically, who are members of existing U.S. Custom and Border 
Protection (CBP) Trusted Traveler programs (Global Entry, NEXUS, and 
SENTRI), or eligible airline frequent flyers who have opted in.
    TSA continues to take steps to further enhance our layered approach 
to security through state-of-the-art technologies, better passenger 
identification techniques, and other developments that strengthen our 
capabilities to keep terrorists off commercial aircraft. However, TSA 
will always incorporate random and unpredictable security measures 
throughout the airport and no individual will be guaranteed expedited 
or modified screening. Airport security checkpoints are only one part 
of a multi-layered system for aviation security. Other parts, both seen 
and unseen by the public, include analysis of intelligence, explosives 
detection, canine teams, Federal Air Marshals, and closed-circuit 
television monitoring. With the tools that exist today, if we can 
confirm a person's identity and learn more about them through 
information they voluntarily provide, and combine that information with 
our other layers of security, we can expedite the physical screening 
for many people.
    As part of the continued expansion of RBS initiatives, TSA will 
include flight attendants from U.S.-based airlines and traveling from 
U.S. airports into the Known Crew Member (KCM) program that already 
includes pilots. KCM provides positive identity verification of the 
airline crewmember, enabling expedited screening. TSA anticipates that 
it may take 6 to 12 months for the air carriers and their service 
providers to make the necessary system modifications to incorporate 
flight attendants into the expedited screening process already in place 
for U.S. airline pilots and fully develop, test, and implement the 
program. As of August 2012, KCM has been deployed at 18 airports, with 
13 additional sites scheduled to come on-line by the end of the 
calendar year.
    TSA also recognizes that members of the U.S. Armed Forces, who are 
trusted to protect the security and values of America with their lives, 
pose a lower risk to aviation security. In fact, TSA is proud to count 
many uniformed service members among our employees. At airport 
checkpoints Nation-wide, U.S. service personnel in uniform with proper 
identification, whether traveling on official orders or not, are not 
required to remove their shoes or boots unless they alarm our 
technology. Other screening courtesies that we extend to U.S. military 
personnel traveling in uniform significantly reduce the likelihood that 
they will receive a pat-down or other additional screening. In 
addition, family members may obtain gate passes to accompany departing 
troops or meet their loved ones when they come home. TSA also expedites 
screening for honor flight veterans, and partners with the Department 
of Defense to expedite screening of wounded warriors. Additionally, as 
part of our intelligence-driven, risk-based approach to security, TSA 
now offers TSA PreCheck<SUP>TM</SUP> expedited screening benefits to 
active-duty service members at Ronald Reagan Washington National 
Airport and Seattle-Tacoma International Airport as part of an initial 
proof of concept.
                    workforce engagement initiatives
    The success of RBS and initiatives like TSA PreCheck<SUP>TM</SUP> 
depend upon people. A dedicated TSA workforce assures the traveling 
public that they are protected by a multi-layered system of 
transportation security that mitigates risk. An effective workforce 
must be properly trained. We are currently engaged in a transformation 
of TSA that is designed to increase efficiencies and more prudently 
allocate resources. An important part of this effort is the creation of 
the Office of Training and Workforce Engagement (OTWE), which 
centralizes technical and leadership training, as well as workforce 
engagement programs that were previously dispersed throughout TSA. 
Maintaining and enhancing the capabilities of our employees, and 
particularly our TSOs, is a priority. Both the nature of our work and 
advances in technology have required our workforce to adapt and develop 
new, specialized skills as threats continue to evolve. As part of this 
strategic alignment, OTWE developed and implemented a new TSA training 
program at the Federal Law Enforcement Training Center (FLETC) in 
Glynco, GA in April 2012.
    In addition to technical training, on-going programs support the 
professional development of TSOs to continually improve their overall 
effectiveness and efficiency. For example, since last summer TSA has 
been delivering a tactical communications course for all managers, 
supervisors, and TSOs. The course, which expands upon the concepts and 
principles introduced during earlier engagement training, teaches 
officers how to effectively interact with passengers and co-workers. 
The course is designed to prepare TSOs for all types of human 
interactions by giving them tools and techniques to de-escalate 
difficult situations. At the checkpoint, these skills enable TSOs to 
more effectively complete the screening process.
    We are also expanding supervisory training as we implement the 
Department of Homeland Security Cornerstone program, a unified approach 
to the development of essential skills for new and seasoned TSA 
supervisors. This program includes instructor-led classroom training, 
mentoring, and on-going development opportunities. Over the next 18 
months all of our Supervisory Transportation Security Officers (STSO) 
will complete a course on the essentials of supervising screening 
operations. This training will build upon the basic leadership and 
technical skills of front-line supervisors, including effective 
communications, coaching, mentoring, and problem solving, and will 
enhance technical skills needed for effectively implementing security 
procedures. One of the key course objectives is to encourage STSOs to 
take ownership of their role in facilitating and contributing to the 
development of a responsible and professional workforce by establishing 
a high standard for performance, accountability, and integrity that 
their team members will strive to emulate.
    Workforce development is further enhanced by the TSA Associates 
Program, which continues to provide TSA's front-line workforce the 
opportunity to receive a TSA Certificate of Achievement in Homeland 
Security upon the completion of three core courses offered at community 
colleges across the country. More than 2,500 officers have enrolled 
since the program's inception. Today, the program is represented by 
employees in all 50 States with more than 70 airports and 60 community 
colleges participating in the program. TSA has also implemented 
employee development initiatives like the Leaders at Every Level (LEL), 
through which TSA identifies high-performing employees and fosters 
commitments to excellence and teamwork. The implementation of a new 
four-tier performance management program for non-TSOs enables the 
workforce to actively engage in developing their annual performance 
goals in collaboration with their supervisors, while promoting two-way 
communication between employees and their supervisors throughout the 
performance year. Providing a mechanism to proactively identify 
opportunities to improve their performance has increased employee 
morale.
    It is not enough to train and engage our workforce--we must hold 
everyone accountable in the success of our mission. Administrator 
Pistole, shortly after coming to TSA, established the Office of 
Professional Responsibility (OPR) to ensure that allegations of 
misconduct are thoroughly investigated and that discipline is 
appropriate and fair across the agency. OPR ensures that our workforce 
is treated fairly by removing people that do not meet the high 
standards of integrity that our mission requires.
             efficiencies improve organization, management
    Over the past year, TSA has announced several enhancements to its 
headquarters functions to improve the agency's overall security 
posture. For example, to support a more effective means of vetting 
functions with the operational use of intelligence information, we 
merged the Office of Intelligence with Secure Flight and the Office of 
Transportation Threat Assessment and Credentialing. This change allows 
TSA to more effectively identify potential threats posed by airline 
passengers and transportation workers across all vetted populations.
    Restructuring efforts have allowed TSA to gain efficiencies with 
many support functions including training and information technology 
(IT) management. For example, as discussed above, we have placed all 
security training programs under a single Assistant Administrator, 
which eliminated multiple levels of supervision in several offices and 
reduced processing times and redundant review functions. In addition, 
by combining IT management activities under a single functional area, 
TSA has ensured IT strategies are in accordance with the consolidated 
DHS IT architecture.
    In addition, combining the technology deployment and integration 
groups under the Office of Security Capabilities has improved 
coordination and deployment of new equipment while eliminating 
redundant management structures. These changes have enabled TSA to 
better address recommendations for improvements provided by Congress, 
the Government Accountability Office, the DHS Inspector General, and 
our own workforce.
    Finally, to improve field coordination, TSA has reduced the number 
of field regions within the Office of Security Operations (OSO) from 12 
to 6 and has developed a scorecard to evaluate operational 
effectiveness and efficiency at the National, regional, and local 
levels. OSO has further enhanced its ability to measure effectiveness 
by formalizing its Presence, Advisements, Communication, and Execution 
(PACE) program, which tracks performance metrics. The PACE program 
establishes and measures the level of standardization that exists 
across airports in areas not traditionally set or measured by other 
programs. This includes such things as evaluating to what extent TSOs 
exhibit command presence and how effective their interaction is with 
passengers, as well as adherence to other Management Directives and 
Standard Operating Procedures.
                               conclusion
    Our Nation's transportation systems continue to face evolving 
threats. To achieve its mission, TSA will continue to effectively 
implement an intelligence-driven and risk-based security system across 
all transportation modes while increasing the level of engagement with 
our workforce to shape them for success and drive operational and 
management efficiencies across the organization. TSA strives to achieve 
these goals as it continues to protect the Nation's transportation 
systems to ensure freedom of movement for people and commerce. We 
appreciate your continued support as we strive to ensure that our 
workforce is well-prepared and given the proper tools to meet the 
challenges of securing our aviation transportation system. Thank you, 
Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
subcommittee, for the opportunity to appear before you today. I look 
forward to answering your questions.

    Mr. Rogers. Thank you, Mr. Halinski, for your testimony. We 
appreciate your many years of service, in the military and now 
with the Department.
    Our second witness is Mr. Steve Lord--currently serves as 
director of Homeland Security and Justice Issues for Government 
Accountability Office.
    The Chairman now recognizes Mr. Lord.
    Welcome back.

 STATEMENT OF STEPHEN M. LORD, DIRECTOR, HOMELAND SECURITY AND 
        JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Thank you, Chairman Rogers, Ranking Member 
Jackson Lee, other Members of the committee. I am truly honored 
to be here today to testify on the anniversary of the 9/11 
attacks.
    These attacks underscore the importance of implementing 
effective screening systems, not only for airline passengers, 
but air cargo, and checked baggage, as well as preventing 
foreign nationals coming to this country to take flight school 
training.
    I would first like to note that DHS and TSA have made some 
notable achievements and deserve to be commended for enhancing 
security since these attacks. At the same time, as our reports 
have demonstrated, they faced a number of challenges along the 
way.
    Today, just to give you a flavor for some of the progress 
and challenges, I would like to briefly highlight three key TSA 
programs of which we have reported on.
    The first is its behavior detection program called SPOT, 
its program for screening air cargo, and its program for 
screening foreign nationals coming to this country to take 
flight school training.
    First, regarding TSA's behavior-detection program--we have 
done a lot of work in this area, and we have highlighted the 
fact that DHS and TSA need to take additional actions to ensure 
the science underpinning this program has been validated by 
outside experts.
    The good news is DHS did complete a validation study in 
April 2011, but the report itself raised a number of issues 
that remain to be addressed and our view is this additional 
research could take several more years to complete.
    Our 2010 report on the program also recommended that TSA 
standardize the process by which the behavior-detection 
officers deployed to across the Nation, standardize the process 
by which they collect and share information internally to help 
TSA connect the dots on potential terrorist activity. As you 
know, connecting the dots was one of the major failures of 9/
11.
    The good news, also, is we are conducting a follow-on 
review of this program. We have made several recommendations to 
strengthen the program, which TSA has agreed with, and we will 
be giving you a status update in the spring of next year.
    Regarding air cargo, again, the good news is TSA has taken 
some important actions to enhance the security of air cargo. 
Again, that is cargo that goes in the belly of the aircraft.
    They have tightened existing screening requirements. They 
have entered in a security regime, so--with other countries 
such as the European Union, Switzerland, and Canada. This 
alleviates air carriers of having to respond to different sets 
of security requirements.
    However, again, they face some challenges in this area that 
could hinder their efforts to fully meet the Congressional 
mandate to screen 100 percent of cargo on passenger aircraft. 
These challenges include logistical issues, as well as 
verifying the accuracy of screening data submitted by the 
carriers.
    It is important to note contextually, there is no 
equivalent reporting requirement for all cargo carriers that 
ship air cargo. This is important because they actually ship 
the highest percentage of the cargo coming into this country. 
Thus, TSA does not really know the extent to which these off-
cargo carriers are compliant with the new screening 
requirements implemented after the 2010 Yemen incident.
    Finally, regarding TSA's Alien Flight School program--I 
testified before this committee in July, highlighted a number 
of weaknesses in their vetting process. TSA and ICE agreed to 
move out smartly to implement our recommendations. Yet as of 
today, these recommendations are still open, these weaknesses 
still exist. I know there was some confusion at the last time I 
testified on this point.
    In closing, over a decade after the 9/11 attacks, DHS has 
implemented a broad range of programs in concert with TSA to 
help secure, not only the homeland, but the U.S. aviation 
system. However, as highlighted in our extensive reporting, 
more work needs to be done to strengthen these systems.
    I look forward to helping this committee do future 
oversight on these issues. I think we all share the common goal 
of ensuring these programs are risk-based, cost-effective, and 
best serve the traveling public.
    Mr. Chairman, this concludes my testimony. I look forward 
to your questions.
    [The prepared statement of Mr. Lord follows:]
                 Prepared Statement of Stephen M. Lord
                           September 11, 2012
                             gao highlights
    Highlights of GAO-12-1024T, a testimony before the Subcommittee on 
Transportation Security, Committee on Homeland Security, U.S. House of 
Representatives.
Why GAO Did This Study
    Securing commercial aviation operations remains a daunting task, 
with hundreds of airports, thousands of aircraft, and thousands of 
flights daily carrying millions of passengers and pieces of carry-on 
and checked baggage. The attempted terrorist bombing of Northwest 
flight 253 on December 25, 2009, and the October 2010 discovery of 
explosive devices in air cargo packages on an all-cargo aircraft bound 
for the United States from Yemen highlight the continuing need for 
effective passenger, cargo, and baggage screening. This statement 
discusses actions TSA has taken to: (1) Validate the scientific basis 
of its behavior-based passenger screening program (the Screening of 
Passengers by Observation Techniques, or SPOT); (2) strengthen the 
security of inbound air cargo (3) acquire checked baggage screening 
technology in accordance with established guidance; and (4) vet foreign 
nationals training at U.S. flight schools. This statement is based on 
GAO's work issued from September 2009 through July 2012, and includes 
selected updates on air cargo screening conducted from July through 
September 2012. For the selected updates, GAO interviewed TSA 
officials.
What GAO Recommends
    GAO is not making any new recommendations. GAO has previously 
recommended that TSA take actions to improve aviation security. In 
general, TSA concurred with the recommendations, and is taking actions 
to address them.
aviation security.--9/11 anniversary observations on tsa's progress and 
             challenges in strengthening aviation security
What GAO Found
    The Transportation Security Administration (TSA) has taken actions 
to validate the science underlying its behavior-based passenger 
screening program, the Screening of Passengers by Observation 
Techniques, or SPOT, program, but more work remains. GAO reported in 
May 2010 that: (1) TSA deployed SPOT before first determining whether 
there was a scientifically valid basis for using behavior and 
appearance indicators to reliably identify passengers who may pose a 
risk; and (2) it is unknown if the SPOT program has ever resulted in 
the arrest of anyone who is a terrorist, or who was planning to engage 
in terrorist-related activity, although there is other evidence that 
terrorists have transited through SPOT airports. GAO recommended in May 
2010 that the Department of Homeland Security (DHS) convene an 
independent panel of experts to review the methodology of the on-going 
validation study on the SPOT program to determine whether it is 
sufficiently comprehensive to validate the program. DHS concurred and 
subsequently revised its validation study to include an independent 
expert review. DHS's study, completed in April 2011, found that SPOT 
was more effective than random screening to varying degrees; however, 
DHS noted limitations to the study, such as that it was not designed to 
comprehensively validate whether SPOT can be used to reliably identify 
individuals who pose a security risk. GAO is currently reviewing the 
program and will issue our report next year.
    TSA has taken actions to enhance the security of cargo on in-bound 
aircraft, but challenges remain. For example, TSA issued new screening 
requirements aimed at enhancing the security of cargo on aircraft, such 
as prohibiting the transport of air cargo on passenger aircraft from 
Yemen. In June 2010, GAO recommended that TSA develop a mechanism to 
verify the accuracy of all screening data. TSA concurred in part and 
required air carriers to report inbound cargo screening data, but has 
not yet fully addressed the recommendation. In June 2012, TSA required 
air carriers to screen 100 percent of inbound air cargo transported on 
passenger aircraft by December 3, 2012. However, air carriers and TSA 
face challenges in implementing this requirement and in providing 
reasonable assurance that screening is being conducted at reported 
levels.
    DHS and TSA have experienced difficulties establishing acquisition 
program baselines, schedules, and cost estimates for the Electronic 
Baggage Screening Program (EBSP). For example, GAO reported in July 
2011 that TSA had established a schedule for the acquisition of the 
explosives detection systems (EDS) TSA deploys to screen checked 
baggage, but it did not fully comply with leading practices. GAO 
recommended that DHS develop and maintain a schedule for the EBSP in 
accordance with leading practices. DHS concurred.
    GAO reported in July 2012 that TSA has worked to enhance general 
aviation security, such as through issuing regulations, but there are 
weaknesses in its process for vetting foreign flight school student 
applicants, and in DHS's process for identifying flight school students 
who may be in the country illegally. For example, TSA's program to help 
determine whether flight school students pose a security threat does 
not determine whether they entered the country legally. GAO recommended 
actions that DHS and TSA could take to address these concerns, with 
which DHS and TSA have concurred, and are starting to take actions.
    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
subcommittee: I appreciate the opportunity to participate in today's 
hearing on the anniversary of the September 11, 2001, terrorist attacks 
to discuss our work examining key layers of aviation security: (1) The 
Transportation Security Administration's (TSA) behavior-based passenger 
screening program; (2) the security of air cargo on flights bound for 
the United States from foreign countries (known as inbound air cargo); 
(3) the deployment of checked baggage screening technology; and (4) the 
Federal Government's vetting process for individuals training at U.S. 
flight schools. This work may help inform future deliberations about 
any potential challenges and corrective actions regarding U.S. aviation 
security.
    In the years that have passed since TSA assumed responsibility for 
aviation security, TSA has spent billions of dollars and implemented a 
wide range of initiatives to strengthen aviation security. Our work has 
shown that TSA has enhanced aviation security with respect to 
passenger, checked baggage, and air cargo screening, among other areas. 
Securing commercial aviation operations, however, remains a daunting 
task--with hundreds of airports, thousands of aircraft, and thousands 
of flights daily carrying millions of passengers and their property, as 
well as cargo. The attempted terrorist bombing of Northwest flight 253 
on December 25, 2009, and the October 2010 discovery of explosive 
devices in air cargo packages on an all-cargo aircraft bound for the 
United States from Yemen provides a vivid reminder that civil aviation 
remains an attractive terrorist target and highlights the continuing 
need for effective passenger, cargo, and baggage screening. According 
to the President's National Counterterrorism Strategy, released in June 
2011, aviation security and screening is an essential tool in our 
ability to detect, disrupt, and defeat plots to attack the homeland.\1\
---------------------------------------------------------------------------
    \1\ National Strategy for Counterterrorism, (Washington, DC: June 
28, 2011).
---------------------------------------------------------------------------
    My statement today discusses actions TSA has taken to: (1) Validate 
the scientific basis of its behavior-based passenger screening program 
(known as the Screening of Passengers by Observation Techniques, or 
SPOT program), (2) strengthen the security and screening of inbound air 
cargo, (3) acquire checked baggage screening technology in accordance 
with established guidance, and (4) vet foreign nationals seeking to 
undertake flight training at U.S. flight schools,\2\ as well as the 
challenges associated with implementing these actions.
---------------------------------------------------------------------------
    \2\ Flight schools fall within the general aviation community, 
which also includes non-scheduled aircraft operations such as air 
medical-ambulance, corporate aviation, and privately-owned aircraft--
generally, aircraft not available to the general public for transport.
---------------------------------------------------------------------------
    This statement is based on our prior work issued from May 2010 
through July 2012, and includes selected updates conducted from July 
2012 through September 2012 on TSA's efforts to improve security of in-
bound air cargo.\3\ Our previously published products contain 
additional details on the scope and methodology, including data 
reliability, for these reviews. For the updated information on air 
cargo screening, we obtained TSA views on our findings and incorporated 
technical comments where appropriate. We conducted our work in 
accordance with generally accepted Government auditing standards.
---------------------------------------------------------------------------
    \3\ See GAO, Aviation Security: Efforts to Validate TSA's Passenger 
Screening Behavior Detection Program Underway, but Opportunities Exist 
to Strengthen Validation and Address Operational Challenges, GAO-10-763 
(Washington, DC: May 20, 2010); Aviation Security: TSA Has Deployed 
Optimal Systems at the Majority of TSA-Regulated Airports, but Could 
Strengthen Cost Estimates, GAO-12-266 (Washington, DC: Apr. 27, 2012); 
Aviation Security: Actions Needed to Address Challenges and Potential 
Vulnerabilities Related to Securing Inbound Air Cargo, GAO-12-632 
(Washington, DC: May 10, 2012); and General Aviation Security: 
Weaknesses Exist in TSA's Process for Ensuring Foreign Flight Students 
Do Not Pose a Security Threat, GAO-12-875 (Washington, DC: July 18, 
2012).
---------------------------------------------------------------------------
                               background
    The Aviation and Transportation Security Act established TSA as the 
Federal agency with primary responsibility for securing the Nation's 
civil aviation system, which includes the screening of all passenger 
and property transported by commercial passenger aircraft.\4\ At the 
more than 450 TSA-regulated airports in the United States, prior to 
boarding an aircraft, all passengers, their accessible property, and 
their checked baggage are screened pursuant to TSA-established 
procedures. TSA relies upon multiple layers of security to deter, 
detect, and disrupt persons posing a potential risk to aviation 
security. These layers include behavior detection officers (BDOs), who 
examine passenger behaviors and appearances to identify passengers who 
might pose a potential security risk at TSA-regulated airports;\5\ 
travel document checkers, who examine tickets, passports, and other 
forms of identification; transportation security officers (TSO), who 
are responsible for screening passengers and their carry-on baggage at 
passenger checkpoints using X-ray equipment, magnetometers, Advanced 
Imaging Technology, and other devices, as well as for screening checked 
baggage; random employee screening; and checked baggage screening 
systems.\6\ The Implementing Recommendations of 9/11 Commission Act of 
2007 further mandates that the Secretary of Homeland Security establish 
a system to screen 100 percent of cargo transported on passenger 
aircraft, and defines screening for purposes of meeting this mandate, 
in general, as a physical examination or the use of nonintrusive 
methods to assess whether cargo poses a threat to transportation 
security.\7\ Such cargo ranges in size from 1 pound to several tons and 
ranges in type from perishable commodities to machinery. In 2011, all-
cargo carriers transported approximately 66 percent (6.9 billion 
pounds) of the total cargo (10.4 billion pounds) transported to the 
United States.\8\ Additionally, TSA has responsibilities for general 
aviation security, and developed the Alien Flight Student Program 
(AFSP) to help determine whether foreign students enrolling at flight 
schools pose a security threat.\9\ U.S. Government threat assessments 
have discussed plans by terrorists to use general aviation aircraft to 
conduct attacks. Further, analysis conducted on behalf of TSA has 
indicated that larger general aviation aircraft may be able to cause 
significant damage to buildings and other structures.
---------------------------------------------------------------------------
    \4\ See Pub. L. No. 107-71, 115 Stat. 597 (2001). For purposes of 
this testimony, ``commercial passenger aircraft'' refers to U.S. or 
foreign-flagged air carriers operating under TSA-approved security 
programs with regularly scheduled passenger operations to or from a 
U.S. airport.
    \5\ TSA designed SPOT to provide BDOs with a means of identifying 
persons who may pose a potential security risk at TSA-regulated 
airports by focusing on behaviors and appearances that deviate from an 
established baseline and that may be indicative of stress, fear, or 
deception.
    \6\ Advanced Imaging Technology screens passengers for metallic and 
non-metallic threats including weapons, explosives, and other objects 
concealed under layers of clothing. At airports participating in TSA's 
Screening Partnership Program, screeners employed by private-sector 
entities under contract to and overseen by TSA, and not TSOs, perform 
the passenger and checked baggage screening function in accordance with 
TSA requirements. See 49 U.S.C.  44920.
    \7\ See 49 U.S.C.  44901(g).
    \8\ Based on 2011 TSA data.
    \9\ See 49 C.F.R. pt. 1552, subpt. A.
---------------------------------------------------------------------------
 tsa has taken actions to validate the science underlying its behavior 
                detection program, but more work remains
    We reported in May 2010 that TSA deployed SPOT Nation-wide before 
first determining whether there was a scientifically valid basis for 
using behavior and appearance indicators as a means for reliably 
identifying passengers who may pose a risk to the U.S. aviation 
system.\10\
---------------------------------------------------------------------------
    \10\ See GAO-10-763.
---------------------------------------------------------------------------
    According to TSA, SPOT was deployed before a scientific validation 
of the program was completed to help address potential threats to the 
aviation system, such as those posed by suicide bombers. TSA also 
stated that the program was based upon scientific research available at 
the time regarding human behaviors. We reported in May 2010 that 
approximately 14,000 passengers were referred to law enforcement 
officers under SPOT from May 2004 through August 2008.\11\ Of these 
passengers, 1,083 were arrested for various reasons, including being 
illegal aliens (39 percent), having outstanding warrants (19 percent), 
and possessing fraudulent documents (15 percent). The remaining 27 
percent were arrested for other reasons such as intoxication, unruly 
behavior, theft, domestic violence, and possession of prohibited items. 
As noted in our May 2010 report, SPOT officials told us that it is not 
known if the SPOT program has ever resulted in the arrest of anyone who 
is a terrorist, or who was planning to engage in terrorist-related 
activity. More recent TSA data covering the period from November 1, 
2010, to April 18, 2012, indicates that SPOT referred 60,717 passengers 
for additional screening, which resulted in 3,803 referrals to law 
enforcement officers and 353 arrests. Of these 353 arrests, 23 percent 
were related to immigration status, 23 percent were drug-related, 9 
percent were related to fraudulent documents, 22 percent were related 
to outstanding warrants, and 28 percent were for other offenses.\12\
---------------------------------------------------------------------------
    \11\ See GAO-10-763.
    \12\ These percents add to more than 100 percent (specifically, 105 
percent) because some of the passengers were arrested for multiple 
offenses.
---------------------------------------------------------------------------
    A 2008 report issued by the National Research Council of the 
National Academy of Sciences stated that the scientific evidence for 
behavioral monitoring is preliminary in nature.\13\ The report also 
noted that an information-based program, such as a behavior detection 
program, should first determine if a scientific foundation exists and 
use scientifically valid criteria to evaluate its effectiveness before 
deployment. The report added that such programs should have a sound 
experimental basis and that the documentation on the program's 
effectiveness should be reviewed by an independent entity capable of 
evaluating the supporting scientific evidence.\14\
---------------------------------------------------------------------------
    \13\ National Research Council, Protecting Individual Privacy in 
the Struggle Against Terrorists: A Framework for Assessment 
(Washington, DC: National Academies Press, 2008). We reviewed the 
approach used and the information provided in this study and found the 
study and its results to be reliable for the purposes for which we used 
it in this report.
    \14\ A study performed by the JASON Program Office raised similar 
concerns. The JASON Program Office is an independent scientific 
advisory group that provides consulting services to the U.S. Government 
on matters of defense science and technology.
---------------------------------------------------------------------------
    As we reported in May 2010, an independent panel of experts could 
help DHS determine if the SPOT program is based on valid scientific 
principles that can be effectively applied in an airport environment 
for counterterrorism purposes. Thus, we recommended that the Secretary 
of Homeland Security convene an independent panel of experts to review 
the methodology of DHS's Science and Technology Directorate's on-going 
validation study on the SPOT program being conducted to determine 
whether the study's methodology is sufficiently comprehensive to 
validate the SPOT program. We also recommended that this assessment 
include appropriate input from other Federal agencies with expertise in 
behavior detection and relevant subject matter experts.\15\ DHS 
concurred and stated that its validation study, completed in April 
2011, included input from a broad range of Federal agencies and 
relevant experts, including those from academia.\16\ DHS's validation 
study found that SPOT was more effective than random screening to 
varying degrees. For example, the study found that SPOT was more 
effective than random screening at identifying individuals who 
possessed fraudulent documents and identifying individuals who law 
enforcement officers ultimately arrested.\17\
---------------------------------------------------------------------------
    \15\ See GAO-10-763.
    \16\ See DHS, SPOT Referral Report Validation Study Final Report 
Volume I: Technical Report, (Washington, DC: Apr. 5, 2011). DHS's study 
was conducted to determine the extent to which SPOT was more effective 
than random screening at identifying security threats and how the 
program's behaviors correlate to identifying high-risk travelers. The 
study defines high-risk passengers as travelers that knowingly and 
intentionally try to defeat the security process including those 
carrying serious prohibited or illegal items, such as weapons, drugs, 
or fraudulent documents; or those that were ultimately arrested by law 
enforcement.
    \17\ The extent to which SPOT is more effective than random 
screening at identifying fraudulent documents and individuals 
ultimately arrested by law enforcement officers is deemed sensitive 
security information by TSA.
---------------------------------------------------------------------------
    According to DHS's study, no other counterterrorism or screening 
program incorporating behavior and appearance-based indicators is known 
to have been subjected to such a rigorous, systematic evaluation of its 
screening accuracy. However, DHS noted that the identification of high-
risk passengers was rare in both the SPOT and random tests. DHS's study 
also noted that the assessment was an initial validation step, and was 
not designed to fully validate whether behavior detection can be used 
to reliably identify individuals in an airport environment who pose a 
security risk. According to DHS, further research will be needed to 
comprehensively validate the program.
    In addition, DHS determined that the base rate, or frequency, of 
SPOT behavioral indicators observed by TSA to detect suspicious 
passengers was very low and that these observed indicators were highly 
varied across the traveling public. Although details about DHS's 
findings related to these indicators are sensitive security 
information, the low base rate and high variability of traveler 
behaviors highlights the challenge that TSA faces in effectively 
implementing a standardized list of SPOT behavioral indicators. In 
addition, DHS outlined several limitations to the study. For example, 
the study noted that BDOs were aware of whether individuals they were 
screening were selected as the result of identified SPOT indicators or 
random selection. DHS stated that this had the potential to introduce 
bias into the assessment. DHS also noted that SPOT data from January 
2006 through October 2010 were used in its analysis of behavioral 
indicators even though questions about the reliability of the data 
exist.\18\
---------------------------------------------------------------------------
    \18\ DHS officials stated that this historical SPOT data was not 
used in their analysis to determine whether SPOT was more effective 
than random screening.
---------------------------------------------------------------------------
    The study also noted that it was not designed to comprehensively 
validate whether SPOT can be used to reliably identify individuals in 
an airport environment who pose a security risk. The DHS study also 
made several additional recommendations related to strengthening the 
program and conducting a more comprehensive validation of whether the 
science can be used for counterterrorism purposes in the aviation 
environment.\19\ Some of these recommendations, such as the need for a 
comprehensive program evaluation including a cost-benefit analysis, 
reiterate recommendations made in our prior work. In March 2011, we 
reported that Congress may wish to consider the study's results in 
making future funding decisions regarding the program.\20\ TSA is 
reviewing the study's findings and assessing the steps needed to 
address DHS's recommendations. If TSA decides to implement the 
recommendations in the April 2011 DHS validation study, it may be years 
away from knowing whether there is a scientifically valid basis for 
using behavior detection techniques to help secure the aviation system 
against terrorist threats given that the initial study took about 4 
years to complete. We are conducting a follow-on review of TSA's 
behavior detection program, and its related variant, the so-called 
``Assessor Program,'' which incorporates more extensive verbal 
interactions (``chat downs'') with the traveling public. The Assessor 
program is currently being test piloted in Boston and Detroit. Our 
follow-on report on this program will be issued early next year.
---------------------------------------------------------------------------
    \19\ The study made recommendations related to SPOT in three areas: 
(1) Future validation efforts, (2) comparing SPOT with other screening 
programs, and (3) broader program evaluation issues. TSA designated the 
specific details of these recommendations sensitive security 
information.
    \20\ See GAO, Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue, GAO-11-
318SP (Washington, DC: Mar. 1, 2011).
---------------------------------------------------------------------------
  dhs and tsa have taken actions to enhance the security of cargo on 
                inbound aircraft, but challenges remain
    DHS and TSA have taken four primary actions to enhance the security 
of in-bound cargo on passenger and all-cargo aircraft following the 
October 2010 bomb attempt originating in Yemen.
    TSA issued new screening requirements aimed at enhancing the 
security of cargo on passenger and all-cargo aircraft.--Beginning in 
October 2010, TSA imposed new risk-based security procedures on 
passenger and all-cargo aircraft aimed at focusing more detailed 
screening measures on high-risk shipments and, among other things, 
prohibited the transport of cargo on passenger aircraft from Yemen and 
Somalia due to threats stemming from those areas.\21\
---------------------------------------------------------------------------
    \21\ TSA imposed requirements on both U.S. and foreign-flagged 
passenger and all-cargo carriers. All-cargo carriers are generally 
aircraft configured solely for the transport of cargo (e.g., FedEx and 
United Parcel Service).
---------------------------------------------------------------------------
    DHS instituted working groups with air cargo industry stakeholders 
to identify ways to enhance air cargo security.--In January 2011, the 
Secretary of Homeland Security established an Air Cargo Security 
Working Group to obtain advice and consultations from air cargo 
security stakeholders on ways to enhance the security of the air cargo 
system.\22\ The Air Cargo Security Working Group briefed the Secretary 
of Homeland Security, the Commissioner of U.S. Customs and Border 
Protection (CBP), and the TSA Administrator in April 2011 on proposed 
solutions, and recommended that TSA reevaluate the agency's 
implementation plan, time line, and resources related to TSA's program 
to recognize the security programs of foreign countries, known as the 
National Cargo Security Program (NCSP). According to TSA officials, 
participants of this working group have reconvened as part of the 
Aviation Security Advisory Committee, which held its first meeting in 
May 2012, and the committee will meet again in mid-September 2012 to 
discuss the implementation of the recommendations.
---------------------------------------------------------------------------
    \22\ DHS's Air Cargo Security Working Group consists of four 
subgroups: (1) Information subgroup, whose objective is to, among other 
things, enhance intelligence and information sharing among Federal 
stakeholders and between the U.S. Government and private-sector 
entities; (2) technology- and capacity-building subgroup, whose 
objective is to review technology standards and develop suggestions for 
addressing technology limitations; (3) global cargo programs subgroup, 
whose objective is to review and explore opportunities for enhanced 
public-private coordination as DHS works to address statutory 
requirements for screening 100 percent of inbound air cargo; and (4) 
global mail subgroup, whose objective is to, among other things, 
identify potential vulnerabilities for global mail and propose 
alternative processes and procedures to ensure the safety of mail 
transported by air.
---------------------------------------------------------------------------
    DHS initiated an Air Cargo Advance Screening (ACAS) pilot to 
identify high-risk cargo for screening prior to transport to the United 
States.--The aim of the pilot, which is on-going, is to determine 
whether it is feasible for air carriers to submit air cargo manifest 
data to CBP prior to departure from all foreign last point of departure 
airports to allow CBP to analyze, target, and, if needed, issue 
instructions to air carriers to provide additional cargo information or 
take additional security measures before such cargo is loaded onto 
aircraft. DHS initially focused on all-cargo express carriers and 
companies due to the elevated risk highlighted by the October 2010 
incident.\23\ As of August 2012, the ACAS pilot included 3 passenger 
air carriers and 4 all-cargo carriers that service the United States 
and is focused on about 189 geographic locations. Under existing CBP 
requirements, CBP must receive manifest data for air cargo shipments 
from air carriers no later than 4 hours prior to the flight's arrival 
in the United States or no later than the time of departure (that is, 
``wheels up'' and en route directly to the United States) from 
locations in North America.\24\ Under the pilot program, however, 
participants provide manifest data prior to loading cargo aboard 
aircraft.
---------------------------------------------------------------------------
    \23\ All-cargo express carriers and companies focus on transporting 
cargo under quick time frames.
    \24\ See 19 C.F.R.  122.48a(b).
---------------------------------------------------------------------------
    TSA developed a program to recognize foreign air cargo security 
programs.--TSA has developed the NCSP recognition program to review and 
recognize the air cargo security programs of foreign countries if TSA 
deems those programs as providing a level of security commensurate with 
TSA's air cargo security standards. In May 2012, TSA recognized Canada 
as providing a level of security commensurate with U.S. air cargo 
security standards, and in June 2012, the agency recognized the 
European Union and Switzerland as also providing this same level of 
security based on the principle of ``mutual recognition.''\25\ TSA 
officials stated that the NCSP recognition program is a key effort in 
meeting the 100 percent screening mandate because it will eliminate the 
need for air carriers to comply with two countries' security programs.
---------------------------------------------------------------------------
    \25\ TSA had previously recognized France and the United Kingdom as 
providing a level of security commensurate with U.S. air cargo security 
standards.
---------------------------------------------------------------------------
    Despite these actions, air carriers and TSA face three key 
challenges that, among other things, could limit TSA's ability to meet 
the 9/11 Commission Act mandate to screen 100 percent of cargo 
transported on passenger aircraft as it applies to inbound air cargo 
and to provide reasonable assurance that screening is being conducted 
at reported levels.\26\ All-cargo carriers subject to TSA regulation 
also reported facing challenges in implementing new TSA screening 
requirements established after the October 2010 Yemen incident.
---------------------------------------------------------------------------
    \26\ See 49 U.S.C.  44901(g).
---------------------------------------------------------------------------
    Passenger air carriers reported logistical challenges implementing 
proposed screening requirements.--In January 2011, TSA proposed changes 
to passenger aircraft security requirements outlined in the Aircraft 
Operator Standard Security Program and the Model Security Program to 
further enhance the security of air cargo departing foreign locations 
by requiring 100 percent screening of inbound cargo previously exempt 
from screening. TSA requirements currently call for air carriers to 
screen a certain percentage of all cargo.\27\ TSA proposed changes that 
would require passenger air carriers to screen 100 percent of cargo as 
part of its efforts to meet the 9/11 Commission Act mandate. Passenger 
air carriers expressed concerns about being able to meet the 100 
percent screening mandate as it applies to inbound cargo stating that 
it would cause significant disruptions in the air cargo supply chain, 
among other issues. In response to these concerns, TSA officials stated 
that they revised the proposed requirements and issued new passenger 
security requirements in June 2012. Agency officials said they plan to 
require air carriers to screen 100 percent of inbound air cargo 
transported on passenger aircraft by December 3, 2012.
---------------------------------------------------------------------------
    \27\ Details on TSA's screening requirements are deemed sensitive 
security information and not included in this statement.
---------------------------------------------------------------------------
    TSA faces challenges verifying screening data on inbound passenger 
cargo.--TSA relies on data submitted to the agency by air carriers to 
determine the amount of inbound air cargo screened in accordance with 
TSA screening requirements. As of September 2011, TSA officials stated 
that air carrier-reported screening percentages--which they estimate to 
be about 80 percent--are based on actual data reported by air carriers, 
but agreed that it is difficult to verify the accuracy of the screening 
data reported by air carriers with reasonable assurance. According to 
TSA, as of August 2012, the air carrier data have not been 
independently verified for accuracy since TSA has not developed a 
mechanism to cross-reference local screening logs with screening 
reports submitted by air carriers to TSA that do not contain such 
information. To more accurately identify the level of screening being 
conducted on inbound air cargo, we recommended in June 2010 that TSA 
develop a mechanism to verify the accuracy of all screening data 
through random checks or other practical means.\28\ TSA concurred in 
part and stated that as of May 1, 2010, they had issued changes to air 
carriers' standard security programs that require air carriers to 
report inbound cargo screening data to TSA. Specifically, TSA officials 
told us that in May 2010 the agency created a reporting requirement for 
air carriers to provide screening data on a monthly basis. TSA also 
stated that inspectors review screening data, among other things, when 
inspecting air carriers as part of the agency's air carrier compliance 
inspections. However, since TSA still has not developed a mechanism to 
verify the accuracy of the data reported by air carriers, the agency 
has not yet fully met the intent of the recommendation. It will be 
important for TSA to continue to work towards ensuring verification of 
inbound air cargo screening data submitted by air carriers and that 
inbound air cargo is screened in accordance with the mandate.
---------------------------------------------------------------------------
    \28\ GAO-10-446.
---------------------------------------------------------------------------
    Reporting screening data could facilitate oversight of all-cargo 
carrier compliance requirements.--TSA relies on data submitted by 
passenger carriers to determine the amount of air cargo screened on 
inbound passenger aircraft but there is no requirement for all-cargo 
carriers to report comparable screening data to TSA, even though most 
of the cargo shipped from abroad into the United States is shipped on 
all-cargo carriers. Thus, TSA does not know the extent to which all-
cargo carriers are screening cargo or meeting the enhanced screening 
requirements introduced after the October 2010 incident in Yemen. 
Officials from two global all-cargo carriers said that submitting such 
information to TSA would be feasible because they are already 
collecting this data internally, but officials from two other all-cargo 
carriers stated that reporting screening data to TSA would be 
challenging because of staffing limitations or because such data may 
not be available. TSA officials said that TSA does not require that 
all-cargo carriers submit screening data because it has focused its 
efforts on collecting data from passenger air carriers in support of 
meeting the 100 percent mandate. TSA officials stated that TSA may 
consider opportunities to capture additional inbound air cargo 
information, but has not yet weighed the costs and benefits of doing so 
because it has focused its efforts on establishing the ACAS pilot 
program, which DHS established to more readily indentify high-risk 
cargo. The pilot program is a key effort to identify high-risk cargo 
prior to aircraft departing from foreign airports, but is not intended 
to provide TSA with screening data, which if collected and verified, 
could provide additional assurance that all-cargo carriers are 
complying with TSA's enhanced screening requirements. To help TSA 
better determine what actions are needed, if any, to ensure that all-
cargo carriers are complying with the agency's enhanced screening 
requirements, we recommended in May 2012 that DHS assess the costs and 
benefits of requiring all-cargo carriers to report data on screening 
conducted.\29\ DHS concurred with the recommendation and is taking 
actions to address it.
---------------------------------------------------------------------------
    \29\ See GAO-12-632.
---------------------------------------------------------------------------
  dhs and tsa have experienced difficulties establishing acquisition 
 program baselines, schedules, and cost estimates for checked baggage 
                           screening systems
    TSA's Electronic Baggage Screening Program (EBSP) reports that 76 
percent of the airports (337 of 446) the agency regulates for security 
have a mix of in-line and stand-alone baggage screening configurations 
that best meet airport needs (i.e., optimal systems). Our prior work on 
TSA's checked baggage screening program--EBSP--identified a number of 
shortcomings in DHS and TSA's process for establishing program 
baselines, program schedules, and cost estimates.
    Acquisition program baselines.--We found that realistic acquisition 
program baselines with stable requirements for cost, schedule, and 
performance are among the factors that are important to successful 
acquisitions delivering capabilities within cost and schedule.\30\ 
Further, we reported in April 2009 that program performance metrics for 
cost and schedule can provide useful indicators of the health of 
acquisition programs and, when assessed regularly for changes and the 
reasons that cause changes, such indicators can be valuable tools for 
improving insight and oversight of individual programs as well as the 
total portfolio of major acquisitions.\31\ According to DHS's 
acquisition guidance, the program baseline is the contract between the 
program and departmental oversight officials and must be established at 
program start to document the program's expected cost, deployment 
schedule, and technical performance. By tracking and measuring actual 
program performance against this baseline, management can be alerted to 
potential problems, such as cost growth or changing requirements, and 
has the ability to take corrective action.
---------------------------------------------------------------------------
    \30\ GAO-10-588SP.
    \31\ Defense Acquisitions: Measuring the Value of DOD's Weapon 
Programs Requires Starting with Realistic Baselines, GAO-09-543T 
(Washington, DC: April 1, 2009).
---------------------------------------------------------------------------
    We reported in April 2012 that TSA has not had a DHS-approved 
acquisition program baseline for EBSP since the program's inception 
more than 8 years ago.\32\ Further, DHS did not require TSA to complete 
an acquisition program baseline until November 2008. TSA officials said 
they have twice submitted an acquisition program baseline to DHS for 
approval--first in November 2009 and again February 2011. However, 
according to DHS officials TSA did not have a fully developed life-
cycle cost estimate. In November 2011, DHS told TSA that it needed to 
revise the life-cycle cost estimates as well as its procurement and 
deployment schedules to reflect budget constraints. DHS officials told 
us that they could not approve the acquisition program baseline as 
written because TSA's estimates were significantly over budget. An 
approved baseline will provide DHS with additional assurances that 
TSA's approach is appropriate and that the capabilities being pursued 
are worth the expected costs. TSA officials stated that TSA is working 
with DHS to amend the draft program baseline and plans to resubmit a 
revised life-cycle cost estimates with a revised acquisition program 
baseline by December 31, 2012. As we reported, establishing and 
approving a program baseline, as DHS and TSA plan to do for the EBSP, 
could help DHS assess the program's progress in meeting its goals and 
achieve better program outcomes.
---------------------------------------------------------------------------
    \32\ GAO-12-266.
---------------------------------------------------------------------------
    Schedules.--In July 2011, we reported that TSA had established a 
schedule for the acquisition of the explosives detection systems (EDS) 
TSA deploys to screen checked baggage, but it did not fully comply with 
leading practices, and TSA had not developed a plan to upgrade its EDS 
fleet to meet the 2010 explosives detection requirements.\33\ We noted 
that some of TSA's approximately 2,200 deployed systems met 2005 
explosive requirements while the remainder met 1998 explosive detection 
requirements.\34\ Leading practices state that the success of a large-
scale system acquisition, such as TSA's EDS acquisition, depends in 
part on having a reliable schedule that identifies when the program's 
set of work activities and milestone events will occur, amongst other 
things. We reported that the schedule for the EDS acquisition is not 
reliable because it does not include a timeline to deploy EDS or plans 
to procure EDS to meet subsequent phases of explosive detection 
requirements. We stated that developing a reliable schedule would help 
TSA better monitor and oversee the progress of the EDS acquisition. DHS 
concurred with the recommendation to develop and maintain a schedule 
for the entire EBSP in accordance with the leading practices we 
identified for preparing a schedule. DHS commented that TSA had already 
begun working with key stakeholders to develop and define requirements 
for a schedule and to ensure that the schedule aligns with the leading 
practices. In April 2012, TSA stated that it had secured contractor 
resources to support development of an integrated master schedule in 
accordance with our and industry best practices, and that it 
anticipated completion of this schedule by September 2013.
---------------------------------------------------------------------------
    \33\ GAO, Aviation Security: TSA Has Enhanced Its Explosives 
Detection Requirements for Checked Baggage, but Additional Screening 
Actions Are Needed, GAO-11-740, (Washington, DC: July 11, 2011).
    \34\ The specific number of EDS operating at particular detection 
levels is considered sensitive security information.
---------------------------------------------------------------------------
    Cost estimates.--In April 2012, we reported that TSA's methods for 
developing life-cycle cost estimates for the EBSP did not fully adhere 
to best practices for developing these estimates.\35\ We reported in 
March 2009 that a high-quality, reliable cost estimation process 
provides a sound basis for making accurate and well-informed decisions 
about resource investments, budgets, assessments of progress, and 
accountability for results and thus is critical to the success of a 
program.\36\ We reported that TSA's estimates partially met three 
characteristics and minimally met one characteristic of a reliable cost 
estimate.\37\ DHS concurred with the recommendation that TSA ensure 
that its life-cycle cost estimates conform to cost estimating best 
practices, and identified efforts underway to address it.
---------------------------------------------------------------------------
    \35\ See GAO-12-266.
    \36\ GAO Cost Estimating and Assessment Guide: Best Practices for 
Developing and Managing Capital Program Costs. (Supersedes GAO-07-
1134SP). GAO-09-3SP, (Washington, DC: Mar. 2, 2009).
    \37\ Specifically, we found their life-cycle cost estimate to be 
partially comprehensive, partially documented, partially accurate, and 
minimally credible: (1) Partially comprehensive because the cost 
estimate does not incorporate costs associated with all security 
threats, lacks a detailed scope of work, and lacks a single technical 
baseline; (2) partially documented because TSA did not adequately 
document many assumptions or methodologies underlying its cost model, 
and provided little or no evidence that the assumptions and 
methodologies underlying the cost estimate were approved by management; 
(3) partially accurate because differences between planned and actual 
costs are not fully documented, explained, or reviewed; and (4) 
minimally credible because TSA did not complete relevant activities, 
such as an independent cost estimate--to ensure that the estimate 
accounts for bias and uncertainty. See GAO-12-875.
---------------------------------------------------------------------------
   tsa established a process for vetting foreign flight students but 
                           weaknesses remain
    As we reported in July 2012, TSA has worked with industry and other 
stakeholders to enhance general aviation security, such as issuing 
regulations and enhancing outreach and awareness, but there are 
weaknesses in the agency's process for vetting foreign flight student 
applicants and in DHS's process for identifying flight students who may 
be in the country illegally. We recommended two actions that DHS and 
TSA could take to address these concerns, with which DHS concurred.
    Vetting foreign flight student applicants.--Under AFSP, foreign 
nationals seeking flight training in the United States undergo a TSA 
security threat assessment before receiving flight training to 
determine whether each applicant is a security threat to the United 
States. According to TSA officials, when a foreign national applies to 
AFSP to obtain flight training, TSA uses information submitted by the 
foreign national--such as name, date of birth, and passport 
information--to conduct a criminal history records check, a review of 
the Terrorist Screening Database, and a review of the Department of 
Homeland Security's TECS system.\38\ According to TSA officials, most 
foreign nationals taking training from a U.S. flight training provider 
will apply for a Federal Aviation Administration (FAA) airman 
certificate (pilot's license) once their flight training is completed. 
Information obtained by FAA as part of this application for 
certification is placed in the airmen registry. From January 2006 
through September 2011, 25,599 foreign nationals had applied for FAA 
airman certificates, indicating they had completed flight training. 
However, TSA computerized matching of FAA data determined that some 
known number of foreign nationals did not match with those in TSA's 
database, raising questions as to whether they had been vetted.\39\
---------------------------------------------------------------------------
    \38\ Information in the Terrorist Screening Center's consolidated 
database of known or suspected terrorists--the Terrorist Screening 
Database--is used for security-related screening of foreign nationals 
applying to AFSP, among other purposes. TECS, an updated and modified 
version of the former Treasury Enforcement Communications System, is an 
information-sharing platform that allows users to access different 
databases relevant to the antiterrorism and law enforcement mission of 
numerous other Federal agencies.
    \39\ The exact number is considered to be sensitive security 
information.
---------------------------------------------------------------------------
    Since 2009, TSA has vetted all new and existing FAA airman 
certificate holders against the Terrorist Screening Database on an on-
going basis, which would include the foreign nationals identified 
through TSA's analysis. However, this vetting does not occur until 
after the foreign national has obtained flight training. Thus, foreign 
nationals obtaining flight training with the intent to do harm--such as 
three of the pilots and leaders of the September 11, 2001, terrorist 
attacks--could have already obtained the training needed to operate an 
aircraft before they received any type of vetting.\40\ We recommended 
that TSA take steps to identify any instances where foreign nationals 
receive FAA airman certificates without first undergoing a TSA security 
threat assessment and examine those instances so that TSA can identify 
the reasons for these occurrences and strengthen controls to prevent 
future occurrences. DHS concurred with this recommendation and stated 
that TSA signed a memorandum of understanding with FAA in February 2012 
to help address this issue. The memorandum outlines a process for FAA 
to provide certain data from its airmen registry on a monthly basis and 
authorizes TSA to use the data to ensure flight training providers are 
providing TSA with information to conduct background checks prior to 
flight instruction. This is an important step toward addressing the 
first part of our recommendation, provided that TSA uses the data to 
identify instances where foreign nationals receive FAA airman 
certificates without first undergoing a TSA security threat assessment, 
identifies reasons for these occurrences, and strengthens controls to 
prevent future occurrences, as we recommended.
---------------------------------------------------------------------------
    \40\ TSA likewise does not vet flight student applicants claiming 
U.S. citizenship. H.R. 6159--the Flight School Security Act of 2012, 
introduced in July 2012--would require, among other things, a 
determination by TSA that the individual seeking training is a non-
threat to aviation prior to beginning flight training. See H.R. 6159, 
112th Cong. (2d Sess. 2012). The bill, sponsored by Representative 
Bennie G. Thompson, was referred to the Committee on Homeland Security, 
Subcommittee on Transportation Security.
---------------------------------------------------------------------------
    Identifying flight students entering the country illegally.--We 
also reported that AFSP is not designed to determine whether a foreign 
flight student entered the country legally; thus, a foreign national 
can be approved for training through AFSP after entering the country 
illegally. A March 2010 U.S. Immigration and Customs Enforcement (ICE) 
investigation of a flight school led to the arrest of six such foreign 
nationals, including one who had a commercial pilot's license. As a 
result, TSA and ICE jointly worked on vetting names of foreign students 
against immigration databases, but had not specified desired outcomes 
and time frames, or assigned individuals with responsibility for fully 
instituting the program as of July 2012. Thus, this weakness still 
exists today. Having a road map, with steps and time frames, and 
assigning individuals the responsibility for fully instituting a pilot 
program could help TSA and ICE better identify and prevent potential 
risk. We recommended that TSA and ICE develop a plan, with time frames, 
and assign individuals with responsibility and accountability for 
assessing the results of their pilot program to check TSA AFSP data 
against information DHS has on applicants' admissibility status to help 
detect and identify violations by foreign flight students, and 
institute that pilot program if it is found to be effective. DHS 
concurred and stated that TSA will prepare a plan by December 2012 to 
assess the results of the pilot program with ICE to determine the 
lawful status of the active AFSP population. We believe that these are 
positive actions that could help TSA address the weaknesses identified 
in our report. We will continue to monitor TSA's progress on the 
proposed solutions as the agency proceeds.
    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
subcommittee, this concludes my prepared statement. I look forward to 
responding to any questions that you may have.

    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes himself for 5 minutes.
    Mr. Halinski, you have had a chance to review the report of 
this committee as Majority staff has issued yesterday?
    Mr. Halinski. Sir, I received this yesterday afternoon--our 
headquarters received the report. I have people looking at the 
report. I personally have not had a chance to review the 
report. I plan to do that over the next couple of days, sir.
    Mr. Rogers. Okay. I would very much like to have you share 
your thoughts with me on what you agree with and disagree with 
in our findings and put those back to me in writing.
    Mr. Halinski. Yes sir.
    Mr. Rogers. I look forward to receiving that.
    I want to ask, Mr. Halinski, do you know--and you know I 
have been hot on this procurement and acquisition concern 
within the Department of Homeland Security, but also within 
TSA. Do you know if TSA has recently requested the private 
sector to help them in developing a more risk-based screening 
process at its checkpoints?
    Mr. Halinski. Yes, sir. We have, sir, quite frankly. One of 
the issues that we want to do with risk-based security, as we 
have done with liquids, aerosols, and gels, is we understand 
that this has got to be a joint effort. It is not just the 
Government, quite frankly. It has to be the private industry.
    I would point to the recreation of the Aviation Security 
Advisory Committee, which is a regular committee that meets. 
Within that committee, we have created a Risk-Based Security 
subcommittee. Since May, it has met three times. This is both 
private industry and stakeholders and TSA.
    Mr. Rogers. It is comprised of----
    Mr. Halinski. Stakeholders, sir? Industry----
    Mr. Rogers. What industry? I mean, what groups did you 
reach out to?
    Mr. Halinski. I will have to get you the names of the board 
members, but typically who we deal with is the stakeholders at 
the airport, stakeholders for the air carrier, A4A, IATA. They 
are all represented on the Aviation Security Advisory 
Committee.
    Mr. Rogers. Excellent.
    Mr. Halinski. This is a subcommittee of that.
    As I said, it meets three times. It actually will meet 
tomorrow. The goal of this is--and we have pushed this with 
RBS. Now, we recognize that for risk-based security to be 
successful we have to have buy-in from everybody. They know the 
industry. We want to work with them on how to make this 
successful, sir.
    Mr. Rogers. Are you working with them or even discussing 
with them improvements that you can make on the regulatory 
processes that they have to adhere to?
    Mr. Halinski. Sir, I would tell you we are.
    You know, one of the things--as I am with you always, sir, 
I am going to be right up front. We can't look through the 
world with just one lens.
    I believe that what we have to do with risk-based security, 
because it is, I think, the way to go in the future, is to be 
able to take advice--take advice from industry, take advice 
from here, take advice from Mr. Lord.
    Quite frankly, I have had two meetings with Mr. Lord since 
July when I came in as the deputy, because we need that and we 
use that as a tool. We don't have all answers--readily admit 
that. We are willing to take advice and look at it, sir.
    Mr. Rogers. Great. Well, I hope you will be aggressive, 
particularly on the regulatory front, because I get a lot of 
feedback about how burdensome and cumbersome--and some of it is 
antiquated. So we need to stay on top of that.
    Mr. Lord, do you think TSA has sufficiently addressed 
privacy concerns of its passengers, yes or no?
    Mr. Lord. I believe that they have made a concerted effort 
in the last year or two to address privacy concerns, most 
notably in the privacy software incorporated in their whole-
body imaging equipment--advance imaging technology.
    Obviously, they can continue to work on that, but that was, 
I believe, a major step in the right direction. They also have 
a privacy officer employed full-time at the agency, and they 
have done some outreach with industry to see how they could 
better address these issues.
    Obviously, it is a delicate balancing act. They are 
concerned with security. At the same time, you want to respect 
passengers' privacy and not impede commerce. So I always 
present this policy triangle. Where do you draw the line within 
the triangle in making policy?
    Mr. Rogers. Mr. Halinski, what is the status of the Foreign 
Airport Repair Station Security rule and the Large Aircraft 
Security Program rule?
    Mr. Halinski. Yes, sir. Sir, we are following the 
rulemaking process. I will say right off the bat I understand 
your frustration with that process.
    The process as we work through it is guided by OMB, and 
they fall under the statutes from Congress. We are working 
toward getting the rule finalized. The rule is in review right 
now. I know, sir, it has been a long process, one that has 
frustrated many on this committee.
    Mr. Rogers. Many years.
    Mr. Halinski. Yes, sir--absolutely understand that, sir. We 
are pushing that forward.
    I will tell you, though, just because the rule isn't 
complete doesn't mean we are not taking action. We have looked 
at the most critical foreign repair stations and conducted 
surveys and visits to those to ensure that they do not pose a 
security threat.
    We have found that of those 170--what we consider critical 
airports--all of them have security plans. All of them will 
meet, when the rule is final, the regulatory responsibility.
    Mr. Rogers. So it is going to have to wait for 
certification? Those repair stations can't be certified until 
the rule is complete, is that correct?
    Mr. Halinski. Sir, under the rulemaking process, I don't 
believe we can do that.
    Mr. Rogers. Okay.
    Last question I have got is--Mr. Halinski, the Alien Flight 
Student program--you know, we talked about the No-Fly list at 
least being adhered to. Can you talk to me about what has 
happened since then?
    Mr. Halinski. Yes, sir.
    After the testimony of our TSA representative here, and 
working with the recommendations from Mr. Lord, we have pursued 
trying to close the vulnerabilities in the system and we are 
working at them very aggressively.
    We appreciate that there is legislation--it appears 
forthcoming--which will help clarify the Congressional intent, 
particularly when it comes to U.S. persons that are flying.
    If you were to ask me, ``Do we have the authority to do 
that?'' Sir, yes, we do. But if we do it, we know that it will 
end up in a rulemaking process, sir.
    We estimate there is about 350,000 people a year who 
start--U.S. citizens who start the flight process. We are 
trying to work with FAA.
    On the alien side sir, we are trying to clean up the 
recommendations that we got from GAO with ICE and also with 
FAA.
    We are pursuing it, sir. We welcome the support of your 
committee on this. I will tell you, we are pushing it, sir. I 
hope we can close the gap here quickly, sir.
    Mr. Rogers. I hope so too. That is one of the more ugly 
shortcomings that we have discovered, so I really hope you 
could fix that.
    With that I want to ask for unanimous consent to submit a 
letter by GAMA, General Aviation Manufacturers, to Secretary 
Napolitano on these issues.
    Without objection, so ordered.**
---------------------------------------------------------------------------
    ** The information has been retained in committee files.
---------------------------------------------------------------------------
    The Chairman now recognizes the Ranking Member for any 
questions.
    Ms. Jackson Lee. I thank the Chairman very much.
    I thank the witnesses who have come, both Mr. Halinski and, 
of course, Mr. Lord who has been diligent in his review.
    Just a quick question to you, Mr. Lord--and I think you 
said in your testimony you have seen cooperation and 
improvement in the assessments that GAO has made and how TSA 
has responded?
    Mr. Lord. Yes, ma'am, we have. We meet at the very high 
level on a regular basis to go over our open recommendations, 
and I think that is really facilitated a process, ensure we are 
not talking past each other and leads to an expedited closeout 
process.
    Ms. Jackson Lee. Let me thank you for that.
    Mr. Halinski, I have a series of questions, and you can be 
pointed and brief.
    We have had 11 years--and Homeland Security was created in 
the shadow and the tragedy of 9/11, and therefore 
Transportation Security Administration.
    What would you view as the agency's greatest 
accomplishment?
    Mr. Halinski. Yes, ma'am.
    I would tell you that I think the greatest accomplishment 
that we have is being able to take a very simple mission, which 
is to protect the traveling public, and try to make that work, 
because it is a very complex mission. It ranges from screening 
in the airports to protection of our surface systems, mass 
transit systems, our pipeline systems, and then the myriad of 
other things that we have talked about here--general aviation, 
insider threat, cargo.
    We are addressing them. We are trying to work towards them 
and accomplish them because we understand the vulnerability and 
risk.
    I believe to be able to do that as an organization in 10 
years is an accomplishment, but it is due mainly to the people 
that we have in the organization.
    I know sometimes people think that we are a very large 
organization. But we screen 1.7 million people a day. We look 
at 2.2 million checked bags and over 2 million hand-carry bags 
a day in the airports in the 450 airports that we are in.
    I think that is a major accomplishment when you look at the 
people that are there, most of them earning about $34,000 a 
year. They are doing this service for the American public. It 
is not because they are doing it for the money. They are not 
doing it for the glory. But, quite frankly, they are doing it 
because they believe in this mission.
    Anytime you have a team that can believe in a mission like 
that, I want to be on that team.
    Ms. Jackson Lee. Well, I want to thank them. But I also 
want to acknowledge that as public servants and workers of the 
Federal Government, we all want to do our very best. We want to 
do it, as you have indicated, not matter what our salary range 
is. Because we have Americans who are waitresses and nurses' 
aides and bus drivers and others whose salaries don't equate, 
and we want them to do their very best.
    So I am glad that you are saying that without regard to 
salary you feel that the TSO officers, the Transportation 
Security Administration--that the TSOs are doing their very 
best. Is that what you are telling me?
    Mr. Halinski. Yes, ma'am, I am.
    Ms. Jackson Lee. Let me thank you. Americans had an episode 
of democracy over the last 2 weeks--one in Tampa, one on 
Charlotte.
    How do you think that went? They were, I understand, 
thousands going through different airports, Tampa and then 
Charlotte. How did you see that with respect to TSA's 
responsibility?
    Mr. Halinski. Yes, ma'am. I think that from a TSA 
perspective, it went very well. But it was also a very 
collegial effort among all of the Department of Homeland 
Security, Secret Service, Customs and Border Protection.
    All the folks that were there, quite frankly, did a good 
job, as well as local law enforcement and State law 
enforcement, primarily because of planning. The planning 
process for an event like that takes almost a year or more, and 
it takes a lot of communication and collaboration. I think that 
is why it was successful.
    Ms. Jackson Lee. When I was able to view in Charlotte, I 
did not see long lines. I did not see stalled lines. I think 
that was very good.
    Let me just raise these two questions, and I will--let me 
raise the questions of SPOT. There are several investigations 
going on, and there is representation that SPOT has been 
discriminatory and has done racial profiling.
    How do you respond to that?
    Mr. Halinski. Ma'am, we train our officers that if racial 
profiling is conducted you are failing the program. We don't 
believe it. We train our officers not to do that.
    We want to ensure that our officers don't do that, so we 
try to ensure quality control. I believe that the SPOT program 
is a program that is essential to a layered effect.
    I think when you look at security from an airport--and we 
look at the layered effect because I don't believe there is one 
single piece of technology or process--human process or other 
process--that can stand alone and by itself. It has to be 
interwoven; it has to be redundant and not duplicative. I 
believe that the SPOT program is successful.
    Quite frankly, I had very good conversations with Mr. Lord. 
We have talked to our DHS I.G. about this program. There is 
always a way to improve programs, and we are looking at that. I 
think that is what is important--is to continually improve the 
program based on threat, based on perceived vulnerabilities, 
and based on recommendations from our partners in GAO, at DHS, 
and in other agencies.
    Ms. Jackson Lee. Let me ask these series of questions.
    I would like to ask unanimous consent to put into the 
record a letter to Ranking Member Thompson from Mr. Pistole 
dated January 30, 2012, that says TSA uses a standardized 
interview process for promotions in the SPOT program as well as 
new management positions, the SPOT referral interview rate is 
not factored into these decisions.
    I would like unanimous consent to put this into the record.
    Mr. Chairman, I would like unanimous consent to put this 
into the record.
    Mr. Walberg [presiding]. No objection.***
---------------------------------------------------------------------------
    *** The information has been retained in committee files.
---------------------------------------------------------------------------
    Ms. Jackson Lee. Thank you. I am just finishing my 
questions.
    Can you answer these rather quickly, please?
    Mr. Halinski. Yes, ma'am.
    Ms. Jackson Lee. One, there are several individuals who are 
involved in investigations regarding the SPOT program. Can you 
give me assurance that those individuals--let me just ask my 
questions and then if you can answer them--can you give me your 
assurance that those individuals who have spoken with 
investigators will not be subjected to any punishment or other 
adverse personnel actions because of their participation in 
these investigations?
    Mr. Halinski. Yes, ma'am. They will not be.
    Ms. Jackson Lee. Will you issue a public statement to the 
TSA workforce pledging that those who come forward with 
information about racial or ethnic profiling will not be 
subject to punishments or adverse personnel actions because of 
their participation in these investigations?
    Mr. Halinski. Yes, ma'am. In fact, we put that in our 
training for all of our personnel.
    Ms. Jackson Lee. That you will announce it.
    Then, there was a report in Houston indicating that you had 
wasted $800 million in the SPOT program. Can you respond to 
that?
    Let me just finish with this final question. I have long 
been concerned--and you mentioned in your testimony, Mr. 
Halinski--and I think also Mr. Lord--about surface 
transportations. While our focus has been on aviation security, 
it is certainly warranted, it is critical that we not take our 
eye off the ball when it comes to the security of our rail, 
subway, and bus systems.
    That is why I introduced a bill, H.R. 1900, the Surface 
Transportation and Mass Transit Security Act of 2011, earlier 
this Congress, to enhance surface transportation.
    What steps are being taken by TSA to ensure sufficient 
resources are being allocated to surface transportation and 
mass transportation?
    Will you answer the SPOT question about $800 million in 
expenditures versus what you may have expended, and whether or 
not you are vetting SPOT to ensure the validity of the science?
    Mr. Halinski. Yes, ma'am. The----
    Ms. Jackson Lee. SPOT is BDO, right?
    Mr. Halinski. Yes, ma'am.
    Ms. Jackson Lee. It is one of the subsets of BDO?
    Mr. Halinski. Yes, ma'am, it is.
    Ms. Jackson Lee. All right.
    Mr. Halinski. Yes, ma'am.
    Ms. Jackson Lee. Would you please?
    Mr. Halinski. Yes, ma'am--$800 million, ma'am.
    The program was started. I have an accounting of all the 
money that was spent for that particular program. The majority 
of that money was spent on pay and benefits for the identified 
behavior detection officers that are in the program.
    We have approximately 3,000 personnel in that program. The 
program has been in existence since, I believe, about 2005. The 
money that has been allocated is--the recording is through 
2007, I am sorry. That money was spent on pay and benefits for 
those particular officers--payroll, ma'am. There is some money 
that has been spent--approximately $5 million on training for 
these officers, and some on travel--for instructors and 
participants, roughly about the same on that, ma'am.
    Ms. Jackson Lee. So you will be able to submit that to the 
record for this committee?
    Mr. Halinski. Yes, ma'am, I should be able to.
    Ms. Jackson Lee. Okay. So the question of the $800 
million--you believe you spent $800 million or you believe you 
spent less than that?
    Mr. Halinski. No, we spent $800 million, ma'am.
    Ms. Jackson Lee. You can document what you spent it on?
    Mr. Halinski. Yes, ma'am, I can.
    Ms. Jackson Lee. Okay--and the transportation for transit?
    Mr. Halinski. Yes, ma'am. As far as transit goes, we have 
an entire division in TSA that is oriented toward surface 
security.
    Part of our program is to recognize the fact that in the 
surface security world, we deal both with private industry, 
with local authorities and State authorities. I believe we have 
allocated the right amount of assets at this time to that, with 
the idea that we have to work in unison and collaboratively 
with our local and State authorities, as well as private 
industry.
    Ms. Jackson Lee. Thank you. You didn't answer, but let me 
just make sure you put it in the record. You are going to 
continue to validate the SPOT technology?
    Mr. Halinski. Yes, yes, ma'am. I will give you my word on 
that, ma'am--that we will continue to validate that program and 
ensure that it is meeting our expectations and has a solid 
quality-assurance-and-metrics program.
    Ms. Jackson Lee. Thank you, Mr. Chairman. Thank you very 
much. I yield back.
    Mr. Walberg. Thank the gentlelady.
    I will recognize myself for a round of questioning, and 
apologize for being delayed in getting over here.
    But you may have answered the question, Mr. Halinski, 
already, about the time line for the foreign repair stations 
being up and running, the decision being made. I just met with 
a major foreign repair station entity in my district, with 
concerns around the world, and great concern that that is still 
so delayed.
    Is there any time, a date certain, where we will have this 
in place?
    Mr. Halinski. Sir, I am going to be frank with you. I would 
love to give you a date when this is going to be done. I can't 
give you a date, sir, because I don't know.
    I will tell you that we are aggressively pursuing this. We 
understand the frustration on the----
    Mr. Walberg. Aggressive for me--versus what I am hearing 
here seems awful slow to be aggressive.
    Mr. Halinski. Yes, sir. I fully recognize this one has been 
a long time in coming. We are trying to work through the 
process. We are moving it forward. We are pushing it as fast as 
we can, sir. We will push it as fast as we can.
    I don't have a date, sir. I would hope by the end of the 
year, but I can't guarantee that, sir, and I don't want to give 
you a guarantee I can't give.
    Mr. Walberg. Do we have a set of factors that are causing 
this restriction, this delay to take place? I don't know 
whether it was shared with the committee before I got here, but 
I guess my concern is, while we talk about being aggressive, 
what at this point in time, after this length of time, 
continues to hold us up and short-circuit the process?
    Mr. Halinski. Yes, sir. I would tell you, sir, that this 
particular issue has gone back and forth, back and forth. It is 
in the process. It has left TSA. It is moving through the 
process. We believe that it should work its way through 
shortly. If you ask me what shortly is, sir, I am going to be 
honest with you again. I can't give you what that is.
    We are pushing it, sir. We understand it. As I said before 
you came here, though, we are not holding up the security 
vulnerability piece. Realizing that the rule isn't in place, we 
have actively gone out to outside of the United States, to 
foreign repair stations, to look at what we consider to be the 
most critical 170 of those foreign repair stations, to ensure 
that they have security plans, to ensure they meet the intent 
of the future rule.
    We have done that, sir, and we will continue to push it as 
hard as we can. I understand your frustration. I also 
understand the fact that I would love to have that rule done as 
well, sir.
    Mr. Walberg. Well, we will continue to wait.
    Mr. Halinski. Yes, sir.
    Mr. Walberg. Mr. Lord, what do you make of the fact that 
TSA doesn't do any cost-benefit analysis?
    Mr. Lord. Well, that has been a consistent theme of some of 
our reporting. In some cases, we urge them to conduct a cost-
benefit analysis before deciding to go forward with a program. 
A related issue is their life-cycle cost estimates. When senior 
managers are making a decision about a program, we think it is 
important to know, ``How much is this program going to cost 
over the life of the program?''
    So we have made----
    Mr. Walberg. It seems logical, doesn't it?
    Mr. Lord. Yes, now, so we have--I mean, it is not that they 
don't have any, but they can obviously be refined and improved, 
giving better granularity on--you know, these are big programs, 
technology programs we are referring to.
    But the good news is TSA has agreed. I think in some cases 
they didn't have the in-house expertise to really develop a 
good one, but they have recently taken some steps to address 
that. So hopefully, over the future, we will be seeing better 
cost estimates, better cost-benefit analysis, et cetera.
    Mr. Walberg. Mr. Halinski, what is the process, if you 
could describe it for us, for coordinating with other agencies 
such as the DOD on evaluating and incorporating new 
technologies for use in security screening?
    Mr. Halinski. Yes, sir.
    I would say that one of the things we are trying to do with 
technology--and we have taken on-board recommendations from 
GAO. We have taken on-board recommendations from DHS and other 
entities--is to look at the way we approach technology. We have 
done this in the last, I would say, year.
    What we are trying to do is approach it from the 
perspective that instead of you have technology drive 
operations, requirements and threat drives technology. That is 
what we are looking for.
    What we want to try to do is work with industry. We have 
industry days. We work with the Washington Homeland Security 
group that deals with technology. We are looking at putting 
together a strategic plan--a 5-year plan, which at times can be 
a little bit difficult because the budget cycles go in 1 and 2 
years, particularly 2 years for acquisition of technology.
    But we believe that a 5-year plan, listening to our 
counterparts in GAO, would be very productive to us. That is 
one of the things that DOD does.
    Having come from DOD--spent 25 years there--I know the way 
their process works, and the way their process works with 
technology. I think it is a good model.
    We have done outreach to DOD on a consistent basis when it 
comes to technology. We have talked to other departments when 
it comes to technology. We have an entire division--our Office 
of Security Capabilities--that deals with that kind of outreach 
to other departments, as well as to private industry.
    We recognize the fact that we could probably take a 
different approach, be a little bit more strategic in our 
planning as far as technology goes, and ensure that 
requirements and ensure that threat is driving technology and 
not a single piece of technology is driving operations.
    Mr. Walberg. Okay. Thank you.
    My time is expired.
    I recognize Mr. Richmond.
    Mr. Richmond. Thank you.
    We touched for a second on PreCheck. It appears from 
testimony and my experience that airlines, they run PreCheck on 
the outside of the security gate.
    Mr. Halinski. Sir----
    Mr. Richmond. Here is my question.
    Mr. Halinski. Yes, sir.
    Mr. Richmond. If I am PreChecked with US Air----
    Mr. Halinski. Yes, sir.
    Mr. Richmond But I am not PreChecked with Delta--so that 
means in the D.C. airport I am PreChecked, but in the Atlanta 
airport I am not. Why does that happen?
    Mr. Halinski. Okay, sir. Under the PreCheck concept--and we 
are still piloting PreCheck, sir, right now. We are in 23 
airports in the United States. We will be in 35 by the end of 
this year.
    We are continuing to grow PreCheck. Some of it has to do, 
quite frankly, with the physical setups of the PreCheck areas 
vice the screening area.
    Some of it is logistics. We have to work with an airport. 
We have to ensure that it is going to meet the right 
requirements and the right configuration. That is one way.
    The other area that I heard earlier, sir, has to deal with, 
``If I am a frequent-flyer program in one airline, why can't I 
go to another one?'' It is not as easy as having computers talk 
to each other. Quite frankly, we do that with Secure Flight 
every day. So that is not the issue.
    I would say it is a proprietary issue among air carriers. I 
am giving out your best customer list and there are some 
concerns on how that will be protected.
    We are working with industry to try to say that we will 
protect and we will ensure that there is cross-pollination 
there. We would like nothing more than to increase the amount 
of people that are going through PreCheck. We have 12 and 
under, 75 and older, armed forces of the military, we are 
looking at new populations every single day.
    One of the reasons we have asked industry to help us is to 
drive towards these new populations because we understand very 
clearly now, we have evolved. I will tell you we have evolved 
from one-size-fits-all to, ``Let us look at the traveling 
public and see who poses the highest threat and the rest we 
screen, but we screen to a standard that is acceptable to the 
level of risk.''
    Mr. Richmond. Has anyone come up with a formula for what 
they believe passenger traffic through a security point to the 
proportionate number of TSA agents? Do we have a ratio on that?
    Mr. Halinski. Well, yes sir, and that is one of the models 
we are looking at. To make PreCheck successful, we need to 
ensure that the amount of people that are using the PreCheck 
lanes are substantial enough and right now. That is why we are 
in the pilot stage.
    We don't----
    Mr. Richmond. Well actually I am talking about just the 
regular checkpoints, not PreCheck, just your regular 
checkpoints, do you have best practices on how many agents 
per----
    Mr. Halinski. Yes sir, we do. We have an entire model. It 
is not only based on the number of flights during a specific 
time, down periods--the airline industry uses banks when there 
are higher numbers of flights coming in and out of that 
airport.
    So we have a very good model, we think, optimizing and 
effectively using the number of TSOs at the checkpoint based on 
configuration, based on operations, and based on the type of 
technology that is there.
    Mr. Richmond. I will just add, the last meeting we had or 
committee hearing that we had on TSA and basically that was a 
meeting on your approval rating. But when I left that meeting 
and they talked about the number of TSO officers in airports, I 
noticed that in the District of Columbia, the line now was 
substantially larger. In the conversation with the airport 
people, they said that they added flights and they said, ``We 
added a good number of flights at the D.C. airport.'' I said, 
``Did you get anymore TSA agents?'' They said ``No,'' hence the 
long line.
    So that is why I am asking if there is a formula you use, 
if you use it, and how long after they add flights or make 
adjustments do you adjust to make sure you don't have those 
long waiting periods at the airport?
    Mr. Halinski. Yes, sir. The key to success in security 
operations, we believe is not just the security screening 
process itself. It is the communication that exists between the 
airport authority, the law enforcement, and all the other 
vendors that are in the airport.
    Let me use the example of DCA, was there a blockage there 
for probably about a week or 2--yes, there was. When we went 
back and looked at that process, what we found is that two 
different air carriers had moved into one of the terminals. 
They had changed the type of aircraft. They had gone from a 
smaller aircraft to 757s, which means that you are going to 
have more people going through.
    What was needed was more communication from everybody 
involved--TSA, Airport Authority. I think that communication 
hit them real hard and real fast and I believe that when you go 
there now, you will see that they are at the right level.
    ``Communication, collaboration, cooperation''--that is a 
motto that we have that we think works if we follow it.
    Mr. Richmond. My time has expired.
    If the Chairman will, I just have one last question.
    My experience with Government entities, especially the 
Corps of Engineers, which did all the levee protection around 
New Orleans--and one thing we advocated for was third-party 
independent review of their engineering plans and practices to 
give the general public more confidence.
    I guess my question is, do you all do an individual--I mean 
and independent of technology and evaluations of some of your 
security either technology or procedures or things of that 
nature?
    Mr. Halinski. Yes sir, in fact I am sitting next to Mr. 
Lord who probably is our greatest quality control person that 
we have right now.
    We also use the Department's inspector general and we have 
in the past used outside contractors to validate some of our 
processes. It is a great tool to have, sir, and I think it is 
important to conduct the analysis and look inward at your 
processes.
    Mr. Richmond. Thank you.
    Mr. Walberg. I thank the gentleman.
    You could have more time to ask questions if you would 
commit to not pitching the first four innings of the 
Congressional ballgame next year that--we will let that go.
    Just to make one final comment, my experience with PreCheck 
in Detroit, where I go through coming here, has just been 
excellent--works so well. It is not crowded, and I think it is 
doing what it was intended to do.
    At DCA, it is still pretty crowded at this point where it 
probably encourages some of us not to go through PreCheck, it 
is faster to go through the regular line. I know that is 
something that has to be worked out over time.
    But I do want to say that where it is working, it is 
working and we appreciate that and trust that as the days go on 
and you work out the arrangements with the airlines itself. I 
appreciate that testimony, because that is not something that I 
thought about. It is proprietary in getting lists of people 
understanding the process or the numbers that are coming 
through, that is just an added point of your consideration. So 
I appreciate that.
    I thank the witnesses for their valuable testimony, the 
Members for their questions. The Members of the committee may 
have some additional questions for the witnesses that we will 
ask you to respond to in writing.
    The hearing record will be held open for 10 days. So 
without objection the committee stands adjourned.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
